 2011




Fiscal Year 2011
United States Army
Annual Financial Report


America’s Army:
At a Strategic Crossroads
 America’s   …Our Nation and its Army are positioned at a unique point in history…

Army: At a
             …We must now consider the hard-won lessons of recent combat experience,
             current and anticipated resource constraints and the uncertainty of the future.
             The decisions we make will have far reaching and long lasting implications…
 Strategic   Transforming the Generating Force by…
Crossroads   …preparing, training, educating and supporting Army forces worldwide, as well
             as working to rapidly address the demands placed on the organization by both
             the current and future operating environments…
             …working to provide “readiness at best value” in order to help us live within
             the constraints imposed by the national and international economic situation…
             …working collaboratively to reform our requirements and resourcing process
             in order to create an organizationally aligned set of capabilities…
             …developing a systematic approach to the Army’s business processes that will
             ensure that innovative ideas and efficiencies influence future budgets…
             Transforming the Civilian Workforce by…
             …calling upon our Civilian Corps increasingly to assume greater levels of
             responsibility and accountability at organizations throughout the Army…
             …integrating requirements determination; allocation and resourcing processes
             that identify the civilian workforce capabilities…
             …improving civilian workforce lifecycle strategy; planning and operations to
             enhance mission effectiveness…
             …establishing an integrated management system to support civilian human
             capital decision making…
             …developing Army civilian leaders and reforming the civilian hiring process…



             On the Cover (From Left to Right): Soldiers descending from an aircraft Operation
             Toy Drop on Fort Bragg (Photo by Tech. Sgt. Jeremy Lock) / US Army Rangers, rope
             bridge training (Photo by John D. Helms) / President Barack Obama and Vice Presi-
             dent Joe Biden shake hands with the troops following the President’s remarks (Photo
             by Pete Souza, White House) / Scouts pull overwatch during Operation Destined Strike
             (Photo by Sgt. Brandon Aird) / A small boy waves an American flag as 1st Infantry Divi-
             sion Soldiers march by during the Sundown Salute Parade (U.S. Army photo by Mollie
             Miller, 1st Inf. Div. Public Affairs) / U.S. Army Spc. Adam Supino takes a break while on
             a security halt (U.S. Air Force photo by Staff Sgt. Ryan Crane) / U.S. Army Soldiers in
             Iraq (U.S. Army photo).
             On the Inside Cover: U.S. Army Capt. Scott Hall looks out the door of a UH-60
             Black Hawk helicopter while flying over the Logar province in Afghanistan. (Photo by
             Sgt. Gustavo Olgiati).
 Army General Fund and Working Capital Fund                                                           1




                                     FY 2011 Contents




01   Message from the
     Secretary of the Army.................................................................. 2



02   Message from the
     Assistant Secretary of the Army
     (Financial Management and Comptroller).................................. 4



03   Management’s Discussion
     and Analysis................................................................................ 6



04   General Fund — Principal Financial
     Statements, Notes, Supplementary
     Information, and Auditor’s Report............................................ 41


05   Working Capital Fund — Principal Financial
     Statements, Notes, and Auditor’s Report................................. 103
2   FY 2011 United States Army Annual Financial Report



            01
            John M. McHugh           Secretary of the Army




                                               “We remain
                                               committed to
                                               fielding the finest
                                               Army in the world –
                                               for the security of our
                                               Nation, its interests
                                               and the American
                                               people.”
                                        Army General Fund and Working Capital Fund                                            3



This year marked the tenth anniversary of the terrorists attacks of September 11th, 2001. These attacks precipitated a
decade-long conflict that has seen our Soldiers deploy, fight and win against skilled and determined enemies in two very
different theaters. Throughout this challenging period, the United States Army – 1.1 million strong and our 300,000
Civilian employees have been focused on achieving victory in these conflicts while simultaneously preparing to meet
unforeseen threats to America’s security.

This period of continuous war has seen great change. We have modernized and modularized our formations, expanded
and updated our Family support services, and begun the daunting challenge transforming the institutional Army to meet
the needs of an expeditionary, 21st century force. We’ve done incredible work and accomplish a great deal. We should be
proud.

But we cannot rest on our laurels or take for granted that the plans we have designed will be executed precisely as we’ve laid
them out. After a decade of expanding budgets, we have entered an era of constrained resources. In order to continue to
provide the best this Nation and our Soldiers and their Families deserve, we must continuously evaluate our organizations
and systems to identify and eliminate redundancies, and ensure we remain good stewards of taxpayer resources.

Inherent in this regard is our continuous improvement in accounting for and reporting each and every obligation and
expenditure. The trust and confidence the American people place in their Army is based in large measure on their faith in
our professionalism. As such, we recognize our responsibility to provide open, accurate information on how we’re using
the resources the Nation provides. The Fiscal Year 2011 Financial Statements disclose how we’ve effectively and efficiently
used taxpayer dollars to lead, train, organize and equip America’s Army.

What our Army has accomplished on the battlefields during this decade of war has been nothing short of miraculous – and
it is a testament to the courage, character and conviction of our Soldiers, their Families and our great Department of the
Army Civilians. It is incumbent upon each of us, as we prepare to make the difficult fiscal choices ahead, that we keep
foremost in our minds our commitments to the America people, our Soldiers and their Families.

We remain committed to fielding the finest Army in the world – for the security of our Nation, its interests and the
American people. And, we remain committed to improving our systems and continuing to transform the institutions that
prepare, train, educate and support our Soldiers and their Families. By better identifying and implementing efficiencies
in everything we do, from our business practices and family programs, to our personnel management, equipment
acquisitions, and improved auditability, we will uphold our commitments to both America’s Army and the American
People and remain the Strength of the Nation.




                                                            John M. McHugh
                                                            Secretary of the Army
4   FY 2011 United States Army Annual Financial Report



            02
            Mary Sally Matiella (Financial Management and Comptroller)
                                          Assistant Secretary of the Army




                                               “Fiscal year 2011
                                               represented a
                                               year of historic
                                               accomplishments for
                                               the Army.”
                                           Army General Fund and Working Capital Fund                                                     5



The Army’s resource managers are responsible for ensuring the efficient and effective use of taxpayer funds in training, organizing and
equipping the Army, and for reporting results in a transparent manner. The Nation’s fiscal constraints and growing budget concerns
provide additional incentives to continue improving our business processes and systems and drive more reliable information from our
business systems. We are several years into changing our business systems, processes, and reporting capabilities allowing us to better
manage our resources and, improve our ability to support our Soldiers and their families.

Our changing financial management processes rely upon the successful deployments of state-of-the-art technology embedded in our
enterprise resource planning (ERP) systems, replacing outdated legacy systems. These ERP systems, including General Fund Enterprise
Business System (GFEBS), Global Combat Support System-Army (GCSS-A), Integrated Pay and Personnel System-Army (IPPS-A)
and Logistics Modernization Program (LMP), are beginning to enable the effective and controlled processes required to sustain our
financial environment. These ERP implementations are challenging, and represent the largest of their kind in the world in terms of
users, geographic reach, and transaction volume. Together, GFEBS, GCSS-A, IPPS-A and LMP will provide a real-time, transparent
integrated view of the Army’s business and financial operations.

Throughout this change, the most important and telling outcome will be financial statements that can be independently validated
and audited. In August 2011, the Army made substantial gains toward achieving auditable financial statements by receiving an
unqualified audit opinion on our general fund appropriations received balance. This means an independent accounting firm validated
that we properly accounted for, controlled and reported more than $232 billion Congress appropriated to the Army. This represents a
substantial component of the Army’s financial statements, a significant audit readiness accomplishment, and provides Congress and the
American taxpayers’ assurance that we accurately account for our appropriated resources.

In fiscal year 2011 we began the annual cycle of financial statement audits to introduce Army headquarters, Commands, installation,
and unit personnel to audit requirements and to ensure the Army’s ERP systems and supporting business processes support a financial
statement audit. Additionally, I directed the initiation of readiness activities across all Army Commands and installations to prepare
the Army to meet the Congressional requirement of asserting auditable financial statements by fiscal year 2017. Each year we will
continue these audit readiness activities across our business processes and systems to ensure we have implemented an effective internal
control environment that allows us to achieve and sustain audit readiness.

Fiscal year 2011 represented a year of historic accomplishments for the Army. With GFEBS, GCSS-A, IPPS-A and LMP as important
enablers, I look forward to the business operations and financial management communities building upon our successes in fiscal
year 2012 and beyond. The Army is committed to continuous improvements in our business environment and providing our
leaders with timely, accurate and reliable business and financial information. The results of our transformation directly impact our
Commanders’ ability to execute their missions. Consequently, we must do everything in our power to provide them with our best
effort.




                                                                  Dr. Mary Sally Matiella, CPA
                                                                  Assistant Secretary of the Army
                                                                  (Financial Management and Comptroller)
6         FY 2011 United States Army Annual Financial Report




                                       03


         “The strength of
      our democracy has
     always rested on the
                                        Management’s
      willingness of those
        who believe in its
                                        Discussion and
       values and in their              Analysis
     will to serve, to give
       something back to
    this country, to fight
          and to sacrifice;
     above all, to do that
        in times of crisis”
    — The Honorable Leon E. Panetta
              (Secretary of Defense)
Army General Fund and Working Capital Fund   7
8           FY 2011 United States Army Annual Financial Report




Overview                                                              Army Force Generation (ARFORGEN) process to leverage
                                                                      modular designs and create a sustainable and predictable
                                                                      deployment schedule for Soldiers and their Families with the
Over the last ten years the Army has gone through unprecedented       ability to surge combat power for major contingencies. In
change and high operational tempo (OPTEMPO), not                      FY 2011, the Army exceeded its air and ground OPTEMPO
experienced since its founding over 236 years ago. The Army           goals for the USAR and ARNG and air OPTEMPO goal for the
of 2011 has radically changed from the Army of 2001 due to            active Army. Due to limited dwell times between rotations, the
improved equipment, training, and the collective lessons learned      impact of equipment reset requirements, and unprogrammed
by leaders and Soldiers during this time of war. Our Soldiers         changes in unit deployment schedules, the active Army met
and leaders at all levels are battle-hardened and combat-proven       92 percent of its ground OPTEMPO goal. The Army conducted
throughout the ranks. Despite the significant improvements            19 of 24 Combat Training Center Rotations, 38 of 40 planned
made by the Army, it continues to face many challenges in             exercises and 9 of 10 counterinsurgency (COIN) seminars.
the future, some foreseen, but many others that may not be            The Army has also invested heavily in modernizing the force,
foreseen. During fiscal year (FY) 2011, the stress on the force       accelerating the fielding of the M4 Carbine, enhancing night
has eased and the Army has restored balance. The Army now             vision devices, and providing the best camouflage uniforms and
has strategic flexibility and operational depth to respond to other   protective equipment possible. In addition, the Army’s Rapid
contingencies and continues to be the strength of the nation.         Equipping Force (REF) introduced over 221 different types
                                                                      of equipment (representing 34,245 individual items) to meet
The Army continues to sustain the quality and viability of the        operational requirements on short notice during FY 2011.
all-volunteer force. Significantly, in FY 2011 the Army exceeded
its recruiting goals both numerically and qualitatively for the       Resetting equipment and units to full capacity through
active Army and the Army Reserve (USAR) and 94 percent of             ARFORGEN is in full swing, with over 80,000 items of
its recruiting goal for the Army National Guard (ARNG). It            organic equipment reset by the end of July 2011. The Army
also met 97 percent of its retention goals for the active Army,       continues to execute a responsible drawdown in Iraq that has
109 percent for the Army Reserve and 115 percent for the Army         retrograded over 2.5 million pieces of equipment to meet other
National Guard. In order to sustain the all-volunteer force,          Army-wide requirements, closed 471 of 505 bases and is on
the Army has improved the quality of life for Soldiers and their      track to complete the drawdown of all U.S. forces in Iraq by
Families by standardizing Army Community Service staffing             31 December 2011. To improve efficiency, the Army continues
and programs, adding 1,170 family readiness support assistant         to implement the Single Army Logistics Enterprise (SALE) as
positions and completing 84 child development centers. The            the overarching logistics business and information technology
Army also has eliminated its inventory of inadequate family           framework. The SALE provides an efficient, streamlined
housing in the continental United States and is on track to           and integrated end-to-end business process in line with
eliminate overseas inadequate housing by the end of FY 2016.          commercial business practices enabling the efficient and effective
In addition, inadequate permanent party, single-soldier barracks      management of the Army’s world-wide logistics system.
are on track to be modernized and occupied by FY 2015.                The Army continues its transformation process; its conversion
In preparing Soldiers, units and equipment for current and            to a modular force, carefully balanced between the Active
future operational environments, the Army has adopted the             Component (AC) and Reserve Component (RC), is nearly
                                                                      complete. The Army has completed conversion of 42 of the
                                            Army General Fund and Working Capital Fund                                                   9




45 active brigade combat teams (BCTs) and completed the              context of today’s security environment in an era of protracted
conversion of all 28 ARNG BCTs. In transforming LandWarNet           confrontation among state, non-state, and individual actors who
with the Network of 2020 imperatives, the Army is reforming          are increasingly willing to use violence to achieve their political
nearly every aspect of network design, implementation and            and ideological ends. New adversaries and the growth in
management. The objective of the Network of 2020 is to make          asymmetric warfare have compelled the Army to transform how
construction and operation easier, more efficient and cheaper        it trains and equips its Soldiers, how those Soldiers are organized,
while improving security and effectiveness to the user. The Army     and how they fight.
has also executed or initiated eight deployment infrastructure
projects to improve force generation and projection. The Army        The Army is committed to remaining the world’s preeminent
has also continued to reposition forces worldwide and completed      land power—relevant and ready at all times to serve the nation
the requirements of the Base Realignment and Closure (BRAC)          and to support our allies. The Army will continue to supply
Commission on 15 September 2011. During BRAC, the                    combatant commanders with the forces necessary to defeat any
Army closed 398 and realigned 53 installations. In meeting           adversary, in any situation, at any time. The Army, therefore,
the requirements of the 2005 BRAC, the Army completed 329            must fully train and appropriately organize its forces, develop
military construction projects at a cost of $13.5 billion.           innovative and adaptive leaders, and design support structures
                                                                     that are appropriate for the twenty-first century global security
Now that the Army has restored balance, its focus is shifting        environment.
to reconstituting the force for other missions, dealing with
the impacts of over ten years of persistent conflict and setting     The Army is a large and complex organization, with more than
conditions for the future. The Army must sustain its all-            566,000 Active Components (AC) and over 567,000 Reserve
volunteer force by providing depth and versatility to the joint      Components (RC) Soldiers. Over 231,000 AC and RC Soldiers
force, being more effective in its employment and providing          are currently deployed or forward-stationed. The Army’s Soldiers
greater flexibility for national decision-makers in defense of our   are supported by over 284,000 Army civilians, who are critical
interests at home and abroad. The Army must ensure that it           members of the institution at every level.
remains the Nation’s source of decisive action.
                                                                     The Army is organized with the primary objective to support and
                                                                     sustain the mobilization, training, and deployment of its Soldiers

Mission and Organization
                                                                     anywhere in the world. The Headquarters, Department of the
                                                                     Army (HQDA) (Figure 1), under the direction of the Secretary

of the Army
                                                                     of the Army and the Army Chief of Staff, leads and manages the
                                                                     entire Army. The HQDA consists of the Army Secretariat and
                                                                     the Army Staff (ARSTAF). The Secretariat is responsible for
                                                                     Army-wide policy development, promulgation, and oversight.
The Army’s mission is to support the national military strategy
                                                                     The ARSTAF assists the Secretariat in the conduct of long-
by providing well-trained, well-led, and well-equipped forces
                                                                     range planning, resource determination and allocation, the
to the combatant commanders. This mission has remained
                                                                     development of Army-wide objectives, the formulation of broad
constant throughout the 236-year life of the Army; however,
                                                                     policy guidance, and the supervision and control of Department
the environment and nature of conflict have changed
                                                                     of the Army activities.
dramatically over that same time. This is especially true in the
10            FY 2011 United States Army Annual Financial Report

                                                         The Army’s command structure (Figure 2) consists of two interdependent pieces: the
                                                         war-fighting or operating force and the generating force. Organizations that report to
                                                         HQDA consist of Army commands, Army service component commands, and direct
                                                         reporting units.

                                                         The operating force consists of numbered armies, corps, divisions, brigades, and
                                                         battalions that conduct full-spectrum operations (FSO) around the world. The
                                                         generating force supports the operating force. Generating force organizations provide
                                                         the infrastructure necessary to raise, train, equip, deploy, and ensure the readiness of
                                                         all Army forces. Without the generating force, the operating force cannot function.
                                                         Without the operating force, the generating force has no purpose.

                                                         The operational Army provides the land-power capabilities for the combatant
                                                         commander. Within the operational Army, the transition continues from a division-
                                                         centric war-fighting force to a brigade-centric force. At the heart of this change is the
                                                         modularization and standardization of Army BCTs, a process that is essential to the
                                                         development of a rapidly deployable, flexible, and powerful force.

                                                         Viewed by its constituent elements, the Army is separated into the AC and RC. The AC
                                                         consists of full-time Soldiers assigned to the operational and institutional organizations that

Figure 1 – Headquarters,
Department of the Army
(HQDA)                                                                                                                The Army           Deputy Under                        The Inspector
                                                                                                                    Auditor General   Secretary of the Army                    General



                                                                                                                  Administrative                                                Chief of
                                                                                                                Assistant to the SA                                        Legislative Liaison



                                                                                                                                                                             Office of Small
                                                                                                                                                                           Business Programs

          Office of the Secretary of the Army
                                                                                                                                   Secretary
                                                                                                                                                     SENIOR ARMY LEADERS
                                                                                                                                                                            Chief Information
                                                                                                      Synchronize




                                                                   ASA
                                                                                                                                  of the Army                                  Officer/G-6
        ASA            ASA                          ASA
                                                                 Financial
     Manpower      Installations      ASA        Acquisition,                   General
     & Reserve           &         Civil Works   Logistics &
                                                                Management
                                                                                Counsel                                       Underr Secretary                                  Chief of
                                                                     &
       Affairs     Environment                   Technology
                                                                Comptroller                                                     of the Army                                   Public Affairs



                                                                                                 Director
                                                                                                Army Staff                       Chief of Staff
                                                                                                                                                                                Chief of
                                                                                                                                  of the Army                                  Chaplains
                                                                                                      Integrate




                                                                                                                                 Vice Chief of
                                                                                                                                                                              The Surgeon
                                                                                                                                      Staff                                     General
          Army Staff                                                                                                              of the Army

                    Army Chief                                                                                                                                              Provost Marshal
                                                                     G-8
         G-1        of Staff for    Chief of        G-4                            G-2           G-3/5/7                                                                        General
                                                                 (Financial
     (Personnel)    Installation   Engineers     (Logistics)                  (Intelligence)   (Operations)
                                                                Management)
                   Management
                                                                                                                                                                             Chief National
                                                                                                                                                                             Guard Bureau


         Defined responsibilities to ASAs                                                                           Sergeant Major     The Judge Advocate                      Chief Army
         Oversight                                                                                                    of the Army            General                            Reserve
     ASA Assistant Secretary of the Army
                                            Army General Fund and Working Capital Fund                                                         11


Figure 2 – Army Command
Structure
                                                  Headquarters
                                              Department of the Army


                                                                                                                 SMDC/
                 FORSCOM TRADOC            AMC                                    ARCENT       EUSA      USASOC ARSTRAT

                                                                                 ARNORTH
                                                                               ARSOUTH

                                                                           USAREUR

                                                                         USARPAC
                                                                       USARAF

                                                                     ARCYBER




                                                                                                         NETCOM/
        USAASC      ATEC        USACIDE    USMA         USARC         MDW           USACE     MEDCOM                   INSCOM        IMCOM
                                                                                                         9TH SC(A)

      LEGEND
                           FORSCOM           Force Command                        USACIDC             US Army Criminal Investigation Command
        Army Command       TRADOC            Training and Doctrine Command        USMA                US Military Academy
                           AMC               Army Materiel Command                USARC               US Army Reserve Command
        ASCC               ARCENT            Army Central                         MDW                  Military District of Washington
        DRU                ARNORTH           Army North                           USACE               US Army Corps of Engineers
                           ARSOUTH           Army South                           MEDCOM              Medical Command
                           USAREUR           US Army Europe                       NETCOM/9th SC       Network Command/9th Signal Command
                           USARPAC           US Army Pacific                      INCOM               Installation Management Command
                           USARAF            US Army Africa                       SMDC                Space and Missile Defense Command
                           USAASA US         Army Acquisition Support Center      ARSTRAT             Army Strategic Command
                           ARCYBER           Army Cyber Command




perform day-to-day Army missions. The RC consists of the ARNG
and the USAR. The Congress annually reviews and mandates the                   Performance Goals,
number of Soldiers that the Army may maintain.

The ARNG has two missions: federal and state. Its federal
                                                                               Objectives, and Results
mission is to provide trained and ready forces for wartime,
national emergencies, and other requirements, as an operational                The Army continues to prosecute the longest war in our nation’s
focus. Its state mission is to train for, and respond to, domestic             history in Afghanistan and, by the end of FY 2011, conclude
emergencies and other missions as required by state law. Unless                the war in Iraq. More than 1 million of our country’s men
federally mobilized, ARNG units are commanded by their state                   and women have deployed to combat; more than 6,200 have
executive, usually the governor.                                               sacrificed their lives; and more than 46,400 have been wounded.
                                                                               The Army continues to be the leader in this war, protecting our
The USAR is the primary federal reserve force of the Army. The                 national interests while helping others to secure their freedom.
USAR provides specialized units and resources to support the                   After more than ten years of continuous combat, the Army is
deployment and sustainment of Army forces around the globe.                    back in balance. The Army continues to sustain the all-volunteer
In addition, the USAR is the main source of individual Soldiers                force and once again have the strategic depth to confront a
to augment headquarters staff and to fill vacancies in the AC.                 multitude of security challenges during a time of significant
                                                                               uncertainty, historic change, and declining defense resources.
The Army has met the challenges of the nation for over 236                     The stress on the force has eased in FY 2011 as the demand for
years. It is postured to continue to defend the nation regardless              forces lowers with the conclusion of Operation New Dawn. The
of the challenges it faces in the future. The Army’s effort to                 Army is funded and poised largely to meet its performance goals
restore balance enables it to be ready whenever and wherever the               by the end of FY 2012.
nation calls.
                                                                               The Army must strengthen the Profession of Arms and preserve
                                                                               the All-Volunteer Army. It must also build on leaders’ current
12          FY 2011 United States Army Annual Financial Report




experience and improve its leader development systems; build         accurately articulating the cost of the Army and its doctrinal
a versatile mix of capabilities, formations, and equipment and       and operational capabilities to the Congress and the American
continue its efforts to enhance the capabilities of its Soldiers     people.
by maintaining its focus on Army Families. As the Army looks
to the future, it must also provide flexibility to leaders, while    The costs associated with full implementation of the President’s
sustaining dominance across a range of operations. In this           Temporary End-Strength Increase of up to 22,000 AC Soldiers
regard, it is critical that the Army implement a modernization       resulted in an annual estimate of $1.59 billion in FY 2011 and
plan that enables it to develop, field, and sustain equipment        $1.08 billion in FY 2012.
in a more responsive and affordable manner. The Army will
                                                                     The Army has identified four imperatives – sustain, prepare,
make fiscally informed investments, thoroughly reviewing costs,
                                                                     reset, and transform – that must be addressed in order to
benefits, risks, and potential areas for trade-offs. It will fully
                                                                     maintain current capabilities and preserve the All-Volunteer
align requirements, acquisition, resourcing, and sustainment
                                                                     Force. The following sections discuss goals and program
processes to ensure all are focused on a common goal. Finally,
                                                                     performance results in the context of the four imperatives.
the Army will develop, field, and sustain the right equipment
in an incremental and iterative manner to provide Soldiers
and units the capabilities they need to be successful in any         Sustain
operational scenario.                                                The Army must maintain the quality and viability of the all-
In FY 2011, the Army updated the Cost of the Doctrinal Army          volunteer force as well as the many capabilities it provides the
Model using improved and refined methods and the latest force        nation in order to sustain Soldiers, Families, and Army civilians
structure associated with accomplishing the missions assigned        in an era of persistent conflict. Sustainment ensures that Soldiers
by the Office of the Secretary of Defense. The Cost of the           and their Families have the quality of life they deserve, which
Doctrinal Army estimate is performed annually independent of         helps to improve retention rates.
the standard Planning, Programming, Budgeting and Execution
(PPBE) process. This estimate tells the Army what it should cost     Manning the Force – Recruiting and Retaining Soldiers
to carry out its missions, using fully equipped and staffed units    While the recruiting environment is challenging, the Army
operating in accordance with established Army Doctrine. The          remains committed to bringing only the very best into its ranks.
Army has found these top-down cost estimates are comparable          The Army’s goal for Tier 1 Educational Credential Holders (e.g.,
to the results contained through PPBE which is a bottom-             those with high school diplomas or above) is to constitute no less
up process. The Cost of the Doctrinal Army identifies the            than 90 percent of new recruits. The Army achieved 99 percent
steady-state Army force structure and associated equipment           Tier 1 recruits in FY 2011, which is a 1 percent increase from
and facilities, and then depreciates the equipment and facility      FY 2010 and a 4 percent increase from FY 2009. The overall
assets to account for the annual investments needed to renew or      attrition rates remained virtually unchanged over the last 3 years.
replace the assets. The estimate includes only peacetime costs,      The static rate and overall quality of recruits are positive signs
excluding overseas contingency operations (OCOs). The result         that the Army is recruiting, training, and retaining a highly
is a Cost of the Doctrinal Army for FY 2012 of $186.5 billion.       qualified force.
The Army will continue to refine its methodology and resourcing
strategy so we produce the leanest possible estimate, while
                                Army General Fund and Working Capital Fund                                                  13




                                 The Army was able to meet its recruiting requirements in all components. To meet
                                 these requirements, the Army adjusted several recruiting initiatives, such as Active First,
                                 the Army Prep School, and the Army Advantage Fund due to the current economy.
                                 Economic conditions in FY 2012 are also expected to yield high-quality recruits.

                                 Due to OCO, several special skills remain in high demand. In FY 2011, the Army
                                 continued to offer a Critical Skills Retention and Accession Bonus (CSRB) to attract and
                                 retain personnel in specific skills areas, including Special Forces, Criminal Investigations,
                                 Military Intelligence, and Field Artillery. Further, medical-related CSRBs were
                                 offered to critical specialties including clinical psychologists, physician’s assistants, and
                                 maxillofacial/oral surgeons. These bonuses, which are a vital tool in retaining Soldiers
                                 who possess valuable combat experience, have helped the Army to exceed its retention
                                 goal for FY 2011. Careful and deliberate adjustments to bonuses, including which
                                 critical skills are targeted, were made to retain the correct mixture of skilled Soldiers.

                                 Recruiting and retaining Soldiers who are confident, adaptive, competent, and able to
                                 handle the full complexity of 21st century warfare in this combined, joint, expeditionary
                                 environment is a highly competitive endeavor. The Army will continue to develop and
                                 to implement programs to address this challenge.

                                 Improving the Quality of Life for Soldiers and Their Families
                                 In order to retain Soldiers, the Army must care for them and their Families by providing
                                 exceptional programs and services that support their well-being and meet the needs
                                 of their Families. The Army is committed to improving the quality of life for Active,
                                 Guard, and Reserve Soldiers and their Families that is equal to the quality of their
                                 service. The Army continues to demonstrate this commitment through the Army Family
                                 Covenant and the Soldier Family Action Plan. In FY 2011, the Army standardized
                                 Army Community Service staffing and programs to meet operational and staffing
                                 shortfalls. Other improvements include adding the following programs:

                                     ■■ Adding 1,170 family readiness support assistant positions;

Table 1 – Quality – Percent
Tier 1 Educational Credential
Holders (Active Component)
                                        TIER 1            FY 2007       FY 2008       FY 2009       FY 2010       FY 2011
                                                  Goal          90%           90%          90%           90%           90%

                                                 Actual         79%           83%          95%           98%           99%
14          FY 2011 United States Army Annual Financial Report




     ■■ Increasing the number of military family life               their Families are receiving the care management and support
        consultants from 112 (FY 2005) to 620 (FY 2010);            they both need and deserve. The Warrior Transition Command
                                                                    (WTC) was established to ensure focused and effective
     ■■ Completing 84 child development centers since               management of all aspects of the Warrior Care and Transition
        January 2008, which provided an additional                  Program. In FY 2011 the Army dedicated $900 million
        13,367 child care spaces and significantly reducing         to resource the WTC mission with support staff, training,
        waiting lists at 41 installations;                          information technology, and investments in 20 facilities,
                                                                    31 Soldier Family Assistance Centers, and 64 administrative
     ■■ Maintaining 95 percent national accreditation of Army
                                                                    headquarters. Staff across the enterprise included all
        child development programs;
                                                                    components, civilians, and contractors – in total nearly
     ■■ Providing over 1 million hours of respite child care to     4,000 squad leaders, platoon sergeants, nurse case managers,
        reduce stress on deployed Families;                         and support staffs facilitate the coordination of care across both
                                                                    warrior transition units (WTUs) and community-based WTUs
     ■■ Supporting more than 150,000 geographically                 (CBWTU).
        dispersed AC and RC children who participated in
        youth outreach activities, camps, and workshops offered     With the WTC at the helm, the Army is caring for a total of
        through Operation Military Kids in 49 states;               approximately 18,000 Soldiers and veterans annually. The WTC’s
                                                                    wounded warrior program cares for approximately 8,100 severely
     ■■ Maintaining Soldier and Family Assistance Centers;          wounded Soldiers and veterans with cases spanning from Post-
        and                                                         Traumatic Stress Disorder to double amputees. This population is
                                                                    supported by 191 advocates in various locations across the country.
     ■■ Placing thousands of spouses in jobs through the Army       There are over 2,200 wounded warriors supported at nine
        Spouse Employment Program.                                  CBWTUs that allow them to heal in their home communities
                                                                    while remaining with their Families. Approximately 7,700 more
Warrior Care and Transition                                         wounded warriors are supported at 29 WTU locations across the
With the continued maturation of the Army’s Warrior Care            nation.
and Transition Program, wounded, ill, and injured Soldiers and


Table 2 – Recruiting
                                                    FY 2007       FY 2008      FY 2009        FY 2010        FY 2011        FY 2011
                                                     Actual        Actual       Actual         Actual          Goal          Actual
                              Active Component         80,407       80,517        70,045          74,577        64,000         64,019

                            Army National Guard        62,914       62,397         52,014        57,204         53,000          47,206

                                   Army Reserve        27,004       26,945        23,684         26,795         19,320         19,996
                                          Army General Fund and Working Capital Fund                                                                             15


                                                To support each warrior in transition’s (WT) return to the force or to veteran status,
                                                the Army developed a systematic framework known as the comprehensive transition
                                                plan (CTP). The CTP is a six-part process, which includes an individual plan created
                                                by the WT with the assistance of dedicated cadre and support personnel. Using a
                                                standardized framework, this process enables wounded and ill Soldiers to customize their
                                                recovery plan, enabling them to set and reach their personal goals. In FY 2011, funding
                                                supported the return to duty of approximately 50 percent of the wounded warrior
                                                population. Other warriors have successfully transitioned to civilian life furthering their

Table 3 – Active Component
End Strength Within 2 Percent

                                                    FY 2007                FY 2008                 FY 2009                 FY 2010                FY 2011
                                      Goal              518,400                 529,191                552,400                 562,400                 569,400
                          Congressional
                                                        518,400                 525,400                532,400                 562,400                 569,400
                               Baseline
                                    Actual              522,017                 543,645                553,044                 566,045                 566,500

                           Percent Delta                   +0.7%                   +3.5%                   +3.9%                  +0.7%                    -0.5%

                 Performance Measure: The number of Soldiers on active duty at the end of the year; data are as of the end of each fiscal year. When the President
                 declares a state of national emergency, end-strength limits can be waived.




Table 4 – Reserve (ARNG and
USAR) End Strength Within
2 Percent
                                                      FY 2007                FY 2008                 FY 2009                 FY 2010                FY 2011

                                         Goal             550,000                 556,300                563,200                 563,200                 563,200

                                       Actual             542,589                 557,375                563,688                 567,296                 567,010

                             Percent Delta                     -1.3%                 +0.2%                   +0.1%                  +0.7%                   +0.7%

                    Performance Measure: The number of Soldiers in the ARNG and the USAR at the end of FY 2011. When the President declares a state of
                    national emergency, end-strength limits can be waived.



Table 5 – Active and Reserve
Component Retention
                                                  FY 2007             FY 2008            FY 2009             FY 2010            FY 2011             FY 2011
                                                   Actual              Actual             Actual              Actual              Goal               Actual
                      Active Component                62,200              73,913             68,387              60,000             45,000              43,626

                   Army National Guard                 37,578             29,618             36,672              30,472             34,429              39,750

                           Army Reserve                16,571             16,523              11,163             10,330             11,663              12,934
                  Performance Measure: Measures the number of Soldiers reenlisted during a given FY against the published goals. All components achieved their
                  retention mission for FY 2011. The AC FY 2011 actual includes Soldiers who extended enlistments for deployment through the Deployment
                  Extension Incentive Pay program.
16          FY 2011 United States Army Annual Financial Report




education and/or obtaining positions in the workplace. Initial       The Army’s strategy to eliminate inadequate barracks for its
success indicators can also be attributed in part to an aggressive   Training Barracks Modernization Program remains on course
non-clinical rehabilitative program. Funding-supported pillars       for completion in FY 2015, with the new barracks available
of this program include activities such as adaptive reconditioning   for occupancy in FY 2017. The goal is to construct new
activities (sports, mental, etc); the inauguration of the world      barracks to eliminate the deficit and to complete restoration and
class para-athlete competition Warrior Games (physical/mental);      modernization of 91,530 Soldier (spaces) while the potential
comprehensive Soldier fitness – performance enhancement and          occupants attend basic training, one-station unit training, and
other similar programs geared toward the holistic healing and        advanced individual training. As of FY 2011, 58,893 spaces have
mental and physical fitness of the Army’s wounded and ill.           been completed.

Improving Soldier and Family Housing                                 The Army executed four unaccompanied personnel housing
                                                                     privatization initiatives for staff sergeants and above at Forts
The Army’s commitment and congressional support for housing          Irwin, Drum, Bragg, and Stewart. Together, these facilities
programs continue to demonstrate our pledge to provide a             will provide 1,394 one-bedroom apartments in areas that have
quality of life for Soldiers and their Families commensurate         limited available rental properties for these grades.
with their service. In concert with the private sector, the Army
continues to focus considerable effort on improving family
housing and the Barracks Modernization Program. The Army’s
                                                                     Prepare
inventory of inadequate family housing has been eliminated           To prepare Soldiers, units, and equipment, the Army must
at enduring U.S. locations through privatization and the             maintain a high level of readiness for the current operational
demolition and divestiture of uneconomical and excess units.         environments, especially in Afghanistan and Iraq, while taking
The Army will continue to improve or replace family housing          into consideration potential future conflicts. The Army is
residences worldwide in order to maintain adequate housing           continually adapting training and materiel to keep pace with
and meet Defense Department goals and will reflect these             an evolving enemy. We remain committed to providing our
improvements in its property records.                                deploying Soldiers with the best available equipment, so that
                                                                     they can maintain a technological advantage over any enemy
 All installations scheduled to have housing privatized are
                                                                     they may face.
completed. The total number of installations where housing is
privatized is 44, with an end-state inventory of 85,424 homes.
The Residential Communities Initiative program is in the
                                                                     Providing Support for Operational Requirements
portfolio and asset management phase.                                The pace of operations in the new security environment
                                                                     presents a number of significant force management challenges
The Army is on track to eliminate inadequate permanent party,        to the Army. As a result of the Army’s global commitments,
single-soldier barracks and to complete the modernization            approximately 187,600 Soldiers are deployed or forward-
program for these barracks by FY 2013. The new barracks              stationed in nearly 150 countries overseas. As of 21 September
are expected to be available for occupancy in FY 2015. As of         2011, approximately 566,500 personnel were serving in the AC,
FY 2011, the Army has 146,524 adequate spaces funded of the          and approximately 63,320 RC Soldiers were on mobilization
155,980 spaces required.                                             orders.
                                                        Army General Fund and Working Capital Fund                                                                            17


                                                            Repeated deployments affect recruiting and retention and have a real impact on the
                                                            Army’s ability to care for Soldiers and their Families. The Army is pursuing numerous
                                                            initiatives that will reduce force-management risk to meet today’s challenges and to
                                                            position Soldiers better for the future.

                                                            The ARFORGEN process leverages modular unit designs and the operational cycle to
                                                            create a sustainable deployment posture with units that are ready in predictable patterns
                                                            with the capacity to surge combat power for major operations. When fully operational,
                                                            ARFORGEN will enable the Army to effectively and efficiently schedule fully-ready
                                                            units for deployment, which will:

                                                                  ■■ Reduce uncertainty for Soldiers, Families, and the communities that support
                                                                     installations;

                                                                  ■■ Improve the availability of forces for combatant commanders;

                                                                  ■■ Generate a continuous number of available BCTs, augmented by all required
                                                                     supporting organizations (given appropriate mobilization authority); and

                                                                  ■■ Enable the Army to surge additional BCTs augmented by all required
                                                                     supporting organizations (given appropriate mobilization authority).

                                                            Training Soldiers
                                                            Initial entry training develops the Soldier’s war-fighting capability through the training of
                                                            individual warrior tasks and battle drills. To ensure tasks remain relevant to the operating
                                                            environment, the Army reviews and updates these tasks and drills every two years.

                                                            The Army continues to augment its ability to conduct irregular warfare through several
                                                            numerous functional courses that build on language and cultural competencies and
                                                            improve Soldiers’ and civilians’ knowledge of and capabilities in electronic warfare, red
                                                            teaming (opposing forces), counterterrorism, weapons of mass destruction, civil affairs,
                                                            information operations, counter-explosive hazards, and operational law.

                                                            Training Units
                                                            In FY 2011, the Army provided trained and ready forces to commanders around the
                                                            globe in addition to meeting critical homeland defense missions. To make sure Soldiers
                                                            were combat-ready in FY 2011, they engaged in an appropriate mix of live, virtual, and
                                                            constructive training. The AC and RC executed a focused and demanding ground and

Table 6 – Individual Training

                                                                                     Initial Military Training
                                                                        Advanced                                     Officer               Warrant                Initial
                         Basic Combat           One-Station             Individual          Basic Officer           Candidate            Officer Entry         Entry Rotary
                           Training             Unit Training            Training          Leader Course             School                 Course                Wing
   2009 Trained
                                 82,766                35,118               108,096                 23,343                  2,457                 2,585                 1,098
        (actual)
   2010 Trained
                                 75,922                32,126               105,050                 18,977                  2,306                 2,273                 1,132
        (actual)
   2011 Trained
                                 56,602                20,310                 67,114                11,970                    928                 1,976                    575
       (interim)

NOTES: This data represents active Army, ARNG, and USAR students graduating from AC schools. All data is based on start date (i.e. if a class starts in FY 2009 and
graduates in FY 2010, it is counted in the FY 2009 data). Example: The initial basic training class that started in July 2009 is counted as a 2009 trained Soldier and is not part
of the numbers in the table above. The actual trained data for 2010 and interim trained data for 2011 are as of 16 September 2011.
18            FY 2011 United States Army Annual Financial Report

                                                        air training plan, which included actual miles driven and hours flown as well as virtual
                                                        miles driven and hours flown associated with the use of simulators. In FY 2011, home-
                                                        station training miles and hours executed were impacted by the limited dwell times
                                                        between rotations, the impacts of equipment reset requirements, and unprogrammed
                                                        changes in unit deployment schedules into theater.

                                                        Training Support Systems
                                                        The Army’s Training Support System (TSS) enables the execution of training at home
                                                        stations, Combat Training Centers (CTCs), and institutions by creating realistic
                                                        conditions that reflect the operational environment. TSS provides critical training enablers
                                                        including ranges and targets; live-virtual-constructive and gaming Training Aids, Devices,
                                                        Simulators, and Simulations (TADSS); instrumentation systems; training facilities;
                                                        maintenance support of TADSS; and training support operations and management.

                                                        The Army continues to adapt TSS to support ARFORGEN training requirements
                                                        and lessons learned from current operations. At home stations, training must support
                                                        Soldiers, leaders, and units conducting full-spectrum operations (FSOs) training under
                                                        realistic conditions. Ranges are being modernized to integrate digital systems that enable
                                                        squads and platoons to train as they fight, as well as to provide commanders and leaders
                                                        with objective data to assess their units’ performance and training levels. New ranges
                                                        are being built at locations to support gunnery requirements in accordance with the
                                                        Army Campaign Plan, and urban operations training facilities are being constructed and
                                                        fielded to provide units a complex urban environment for training. This live training
                                                        environment will be further enhanced with a Home Station Instrumentation Training
                                                        System (HITS). HITS is a key component of a persistent live, virtual, and constructive
                                                        integrated training environment that will be implemented at selected home stations.
                                                        This architecture links ranges, urban complexes, and training areas to Mission Training
                                                        Complexes (MTC) which house constructive simulations and gaming, as well as
                                                        simulation facilities incorporated with virtual TADSS.

                                                        New and improved live-virtual-constructive and gaming TADSS are being fielded to
                                                        improve training against improvised explosive devices (IEDs). Virtual simulators, IED
                                                        simulators, gaming simulations, and convoy live-fire systems provide a complete package
                                                        for battle drills, learning tactical techniques and procedures, and generally raising IED
                                                        situational awareness.
Table 7 – Ground and
Air Operational Tempo
(OPTEMPO)                                                     FY 2008              FY 2009               FY 2010               FY 2011        FY 2011
                                                               Actual               Actual                Actual                 Goal          Actual
                             AC Ground OPTEMPO
                                                                  503.0                 605.0                 427.0                 418.0        386.0
                                       (Mileage)
                                   AC Air OPTEMPO
                                                                    12.6                  10.0                   9.9                   9.1        11.4
                                      (Flight Hours)

             ARNG Ground OPTEMPO (Mileage)                        138.0                 119.0                 123.0                 105.0        108.0

                               ARNG Air OPTEMPO
                                                                      8.4                  9.4                    9.1                  5.5         8.8
                                    (Flight Hours)

             USAR Ground OPTEMPO (Mileage)                        151.0                 146.0                 132.0                 106.0        106.0

                               USAR Air OPTEMPO
                                                                      7.8                  5.5                    5.1                  5.6         7.3
                                    (Flight Hours)
NOTE: FY 2008 through FY 2011 reflects home-station execution only. FY 2011 amounts are estimates based on execution, as of September 2011.
                                                      Army General Fund and Working Capital Fund                                                                           19


                                                           The Army also is modernizing the MTCs and training simulations to increase leader and
                                                           battle-staff training and to improve mission-rehearsal capabilities for deploying units.
                                                           The MTCs provide units the ability to train and to sustain critical individual/operator
                                                           and battle-staff skills on digital command, control, communications, intelligence, and
                                                           surveillance and reconnaissance systems. The MTCs will also network with other
                                                           installations and simulations to support joint training exercises. The MTC serves as the
                                                           hub for an installation’s live-virtual-constructive integrated training environment.

                                                           Army training modernization, including manpower and operations support required to
                                                           maintain and operate TADSS, must continue to keep pace with equipment modernization
                                                           and Army transformation. This will ensure that training supports current operations,
                                                           addresses ARFORGEN training and readiness requirements, and enables training for
                                                           FSO.

                                                           Adapting Training
                                                           In FY 2011, the Army conducted 19 of 24 planned rotations at the CTCs, 38 of 40
                                                           planned exercises, and 9 of 10 Counterinsurgency (COIN) Seminars at the Mission
                                                           Command Training Program (MCTP) due to current deployment demands. The CTCs
                                                           provide realistic joint and combined-arms training that approximates actual combat
                                                           consistent with Army and joint doctrine. The CTCs are at the core of the Army’s
                                                           collective training strategy and have dedicated resources beyond those available at home-
                                                           station training sites. Training is specifically tailored to prepare units for the conditions
                                                           in the theater to which they will deploy as well as to provide a free-thinking enemy and
                                                           lessons learned feedback through a professional staff of observer/ controllers. While the
                                                           CTCs retained the capability for major combat operations-oriented unit training, which
                                                           is needed for other potential theaters of war and new modular brigades, the current
                                                           focus is counter-insurgency operations and lessons learned from combat in Afghanistan
                                                           and Iraq. The training environment emphasizes rapid change and adaptation to current
                                                           activities while using improved facilities, civilians on the battlefield, and realistic
                                                           scenarios. While home station training focuses on battalion staff and company level
                                                           collective training proficiency, the CTCs have the unique capability to train brigade level
                                                           and above staffs and develop battalion level and above collective tasks. The complex,




Table 8 – Professional
Development (AC Schools Only)


                                                                                                           Sergeants Major        Intermediate Level Senior Service College
                                     Warrior Leader        Advanced Leader          Senior Leader         Course Resident &      Education Resident    (SSC) Resident &
                                        Course                 Course                  Course             Distance Learning      (ILE), Common Core    Distance Learning

   2009 Trained (actual)                     28,368                  22,321                  11,248               540/495              1,110/905                 257/247

    2010 Trained (actual)                    30,190                  12,717                   9,893               265/601              1,124/912                 198/326

  2011 Trained (interim)                     25,911                  10,942                   9,277               265/331              1,071/614                 210/338

NOTES: This data represents active Army, ARNG, and USAR students graduating from active component schools. The 2011 resident ILE classes do not graduate (1,071
inputs) until December 2011 and June 2012. All data is based on start date (i.e., if a class starts in FY 2011 and graduates in FY 2012, it is counted as FY 2011 data).
Actual 2010 trained data and interim 2011 trained data are as of 19 September 2011.
20       FY 2011 United States Army Annual Financial Report

                                       event-driven scenarios challenge the BCTs to execute multiple, simultaneous missions
                                       that include integrated enablers from the Army and the joint community.

                                       Growing Adaptive Leaders
                                       The Army has developed and will continue to develop leaders who have proven
                                       themselves competent, confident and agile at every level in every cohort and component,
                                       in order to meet the challenges our Army and the nation face. Army leaders have
                                       performed magnificently and resiliently in two wars and under a harsh operations
                                       tempo resulting in a rich body of knowledge throughout the Army. The current
                                       operational environment proves that leaders must possess skills beyond those of pure
                                       tactical warfighting. It demands leaders who have developed skills in such disciplines as
                                       irregular warfare, information operations, negotiation, cultural awareness, stability and
                                       reconstruction operations, as well as foreign language proficiency without losing their
                                       war-fighting focus.

                                       Due to the current high operational demand, many Army leaders are unable to attend
                                       Professional Military Education (PME) at the optimal time in their career. As a result,
                                       the Army has a large backlog at nearly all educational levels in both the AC and
                                       RC. To slow the growth of the backlog, the Army employed mobile training teams
                                       for Noncommissioned Officer Education System courses and increased the use of
                                       distributed learning to conduct PME within the constraints of ARFORGEN. As mission
                                       requirements change, the Army expects the availability of leaders to attend PME to increase
                                       significantly thus reducing the current backlog.

                                       The Army is keenly aware of the valuable contributions of its Army Civilian Corps in
                                       supporting the National Military Strategy. The Army must provide its civilians training,
                                       education, and operational experiences that develop leader competencies and enhance
                                       their ability to support Soldiers, the Army, and the nation. The Army has accomplished
                                       this by revamping the Civilian Leader Development Program into a system that is similar
                                       to the Military Leader Development Program. Specifically, the Civilian Education
                                       System (CES) meets the Secretary of the Army’s mandate that leaders of tomorrow
                                       be “adaptable and multi-skilled.” This requires a centralized development program
                                       for training and educating the Army’s future civilian leaders “who will serve in both
                                       operational and institutional capacities to operate, and win, in this new environment.”

                                       The CES uses leadership competencies derived from those set by the DoD Civilian
                                       Leader Development Framework and those identified by the Center for Army
                                       Leadership. CES courses provide leader development training and education that
                                       support Civilian leaders’ career path requirements and professional development as well
                                       as promote life-long learning and self-development.

                                       Section 1113 of the 2010 National Defense Authorization Act (NDAA) and the Federal
                                       Supervisory Training Act outline specific requirements for the development of a mandatory
                                       supervisor training course for all DoD supervisors (Civilian and Military). Supervisor
                                       training must include the use of the new NDAA authorities, prohibited personnel
                                       practices, and mentoring of new supervisors. First-time supervisors (in job less than
Table 9 – Civilian Professional
Development
                                                                         Industrial College of
                                            Army War College                Armed Forces             Civilian Education System
                         2011 Inputs                             13                              3                       26,641
                                            Army General Fund and Working Capital Fund                                                 21




2 years) are required to complete training no later than 1 year from       ■■ Establish leader competency-based training in
the date on which they are appointed to a supervisory position.               conjunction with the Army competency management
                                                                              system;
The Army has revised the Supervisor Development Course
to meet the NDAA requirements. Supervisor training for all                 ■■ Establish fellowships and Joint Interagency
supervisors of civilian employees will promote the development                International and Multinational broadening
of world class leaders and provide opportunities for new                      assignments for senior Army civilians;
managers and supervisors to interact and learn from each other.
Supervisor training will develop a diverse cadre of leaders who            ■■ Increase outreach and communication to the Army
can manage across the enterprise, ensure the continuity of the                Civilian Corps to increase CES participation; and
leadership and supervisory pipeline and promote the Army’s
                                                                           ■■ Establish NDAA-directed Supervisory Training.
vision for competency-based development across the leadership
continuum.                                                             Improvements to CES and the successful implementation of new
                                                                       initiatives will reduce redundancies in the Army civilian training
In direct support of the Secretary of the Army’s initiative to
                                                                       programs by providing overarching processes that enable the
transform the Army civilian workforce, the Civilian Training
                                                                       civilian population to be managed across the human capital life
and Student Account (CTSA) was established for Army-funded
                                                                       cycle from an enterprise perspective.
civilians attending an Army Senior Service College (SSC). This
account mirrors the Military Trainees, Transients, Holders, and
Students account by reassigning SSC participants, who have
                                                                       Modernizing and Equipping the Army
been selected to attend the Army War College and the Industrial        The Army will continue to develop and field a versatile and
College of the Armed Forces resident programs, to an HQDA-             affordable mix of equipment that will enable Soldiers to succeed
centralized operational Table of Distribution and Allowances.          in full spectrum operations today and tomorrow, ensuring that
Assigning SSC participants to the CTSA enables the losing              the decisive advantage held over any enemy the Army might
command immediately to backfill against the position and to            face is maintained. Since FY 2002, the Army has responded
mitigate disruptions to the organization mission.                      to the many lessons learned from Operations Iraqi Freedom,
                                                                       New Dawn, and Enduring Freedom. Indeed, force protection,
With the success of the CTSA in FY 2010, the Army continued            communications, surveillance, and weapon systems programs
the utilization of the CTSA in FY 2011and then placed the              were accelerated to meet urgent Soldier needs. The Army has
graduates in Army Enterprise positions where most needed by            invested in a variety of new equipment to replace the outdated
the Army. Other recent initiatives will continue to be worked          and expensive-to-maintain equipment to include trucks and
and implemented to provide a more robust training program that         aircraft. As an example, the Army divested all M35 series trucks
improves access for all Army civilians. They include, but are not      (2.5-ton) at the end of FY 2011 and will replace all M809 series
limited, to the following:                                             trucks (5-ton) with a family of medium tactical vehicles by the
                                                                       end of FY 2012.
    ■■ Establish an Army-wide civilian training management
       system;                                                         The Army also has accelerated the fielding of the M4 carbine,
                                                                       enhanced night vision devices, and continued efforts to
                                                                       provide Soldiers the very best camouflage uniforms and
22           FY 2011 United States Army Annual Financial Report




protective equipment possible. To address a unique operational
requirement, the Army invested in the mine-resistant ambush-
                                                                        Reset
protected vehicle (MRAP). The Army’s aviation fleet was                 Units returning from theater enter the Reset phase of
significantly modernized through procurements of UH-60M                 ARFORGEN which restores Soldiers, units, and equipment for
Black Hawk, CH-47F Chinook, and AH-64D Apache attack                    future deployments and other contingencies to the desired level
helicopters. Additionally, a new GCV program will initiate the          of combat capability commensurate with a unit’s future mission.
modernization of the Army’s fighting vehicles.                          Reset reverses the effects of combat stress on equipment and
                                                                        extends the life of vital systems and platforms that have been
The Rapid Fielding Initiative (RFI) continues to enhance war-           used at unprecedented rates in harsh and demanding desert
fighting capabilities through modernized technology to address          and mountain environments. In addition, the Army must also
the Soldiers’ immediate requirements. A total of 32 BCTs and            revitalize Soldiers and their Families by providing them the time
numerous other OCO-deploying units in the ARFORGEN                      and the opportunity to recover from the cumulative effects of
operating cycle comprising 222,286 Soldiers were fielded RFI            sustained operations.
equipment during FY 2011.

The REF provides rapid capabilities to Army forces employed             Repair, Replace, and Recapitalize Equipment
globally by harnessing current and emerging technologies to             In FY 2011, the Army Equipment Reset program was directly
improve operational effectiveness. The REF’s priority is at             impacted by operational decisions made in support in the
the deployed brigade and BCT level, focusing on commercial              drawdown of forces in Iraq and the expansion of forces in
off-the-shelf and government off-the-shelf solutions to increase        Afghanistan. As of 31 July 2011, the Army completed the Reset
effectiveness and reduce risk. The REF maintains forward                of over 8,000 items in Organic Depots, and 294 Brigade’s worth
deployed teams to interact with deployed units to identify,             of equipment as units returned from deployment. The Army
equip, and evaluate their requirements and capability shortfalls.       also obligated 59 percent of its FY 2011 items using Other
In FY 2011, the REF introduced over 221 different types                 Procurement, Army funding to replace or recapitalize battle loss
of equipment, and provided more than 34,245 individual                  or damaged equipment in its tactical wheel and aviation fleet
equipment items to deployed Soldiers and units in the past              programs. A fully funded Army Reset program ensures that
11 months.                                                              equipment is operationally ready for use by combat forces when
                                                                        needed for the next contingency.
The Army continues to invest in the ARNG and USAR to
enhance their mission capabilities and to ready forces entering
                                                                        Drawdown in Iraq
the ARFORGEN cycle for deployment. The fleet age of trucks,
combat vehicles, communications systems, and Soldier weapon             The drawdown in Iraq is the largest logistics operation since
systems continues to decline as new equipment is fielded to             World War II. While simultaneously supporting the warfighter,
the RC. The ARNG and USAR forces preparing to deploy are                the Army is successfully executing the final phase of the
fielded with the very best modernized equipment, eliminating            retrograde and redistribution of equipment from Iraq under a
the disparity in modernization between the AC and RC, thus              responsible drawdown. The base closure and transition plan
achieving a critical goal in the effort to create strategic depth and   is on track to complete the retrograde and redistribution of
operationalize the RC.                                                  property. The Army has closed and/or transferred 93 percent of
                                                                        the bases in theater to the Government of Iraq. Specifically, the
                                          Army General Fund and Working Capital Fund                                             23




Army closed 471 out of 505 bases with 34 remaining. Eleven       Enhancing Logistics Readiness
enduring bases will remain under the control of the Department
                                                                 Logistics information systems yield an unprecedented shared
of State (DOS) and Office of Security Cooperation-Iraq
                                                                 awareness of logistics processes, capabilities, requirements, and
(OSC-I). The Army is on schedule to meet the 31 December
                                                                 resources. Decision support tools, empowered with the shared
2011 mandate in accordance with the Security Agreement to
                                                                 awareness, enable logistics leaders effectively to plan, execute,
have all forces out of Iraq and complete the transition to the
                                                                 control, and assess sustainment and war-fighter functions
DOS led United States Mission – Iraq. Approximately 17,000
                                                                 across the Army. The Army continues to implement the SALE
DOS and OSC-I personnel and contractors will remain in
                                                                 as the Army’s overarching logistics business and information
Iraq after the 31 December mandate. Over 70 percent of the
                                                                 technology framework providing Army-wide logistics efficiency
17,000 population are contractors. Some of the United States
                                                                 gains of interoperability, traceability, accountability, and
Forces-Iraq and Third Army/Army Central Command key
                                                                 transparency. The Army continues its two-tiered strategy:
accomplishments are as follows:
                                                                 (1) continued support to current systems still in the field; and
    ■■ Retrograded over 2.5 million pieces of equipment          (2) implementation of enterprise resource planning solutions
       out of Iraq to meet other theater and Army-wide           such as the Logistics Modernization Program (LMP), the Global
       requirements;                                             Combat Support System – Army (GCSS-A), and the Army
                                                                 Enterprise Systems Integration Program (formerly Product
    ■■ Reduced the number of vehicles (rolling stock) to         Lifecycle Management Plus).
       11,947;
                                                                 The following are key accomplishments during FY 2011:
    ■■ Shipped out more than 60,000 containers;
                                                                     ■■ The GCSS-A rolled out the federal financial template, a
    ■■ Reduced the supply support activities footprint by               key step towards auditability; and
       82 percent, downsizing from 22 to 4; and
                                                                     ■■ The LMP finished Deployment 3 roll-out at the Tank
    ■■ Transferred over 650 of the 1,700 pieces of tactical             and Automotive Command.
       equipment approved as excess and is on track to
       transfer the remainder.                                   The SALE initiatives provide an efficient, streamlined, and
                                                                 integrated enterprise resource planning capability (tactical to
The Army continues to work with U.S. Forces-Iraq to identify     national) and end-to-end business process fully supporting the
equipment for transfer that will enable the Iraqi Security       warfighter that is in line with commercial best business practices.
Forces (ISF) to reach minimum essential capabilities (MEC).      SALE enables the Army to efficiently and effectively manage
To date, the Army has transferred 61 percent of the required     its worldwide logistics system. The Army must continue to
42,515 items to the ISF to enable them to achieve MEC. This      implement the SALE to improve logistics processes and tactical
equipment includes wheeled and tracked vehicles, weapons,        logistics operations as it continues to field the federated GCSS-A
ammunition, and repair parts. The Army transferred these items   and the General Fund Enterprise Business System (GFEBS)
to the Government of Iraq under the provisions of several U.S.   financial solutions for the Army.
congressional authorities.
24          FY 2011 United States Army Annual Financial Report




As of 31 July 2011, more than 80,000 items have been repaired          multi-functional and functional support brigades, all based on
at depot-level facilities. This includes, for example, more than       standardized organizational designs across the three components.
660 tracked vehicles (e.g., Abrams tanks and Bradley fighting          The intent of this transformation is to:
vehicles), more than 2,000 tactical-wheeled vehicles (e.g., high-
mobility, multipurpose, wheeled vehicles, and medium and                   ■■ Increase the number of available BCTs to meet
heavy tactical vehicles), and more than 14,500 individual and                 operational requirements;
crew-served weapons (e.g., rifles, pistols, and machine guns).
                                                                           ■■ Create brigade-size combat support and combat-service
Meanwhile, the Army’s Special Repair Teams brought additional
                                                                              support formations of common organizational designs;
depot-level expertise out into the field, completing repairs to over
                                                                              and
528,000 items including small arms, night-vision devices, and
communications electronics, as well as chemical and biological             ■■ Redesign organizations to perform as integral parts of
gear. Furthermore, the Aviation Special Technical Inspection and              the joint force, making them more effective across the
Repair program restored more than 290 fixed and rotary wing                   range of military operations by enhancing their ability
aircraft to combat capability.                                                to contribute to joint, interagency, and multinational
                                                                              efforts.
Transform
                                                                       Of the 45 AC maneuver brigades programmed for the end
To transform, the Army must continuously improve its ability           of FY 2011, the Army finished converting 42 brigades to the
to meet the combatant commanders’ needs in a changing                  modular design and was in the process of converting one to a
21st century security environment. Transformation is a holistic        heavy BCT. The conversion process can take up to 12 months
effort to adapt how the Army fights; trains; modernizes; develops      for an AC-heavy BCT and infantry BCT, and as long as
leaders; bases its forces; and supports Soldiers, Families, and        24 months for a Stryker BCT.
civilians. Transformation is a journey, not a destination.
                                                                       The ARNG began transforming in FY 2005 with an accelerated
Growing and Modularizing the Army                                      plan allowing early implementation under the new BCT
                                                                       designs. Transformation for an ARNG BCT can take as long as
Operating in an era of persistent conflict and the requirement         48 months. By the end of FY 2011, the ARNG had successfully
to maintain a forward presence created both the necessity and          completed the full conversion of all 28 BCTs to a modular
the opportunity to accelerate change from the current to the           design. The ARNG BCTs continue to modernize in order to
future force. The Army’s conversion to a modular force which is        maintain interoperability with their AC counterparts.
carefully balanced between the AC and RC is nearly complete.
Modularity is intertwined throughout the force to the point            The overall transformation plan is on track to achieve a
that it is now indistinguishable as a separate effort. As a result,    combined total of 73 BCTs: 45 in the AC and 28 in the ARNG.
the Army is more versatile, lethal, expeditionary, agile, and          Initial transformation covers training, manning, and organization
interoperable.                                                         only; equipment transformation will occur over time. Table 10
                                                                       provides a summary of BCT transformation.
The Army modular force reorganizes the operational Army
into Army Service Component Commands, theater support
structures, Corps and Division Headquarters, BCTs, and
                                          Army General Fund and Working Capital Fund                                                                        25


                                                Providing Advanced Technologies
                                                The Army’s Science and Technology strategy supports the Army’s goal to restore balance
                                                between current and future demands by providing new technologies to enhance
                                                upgrades and modernize systems in the current force and to enable new capabilities
                                                in the future force. The Army’s Science and Technology investment strategy pursues
                                                technologies to field forces that are lighter, yet more lethal, more sustainable, and
                                                more agile while achieving new capabilities such as the ability to locate, tag, and track
                                                enemies.

                                                A new comprehensive Science and Technology (S&T) strategy specifically addresses
                                                war-fighter outcomes (WFO) developed annually by the Army’s Capabilities
                                                Integration Center (ARCIC). The Army’s S&T community in concert with combat
                                                developers in ARCIC and across Training Doctrine Command will place greater
                                                emphasis on demonstrating capabilities rather than a maturing a technology. This
                                                new S&T strategy culminates with Technology Enabled Capability Demonstrations
                                                (formerly Army Technology Objectives) to place advanced capabilities into the hands
                                                of small units and Soldiers earlier. In addition, this process establishes a stronger
                                                partnership between the S&T community, Army leadership and Soldiers.

                                                Similarly, the Army is partnering with other Services, Combatant Commands and
                                                agencies in the Joint Capability Technology Demonstration (JCTD) program and
                                                will transition mature technologies in the form of capabilities, to the Warfighter more
                                                quickly. Particularly important is the S&T community’s ability to rapidly provide
                                                limited or interim capabilities to Warfighters in response to highly adaptive threats.
                                                In this way, mature technologies can be rapidly exploited to modify currently fielded
                                                systems. The S&T vision is to provide technology enabling capabilities that empower,
                                                unburden and protect our Soldiers in an environment of persistent conflict.



Table 10 – BCT Transformation
Summary

                                                    FY 2007                FY 2008               FY 2009                FY 2010                FY 2011

                         AC Transformed                         35                     38                    39                     42                      42

                     ARNG Transformed                             0                     0                      7                    14                      28

                     Total Transformed                          35                     38                    46                     56                      70



                        AC Transforming                           4                     2                      3                      1                      1

                    ARNG Transforming                           26                     28                     21                    14                       0

                    Total Transforming                          30                     30                     24                    15                       1



                  Total Transformation                          65                     68                    70                     71                      71

             NOTES: Transformed means the unit has completed its initial reorganization and re-equipping to a modular design within resource constraints,
             is participating in the ARFORGEN process, and may be used against a requirement. Transforming means the unit is still undergoing initial
             reorganization and re-equipping to a modular design within resource constraints. The last 2 Army brigades (numbers 72 and 73) do not begin
             transformation until FY 2012 and FY 2013, respectively, and are not counted in this table.
26          FY 2011 United States Army Annual Financial Report




LandWarNet Operational Capabilities and Focus                         Developing the Network of 2020
The Army has transitioned to a continental United States-based        The Army plans to develop the Network of 2020 through
“expeditionary force,” over the past 10 years and as such, access     the reform of nearly every aspect of Network design,
to reliable and trusted information is critical to its mission        implementation, and management. The objective is to make
success. Whether deploying to an austere theater of operations        construction and operation of the Network easier, more
or responding to a humanitarian crisis, the Army has become           efficient and cheaper, while constantly improving the Network’s
heavily reliant upon a robust Network infrastructure and              effectiveness to the end user and its security.
services supporting war-fighting capabilities as well as business
operations around the world. The vision for this robust Network       Standardization and centralization are crucial elements of this
is a completely integrated, secure, accessible, interoperable         across-the-board reform. The Army has already applied these
and affordable network that provides information to Soldiers,         principles to the Network foundation, establishing a uniform
civilians, and mission partners when they need it, in any             basic architecture. The Common Operating Environment
environment - from garrison to the tactical edge. Recently, the       (COE) is a centrally approved, commercially based set of
focus is an enterprise approach across the Army to build out the      computing technologies and standards to which the Network
Network. This will allow communication, technology priorities         itself and all applications and systems riding the Network
and investment strategies to align those requirements with the        must adhere. It defines minimum configurations for the Army
ARFORGEN and operational capability set management. The               computing environments, from the enterprise server to mobile
end result will ensure that the Army Network provides the most        small handheld devices, and is the key to creating a Network that
effective infrastructure and services to enable war-fighter mission   enables rapid insertion of new technology. Alignment with the
success and Army business support operations.                         COE is now mandatory for new systems and capabilities. The
                                                                      Army is in the process of bringing existing programs of record
Over the past year, the focus has continued to be on Army             (POR) and non-PORs into compliance, as well.
data centers and enterprise services, most notably Enterprise
Email. These initiatives are essential to the initial phases of       To solidify the base established by the COE, the Army has also
transforming and building the network. The Army Data                  standardized to a single mode of information transmission,
Center Consolidation Plan is a strategic implementation plan          regardless of format or delivery means. Whether text, voice,
to consolidate data centers and applications, provide enterprise      video, signal or other type of data, the Network will move it via
hosting as a managed service, and improve the security of Army        a non-proprietary internet protocol, a method dubbed “EoIP”
information assets. The Defense Information Systems Agency-           (Everything over Internet Protocol).
hosted DoD Enterprise Email provides the Army unclassified
                                                                      Getting the right information at the right time requires universal
and classified email services from a managed services provider.
                                                                      accessibility. Therefore, the Army is also standardizing and
This has allowed access to email anytime from any location in
                                                                      centralizing the provision of data, applications and services.
the DoD using smartcard authentication and has allowed more
                                                                      The most visible efforts include cloud-based enterprise email,
than a 1,000 percent increase in mailbox size. Both current
                                                                      collaboration capabilities, directory services and authentication.
initiatives are significant for the transformation of the Army’s
                                                                      In addition, the Army’s data center consolidation initiative is
network and to realize savings.
                                                                      using a unified cloud-computing operation model to move
                                                                      application into the DoD cloud as much as possible; then
                                           Army General Fund and Working Capital Fund                                              27




leveraging commercial infrastructure; and, as a last resort,        70 percent complete, with a completion date of January 2012.
utilizing Army-owned data centers (data centers store, manage       The third project expands the pier and hardstand to be able to
and/or disseminate data, information and command, control,          adequately position larger roll-on/roll-off and container ships.
communications and computer service to the entire force). The       The project is 55 percent complete, with an expected completion
Army must normalize Network tactics, techniques, procedures         ahead of schedule in March 2012.
and defense, as well.
                                                                    The next two projects are to construct a consolidated multi-class
Developing Force Generation Platforms in Support of                 munitions handling, storage, and shipping facility as well as a
Army Force Generation                                               depot level ammunition igloo at McAlester Army Ammunition
                                                                    Plant (AAP). The first project corrects ammunition shipping/
Eight deployment infrastructure projects were executed or           receiving deficiencies to provide more efficient and timely
initiated in FY 2011. These projects support the “Flagships of      out-loading, especially for small quantity shipments, which
Readiness” concept.                                                 experienced a 50 percent increase at McAlester AAP in the past
                                                                    few years. This project is 75 percent complete, with an expected
The first project, a rail head upgrade and expansion project at
                                                                    January 2012 completion. The second project constructs an
Fort Carson, improves the out-loading of a heavy BCT from
                                                                    ammunition storage igloo designed to store returning munitions
the current 240 railcars per day to the 275 railcars per day
                                                                    from the Middle East. Due to late passage of the FY 2011
requirement. This project constructs five additional spurs to
                                                                    budget, the contract for this project was only recently awarded.
handle the growth at Fort Carson as documented in the Grow
the Army stationing plan. The project also includes constructing    The seventh project is to construct an alert holding area and
an additional siding to the access track to allow direct railcar    defense readiness reaction facility at Fort Bliss to enhance out-
pickup by commercial trains as opposed to taking the railcars       loading of equipment and Soldiers. Fort Bliss has experienced
to the nearest commercial interchange yard at Kelker Junction.      the most growth of any U.S. installation as outlined in the Grow
Construction is 70 percent complete and is scheduled for            the Army stationing plan. This project upgrades the out-loading
completion in February 2012.                                        of equipment and Soldiers to handle the growth and is funded
                                                                    through the Grow the Army initiative. This facility is complete
The next three projects improve out-loading at the seaport in
                                                                    and operational.
Charleston Naval Weapons Station, the only military general
cargo seaport in the southeast region. This seaport has been very   The eighth project is to construct a staging area complex at
busy supporting current real-world operations in the Middle         Fort Bragg. This complex consolidates staging area activities
East, for both deployment and redeployment. The first of these      for efficiently deploying airborne units to meet global response
three out-loading projects upgrades paving, lighting, and fencing   force requirements and is funded through the Grow the Army
of the port. This upgrade improves security for equipment           initiative. Due to late passage of the FY 2011 budget, this
and personnel during deployment and also helps protect              project is  5 percent complete with an expected completion of
equipment from damage. The project is 86 percent complete,          December 2012.
and completion is anticipated a month ahead of schedule in
December 2011. The second of these three projects upgrades
rail capabilities from 40 railcars per day to 60 railcars per day
to meet rail requirements fully. Construction for this project is
28          FY 2011 United States Army Annual Financial Report




Implementing Base Realignment and Closure /                           resources dedicated to funding 329 major construction projects
Restationing Forces                                                   valued at $13.5 billion. The Army met its BRAC obligations
                                                                      within the 6-year implementation window ending 15 September
The intent of Base Realignment and Closure (BRAC) 2005
                                                                      2011. A few Army BRAC 2005 recommendations have residual
was to support the Army’s transformation by positioning
                                                                      actions to complete, and Army senior leaders continue to manage
assets to provide better support to our missions, Soldiers,
                                                                      their completion.
civilians, Reservists, and their Families. BRAC 2005 also
accommodated the rebasing of overseas units within the Global         The Army completed the conveyance of approximately
Defense Posture Realignment Basing Strategy, and divested an          46 percent (23,372 acres) of all excess property during the
accumulation of installations that were either no longer relevant     BRAC 2005 implementation period. Caretaker activities will
or were less effective in supporting a joint and expeditionary        continue until environmental restoration is complete and all
Army. In partnership with other Services, the Army used               remaining excess property is conveyed.
BRAC 2005 to transform RC infrastructure to create more
operational opportunities for joint training and deployment.          Implementing Business Transformation Initiatives
This transformation created efficiencies in core Army business
processes.                                                            Starting in 2009, the Secretary of the Army, acting through the
                                                                      Chief Management Officer, has been responsible for carrying
Under BRAC 2005, the Army closed 11 AC installations,                 out an initiative for the business transformation of the Army.
387 RC installations, and 8 leased facilities. Additionally, BRAC     The Secretary established the Office of Business Transformation
2005 realigned 53 installations and/or functions and enabled the      (OBT) in order to concentrate on achieving business process
Army to establish multi-component headquarters, joint Army            improvement. The OBT’s objectives are to:
training centers of excellence, joint bases, joint power projection
platforms, a human resources centers of excellence, and joint             ■■ Transform business operations,
technical and research facilities. To accommodate the relocating
                                                                          ■■ Improve the effectiveness and efficiency of business
units from the closed RC installations, BRAC 2005 authorized
                                                                             processes,
125 new multi-component armed forces reserve centers and
realigned the USAR command and control structure.                         ■■ Transform business systems information technology,
For the Army, BRAC 2005 was more than three times larger                  ■■ Promote resource-informed decision-making, and
than the four previous Army BRAC rounds combined with
an unprecedented $17.8 billion total implementation cost,                 ■■ Achieve integrated management.
which represented 51 percent of the overall DoD BRAC 2005
program. The Army is in the final year of the 6-year BRAC 2005        These objectives will culminate in an adaptive Generating Force
execution window. The Army developed 102 business plans to            that better supports the agile and versatile Operating Force.
define further the BRAC 2005 Commission recommendations,              These objectives are also expected to successfully prioritize,
including more than 1,100 actions. These actions represented          balance, and integrate Army activities and resources in the
the requirements necessary to achieve full implementation.            present and postures for success in the future. The integrated
A majority of the BRAC 2005 actions were dependent on                 management system focuses the entire Army towards results with
construction at gaining installations with 75 percent of the total    emphasis on cutting costs while modernizing a mission-ready
                                            Army General Fund and Working Capital Fund                                               29


force: A “Readiness at Best Value” rather than “Readiness at Any     Additionally, the Army continues to develop and implement
Cost” approach.                                                      modern system solutions that improve the quality and efficiency
                                                                     of various business processes including financial, accounting,
During FY 2011, the Continuous Performance Improvement/              real property, and cost management across the enterprise. The
Lean Six Sigma (CPI/LSS) element within the OBT continued            GFEBS is the centerpiece of this effort as it provides the core
to provide enabling activities to the overall Army Business          financial systems capability to support an unqualified audit
Transformation and the Secretary of the Army’s reformation of        opinion of the Army’s General Fund. In addition, the GFEBS
the Generating Force. All efforts support the strategic guidance     transforms business processes to enable better-informed
and direction of the Army’s Chief Management Officer. The            decisions, better-managed resources, and better support to
CPI/LSS community has focused its efforts on performance             the warfighter. This system integrates funding, real property
improvement across the Army. These efforts range from realizing      management, financial accounting, cost management and
operational benefits in logistics throughput in Afghanistan          related output, and performance data in an Enterprise Resource
and Iraq (United States Army Central Command’s CPI/LSS               Planning system. The GFEBS is a web-based system that
activities) directly are impacting our warfighters, to achieving     provides real-time visibility of data for the AC, the ARNG, and
better performance and financial benefits within the Generating      the USAR. This solution will enable the Army to move to a cost
Force.                                                               and performance culture. During FY 2011, the Army added
                                                                     over 21,000 new users at 140 major locations in the United
In FY 2011, the OBT CPI/LSS element, in concert with the
                                                                     States, Europe, and Korea, and completed the entire ARNG.
Assistant Secretary of the Army for Financial Management and
                                                                     The Army will complete world-wide implementation of the
Comptroller (ASA(FM&C)) and Deputy Assistant Secretary of
                                                                     GFEBS during FY 2012.
the Army for Cost and Economics (DASA-CE) staff, was able
to better connect the outcomes of CPI/LSS projects contained         The Army continues to transform from a budget focus to a cost
in the Army’s project management database—PowerSteering              and performance culture, which requires that leaders understand
with the financial management activities inherent in building        the full cost of the capabilities they provide and incorporate cost
the Army’s Program Objective Memorandum (POM). This                  considerations in their planning and decision-making processes.
enhanced connectivity is both at the technical level (database       This new approach enables the Army to achieve its readiness and
connectivity) and at the operational level.                          performance objectives more efficiently and effectively.
The CPI/LSS continues to be a rigorous proven methodology            To cultivate this cost culture, the Army is executing education
to achieve performance improvement at any level. In FY 2011,         and training programs for military and civilian personnel at all
the multiple projects conducted across all commands within           levels, supporting both the resource management and functional
the Army, to include its RCs, have yielded $1.6 billion in cost      communities. The Army established the graduate-level Cost
savings and $5.8 billion in cost avoidance. The future of CPI/       Management Certificate Course (CMCC) to educate and
LSS within the Army is bright. The Army’s program continues          develop cost-savvy subject matter experts to serve as senior leader
to rely on training CPI/LSS practitioners that return to their       staff advisors. The Army trained 162 students in the CMCC
units of assignment to tackle projects their leaders support.        in FY 2011, achieving 96 percent of its training goal. The
This past year, the CPI/LSS community trained 1,305 new              Army Training and Doctrine Command (TRADOC) and ASA
practitioners from entry level experience through enterprise level   (FM&C) developed and piloted two new courses in cost analysis
expertise to support Army Business Transformation and assist in      and management in FY 2011. Principles and Intermediate Cost
the reform of its Generating Force.                                  Analysis and Management, both 3-week courses, will be offered
30          FY 2011 United States Army Annual Financial Report

through resident and mobile training teams through TRADOC            A decade of war has damaged or destroyed vast numbers of
in FY 2012. The Army continued offering a 4-hour cost-benefit        the Army’s systems. From vehicles to weapons, much of its
analysis (CBA) training program of instruction during FY 2011        equipment is in need of overhaul or repair and will continue
to enable resource-informed decision making within the Army.         to need reset after the draw down in Iraq and Afghanistan is
Over 1,100 additional individuals completed the CBA training         complete.
in FY 2011 bringing the total since February 2010 to over
2,200. Additionally, the Army provided Cost Management               The resources and support provided in FY 2012 and beyond
101 training, a program of instruction designed to educate the       will determine whether the Army can continue to maintain
GFEBS sites about cost management principles in advance of           momentum of the key programs, accomplish its mission, and
system deployment, to over 750 individuals in FY 2011.               prepare to succeed in whatever tasks the Army faces today and
                                                                     tomorrow.
Conclusion
During the last 12 months, the Army component of U.S.
Central Command is on a path to successfully conclude
                                                                      Management Assurances
Operation New Dawn by the end of calendar year 2011,
completing one of the largest retrograde operations in our           Commanders and managers throughout the Department of the
nation’s history. The Army has nearly completed transformation       Army annually ensure the integrity of their reporting systems,
of the operational force from division-centric to brigade-centric    programs, and operations. This section focuses on the Army’s
and has successfully restored balance across the force.              system of internal controls to comply with such laws as the
                                                                     Federal Financial Management Improvement Act (FFMIA) and
Despite all the Army’s long and difficult efforts, more remains      the Federal Financial Manager’s Financial Integrity Act (FMFIA).
to be done. Continuing reforms to take advantage of the              The requirements promote the production of reliable, timely,
technology, knowledge and experience available to enable the         and accurate financial information through efficient and effective
Institutional Army to do things faster, smarter and better.          internal controls. By having effective internal controls, the Army
Army institutions and processes – from personnel to training         is able to improve efficiency, operating effectiveness and enhance
and development to materiel systems – must have the same             public confidence in Army stewardship of public resources.
unparalleled ingenuity, flexibility and adaptability as their
operational forces. Only by identifying gaps, managing strategic     Chief Financial Officer Compliance
risks, encouraging innovation, preparing intelligently and
adapting rapidly can the Army be ready for future challenges.        The passage of the Chief Financial Officers (CFO) Act of 1990
In some cases it may not be what the Army changes, but what          required major federal agencies to prepare audited financial
is no longer done. To this end, the Army has established             statements for the first time. In 1994 the Government
the Institutional Army Transformation Commission. This               Management Reform Act (GMRA) extended the CFO Act to
commission will focus on achieving greater efficiencies and will     include agency-wide reports from all major executive branch
set the conditions for longer-term efforts to transform the way      agencies and their components. The Government Performance
the Army provides trained and ready forces for the future.           and Results Act (GPRA) of 1993 required agencies to
                                                                     systematically report on plans and performance. The FFMIA of
The Army’s acquisition system is in need of significant reform       1996, along with the Clinger-Cohen Act of 1996 (also known as
in order to ensure success in the future. The acquisition system     the Information Technology Management Reform Act), required
will become more agile, flexible, economical, fair, and effective.   that agencies install integrated systems that comply with federal
Comprehensive efforts are being aggresively engaged to reform        accounting standards and produce auditable financial statements
the Army’s procurement methods with the following goal: to           in accordance with Office of Management and Budget (OMB)
develop and field a versatile and affordable mix of equipment        Circular A-136, Financial Reporting Requirements. Additionally,
that will enable Soldiers to succeed in full spectrum operations     agencies must follow generally accepted accounting principles
today and tomorrow, ensuring that we maintain our decisive           (GAAP) formulated by the Federal Accounting Standards
advantage over any enemy we face.                                    Advisory Board (FASAB).
The Army’s Total Army Analysis 14-18 will assess capabilities
and develop an affordable, competent POM force, capable of           Internal Controls
supporting national objectives and combatant commanders’
                                                                     The Army operates a robust Manager’s internal control
operational needs. Using efficient employment, the Army will
                                                                     program in compliance with OMB Circular A-123 to employ
seek the right capabilities to effectively support the combatant
                                                                     a comprehensive system of continuous evaluation of internal
commanders’ requirements. In an era of fiscal uncertainty, Army
                                                                     controls and is fully integrated with functional program control
power will come through prudent investment and employment
                                                                     assessments. In strict adherence to The Office of the Under
of our Nation’s precious resources.
                                          Army General Fund and Working Capital Fund   31


Secretary of Defense (Comptroller) guidance, the Army reports
a level of assurance over its internal controls in three distinct
areas: Internal Controls over Non-Financial operations, Internal
Controls over Financial Reporting, and Internal Controls
over Financial Systems. See the complete Army Statement of
Assurance at http://asafm.army.mil/offices/FO/IntControl.
aspx?OfficeCode=1500.

Internal Controls Over Financial Reporting
As stated in the Army’s Annual Statement of Assurance dated
August 29, 2011, “Although we continue to make progress in
improving internal controls over financial reporting for the
General and Working Capital Funds, I provide no assurance that
as of June 30, 2011 the Army’s internal controls for financial
reporting were operating effectively. This assessment is based
on auditor’s inability to render and audit opinion; over 5,000
uncorrected actions identified in our financial improvement
plan; and 13 weaknesses associated with the General Fund and
nine weaknesses associated with the Working Capital Fund.”
32       FY 2011 United States Army Annual Financial Report


                                      Analysis of Financial Statements
                                      and Stewardship Information
                                      As discussed in the accompanying independent auditor’s report, long-standing
                                      financial management challenges prevent the Army from producing auditable financial
                                      statements for the Army General Fund (Army GF) or the Army Working Capital
                                      Fund (Army WCF). The Army, however, continues to work with the DoD to develop
                                      sustainable business practices and enhanced internal controls that will improve financial
                                      management processes and produce quality financial management information. These
                                      processes must be supported by compliant business systems and an effective set of
                                      management controls.

                                      Army GF Financial Results and Balance Sheet
                                      The Army GF Balance Sheet includes total assets that exceed $381.6 billion.
                                      Two asset categories, Fund Balance with Treasury and General Property, Plant
                                      and Equipment (GPP&E), comprise 89 percent of total assets, with values of
                                      $166.9 billion and $171.9 billion, respectively.

                                      Liabilities primarily consist of $31.8 billion in Environmental Liabilities and
                                      $8.6 billion in Accounts Payable.

                                      The GPP&E account increased $6.9 billion due to additions of military equipment
                                      (e.g., mine-resistant, ambush-protected vehicles, high mobility, multi-purpose wheeled
                                      vehicles, and Stryker vehicles).

Figure 3 – Composition of
Army GF Assets and Liabilities
                                                                                                2%
                                       3%
                                 8%


                                                                               26%



                                                           44%
                                                                                                                  57%

                         45%
                                                                               15%




                                  Army General Fund Assets                     Army General Fund Liabilities
                                       Fund Balance with Treasury                    Environmental Liabilities
                                       General Property, Plant and Equipment         Accounts Payable
                                       Inventory                                     Other Liabilities
                                       Remaining Assets                              Remaining Liabilities
                                         Army General Fund and Working Capital Fund                             33



Table 11 – Select GF Assets and
Liabilities (Amounts in billions)

                                                                                                Percentage of
                                 ASSET TYPE              FY 2010     FY 2011     Change        FY 2011 Assets

                 Fund Balance with Treasury                 $166.9      $166.9        $0.0                   44%

                 General Property, Plant and Equipment       165.0       171.9        6.90                   45%

                 Inventory                                    34.1        31.2        (2.9)                   8%

                 Remaining Assets                             13.3        11.6        (1.7)                   3%

                 Total Assets                               $379.3      $381.6        $2.3                 100%




                                                                                                Percentage of
                               LIABILITY TYPE            FY 2010     FY 2011     Change       FY 2011 Liabilities

                 Environmental Liabilities                   $33.4       $31.8      ($1.6)                   57%


                 Accounts Payable                             12.6         8.6       (4.0)                   15%


                 Other Liabilities                            16.5        14.4       (2.1)                   26%


                 Remaining Liabilities                         1.3         1.3         0.0                    2%


                 Total Liabilities                           $63.8       $56.1      ($7.7)                 100%
34          FY 2011 United States Army Annual Financial Report


Army WCF Financial Results                                                meet six months of capital investment program disbursements,
                                                                          plus the amount of any positive accumulative operating results
The Army WCF activities maintain the Army’s combat readiness              that is to be returned to customers.
by providing supplies, equipment, and ordnance necessary to
prepare, sustain and reset our forces in the most efficient and           The cash balance is primarily affected by cash generated
cost-effective manner possible. In performing this mission,               from operations; however, the balance is also affected by
WCF activities are obligated to control and minimize costs.               appropriations, transfers, and withdrawals. Maintaining a proper
Financial performance is measured through cash management,                cash balance depends on setting rates to recover full costs—
net operating results (NOR), and accumulated operating results            including prior year losses—accurately projecting work load and
(AOR). Operational performance is measured by carryover, stock            meeting established operational goals.
availability, and production.                                             The Army WCF ended FY 2011 with a cash balance of
                                                                          $1,900.5 million, $882.1 million above the 10-day cash level
Cash Management                                                           of $1,018.4 million. The Army WCF cash balance will return
                                                                          to a balance closer to the 10-day level when operations in Iraq
The current balance of funds with the U.S. Treasury equals
                                                                          and Afghanistan decline, and payments associated with the
the beginning of the fiscal year amount plus the cumulative
                                                                          delivery of replacement stocks and the repairs of spares are
fiscal-year-to-date amounts of collections, appropriations and
                                                                          higher than inventory sales.
transfers-in, minus the cumulative fiscal-year-to-date amounts
of disbursements, withdrawals and transfers-out. The Army                 Table 12 shows an overall growth in cash primarily from
WCF is required to maintain a positive cash balance to prevent            operations and direct appropriations offset by transfers out.
an Antideficiency Act violation under 31 USC, § 1517(a),                  The Army WCF received direct appropriations for war reserve
Prohibited obligations and expenditures. Unlike appropriated              materiel, inventory augmentation, replacement of inventory
funds, the Army WCF cash balance is not equal to outstanding              combat losses, and higher fuel costs. Transfer for FY 2011
obligations; however, the cash-on-hand at Treasury must be                was directed by Congress to cover a cut in the Operation and
sufficient to pay bills when due.                                         Maintenance, Army appropriation. At some point, part or all of
                                                                          the transfers will require repayment to ensure that the fund has
Sufficient cash levels should be maintained to support seven-
                                                                          sufficient cash on hand.
to-ten days of operational disbursements, plus adequate cash to




Table 12 – Army WCF Cash
                                                                                FY 2009               FY 2010               FY 2011
                               (Amounts in millions)

                               Collections                                 $         16,676.7    $         16,315.7     $        13,742.5
                               Disbursements                                         17,421.0              15,626.9              13,004.7
                                   Net Outlay                              $           (744.3)   $            688.8     $             737.8
                               Appropriations Recceived                                 545.4                   50.0                  54.6
                               Transfers Out                                          1,023.0                 280.0                 700.0
                                   Net Cash Transactions                   $         (1,221.9)   $            458.7     $             92.4
                                   Cash Balance                            $        $1,349.5     $          1,808.1     $         1,900.5
                               Amounts may not sum due to the rounding.
                                        Army General Fund and Working Capital Fund                                                  35



                                            Net Operating Results and Accumulated Operating Results
                                            The NOR represents the difference between revenues and costs within a fiscal year.
                                            The AOR represents the aggregate of all recoverable net earnings, including prior-year
                                            adjustments, since inception of the Army WCF. The goal of the Army WCF is to
                                            establish rates that will bring the AOR to zero in the budget year. An activity group’s
                                            financial performance is measured by comparing actual results to the budget’s NOR and
                                            AOR.

Table 13 – Net and
Accumulated Operating Results
by Activity Groups

                OPERATING RESULTS
                                                         FY 2009                     FY 2010                       FY 2011
                (Amounts in millions)
                              Industrial
                                                                     ($31.6)                     $57.3                        $113.8
                        Operations NOR
                              Industrial
                                                                     $462.6                     $525.6                        $639.4
                       Operations AOR*


                             Supply
                                                                     $516.5                    ($125.1)                      ($108.0)
                     Management NOR
                             Supply
                                                                     $460.1                     $335.0                        $227.0
                     Management AOR
                *Includes prior-period AOR adjustments


                                            Carryover
                                            Carryover is the dollar amount of orders accepted from customers that have not been
                                            completed by the end of a fiscal year. It is a normal part of doing business. These orders
                                            enable the industrial workforce to maintain continuity in production operations. The
                                            Army expects the carryover for FY 2011 to be less than the maximum allowable amount.

                                            Stock Availability
                                            Stock availability measures the percentage of requisitions filled within established
                                            timeframes. The DoD and Army have set a target 85 percent stock availability. The Army
                                            exceeded this goal in both FY 2009 and FY 2010.

Table 14 – Army WCF
Carryover
                (Amounts in millions)                    FY 2009                    FY 2010                       FY 2011

                            New Orders                             $6,393.1                   $6,196.5                   $7,262.5

                   Allowable Carryover                             $3,327.3                   $4,075.5                   $4,711.3*

                 Calculated Carryover                              $3,146.0                   $3,452.0                   $4,435.3*

               * Estimated amounts
36       FY 2011 United States Army Annual Financial Report


Figure 4 – Stock Availability
Perentage

92

90                                                                                            Target
                                                                                              Stock Availability
88

86

84

82

80

78

76
        Q1      Q2       Q3     Q4         Q1          Q2         Q3         Q4         Q1          Q2         Q3         Q4

                  2009                                   2010                                          2011



                                     Production
                                     Although the industrial operations activity group is comprised of 13 activities, the
                                     preponderance of workload is performed at the 5 hard-iron maintenance depots. Major
                                     operations in Afghanistan place tremendous demands on equipment. As a result of the
                                     higher operating tempo, rough desert environments, and limited depot maintenance
                                     available in theater, operational fleets age at a far greater pace than expected. To counter
                                     this, the Army established a reset program designed to reverse the effects of combat stress
                                     on equipment and to prepare equipment for future missions. Industrial operations
                                     received $2.9 billion in reset orders, representing approximately 39 percent of FY 2011
                                     new orders.

                                     The Army’s depots and their efforts to partner with industry are critical to the entire
                                     reset effort. These repair programs must continue through the end of the current conflict
                                     and for at least three additional years to reconstitute equipment completely. Due to
                                     actions taken in support of wartime requirements, the industrial operations activity
                                     group significantly increased depot production over pre-war levels, as illustrated in
                                     Table 15.

                                     The aircraft increase shown in the FY 2011 column of Table 15 is due to increases in
                                     production requirements. The decrease to the annual production throughout of High
                                     Mobility Multipurpose Wheeled Vehicle (HMMWV) from FY 2010 to FY 2011 is due
                                     to the end of combat operations in Iraq which contributed to a lower requirement for
                                     HMMWVs in FY 2011. In addition, HMMWVs were initially planned to be recapped
                                     in FY 2011, but the continuing resolution precluded the start of this work until
                                     3rd Quarter, FY 2011. Track shoe production levels decreased from FY 2010 to FY 2011
                                     due to a decrease in expected operational levels for the M1 and Bradley fighting vehicles.
                                     The drop in production results from the customer decreasing the requirements and is
                                     not related to any production issues.
                                              Army General Fund and Working Capital Fund                                                      37


Table 15 – Annual Production
Throughput1

                                                           Pre-War                   FY 2009                FY 2010               FY 2011

                                        Aircraft                            4                   70                         74               101

                         Helicopter Engines                           <200                      817                       468               760

                                      Bradleys                          144                1,384                          758      Not Available2

                                     HMMWVs                           <100                 9,813                      6,189               2,090

                           Firefinder Radars                              <1                    30                         61                 31

                                 Track Shoes                      120,000                110,293                   120,667                39,161
         1
          Throughput is the number of weapon systems completed for any given year.
         2
           Number not available by publishing date




                                                   Army WCF Balance Sheet
                                                   The Army WCF balance sheet shows assets exceeding $29.5 billion, primarily in
                                                   Inventory and Fund Balance with Treasury. Liabilities consist of Accounts Payable and
                                                   Other Liabilities, which include payroll, benefits, accrued annual leave, and workman’s
                                                   compensation.


Figure 5 – Army WCF Assets
and Liabilities
                                                   3%
                                            5%
                                                                                                        13%
                                   7%




                                                                                                                                    48%
                                                                                               39%

                                                                   85%




                                            Army WCF Assets                                     Army WCF Liabilities
                                                   Inventory                                          Accounts Payable
                                                   Fund Balance with Treasury                         Other Liabilities
                                                   General Property, Plant and Equipment              Military Retirement and
                                                   Remaining Assets                                   Other Federal Employee Benefits
38      FY 2011 United States Army Annual Financial Report


Table 16 – Army WCF Assets
and Liabilities

                              ASSET TYPE                                                     Percentage of
                           (Amounts in millions)       FY 2010      FY 2011     Change      FY 2011 Assets

               Inventory                               $22,309.8    $25,211.5    $2,901.7              85%

               Fund Balance with Treasury                1,808.0      1,900.5        92.5                7%

               General Property, Plant and Equipment      1,397.8      1564.4      166.6                 5%

               Remaining Assets                            981.3        908.9      (72.4)                3%

               Total Assets                            $26,496.9    $29,585.3    $3,088.4            100.0%


                                                                                            Percentage of
                             LIABILITY TYPE                                                    FY 2011
                           (Amounts in millions)       FY 2010      FY 2011     Change        Liabilities

               Accounts Payable                           $762.2       $783.4      $21.2               48%


               Other Liabilities                           440.5        644.5      204.0               39%

               Military Retirement and
                                                           219.9        221.6         1.7              13%
               Other Federal Employee Benefits

               Total Liabilities                        $1,422.6     $1,649.5     $226.9             100.0%

               Amounts may not sum due to rounding.
                                                      Army General Fund and Working Capital Fund                                                                         39




                       04                                  Required Supplementary
                                                           Stewardship Information and
                                                           Required Supplementary
                                                           Information




Stewardship information relates to expenditures involving a                              deferred maintenance relates to maintenance needed on Army
substantial investment by the Army for the benefit of the nation.                        facilities that has not been funded. At the end of FY 2011, the
When made, these expenditures are treated as expenses in the                             Army reported approximately $37.0 billion in deferred real
financial statements.1 Since these expenses are intended to provide                      property maintenance on facilities with a replacement value of
long-term benefits to the public, they are reported as supplemental                      approximately $259.9 billion. Real property deferred maintenance
information in the financial statements. There are four areas on                         totals approximately 14 percent of estimated replacement
which the Army reports stewardship information: (1) nonfederal                           value of the facilities requiring maintenance. The nine major
physical property; (2) investments in research and development                           categories of military equipment deferred maintenance totaled
(R&D); (3) deferred maintenance; and (4) heritage assets and                             approximately $2.4 billion at the end of FY 2011. Electronic
stewardship land.                                                                        and communication systems equipment represented the largest
                                                                                         category of deferred equipment maintenance at approximately
Investment in nonfederal physical property is an expense incurred                        $834.3 million.
by the Army for the purchase, construction, or major renovation
of physical property owned by state and local governments. An                            Heritage assets are comprised of property, plant and equipment
example of this type of investment is funding provided to the                            (PP&E) of historical, natural, cultural, educational, or artistic
Army National Guard (ARNG) for assistance in the construction                            significance. Stewardship land is land other than that acquired
of an ARNG facility on state land. Since the facility is constructed                     for, or in connection with, general PP&E. The Army’s heritage
on state land, it is the property of the state; therefore, the Army                      assets are comprised of buildings and structures, archeological sites,
cannot report it as an asset. However, since the funds were used to                      museums, and museum collection items.
acquire a mission-related state facility, the outlay is tracked as an
investment in nonfederal physical property.                                              Detailed information concerning most stewardship information
                                                                                         may be found in the Required Stewardship Supplementary
Investments in R&D are based on R&D outlays (expenditures).                              Information (RSSI) and Required Supplementary Information
Outlays are used because current Army accounting systems are                             (RSI) sections of this report. Heritage assets and stewardship land
unable to capture and summarize costs in accordance with federal                         are no longer reported in the RSI; they are now required to be
accounting standards. The R&D programs are classified as basic                           reported in a note to the statements.2 Additional information on
research, applied research, and development.                                             heritage assets and stewardship land may be found in Note 10 of
                                                                                         the Army GF statements.
Stewardship information is also comprised of real property
and military equipment deferred maintenance. Real property

1
 Federal Accounting Standards Advisory Board. Statement of Federal Financial Accounting Concepts and Standards (June 30, 2008). Statement of Federal Financial Accounting
Standards 8: Supplementary Stewardship Reporting, page 762. Found at http://www.fasab.gov/pdffiles/codification_report2010.pdf on October 23, 2011.
2
 ibid. Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, pages 9 and 13 and Technical Release 9: Implementation Guide for
Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, page 46. SFFAS 29 found at http://www.fasab.gov/pdffiles/sffas_29.pdf on
October 23, 2011. Technical Release 9 found at http://fasab.gov/aapc/technicl.html on October 23, 2011.
40   FY 2011 United States Army Annual Financial Report
                                                                                              Army General Fund                          41
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




                                                      Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant to the
requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed by the
Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign entity.
42          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Department of Defense - Army General Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2011 and 2010 (Amounts in thousands)                                     2011 Consolidated           2010 Consolidated
ASSETS (Note 2)
    Intragovernmental:
         Fund Balance with Treasury (Note 3)                                             $             166,985,312   $          166,987,504
         Investments (Note 4)                                                                                3,205                    3,218
         Accounts Receivable (Note 5)                                                                      538,573                1,006,385
         Other Assets (Note 6)                                                                             888,607                1,033,623
         Total Intragovernmental Assets                                                  $             168,415,697   $          169,030,730

    Cash and Other Monetary Assets (Note 7)                                                              1,432,966                1,776,209
    Accounts Receivable, Net (Note 5)                                                                      960,325                  819,603
    Loans Receivable (Note 8)                                                                                    0                        0
    Inventory and Related Property, Net (Note 9)                                                        31,180,416               34,113,653
    General Property, Plant and Equipment, Net (Note 10)                                               171,879,899              165,019,692
    Investments (Note 4)                                                                                         0                        0
    Other Assets (Note 6)                                                                                7,815,573                8,570,058
TOTAL ASSETS                                                                             $             381,684,876   $          379,329,945

LIABILITIES (Note 11)
    Intragovernmental:
         Accounts Payable (Note 12)                                                      $               2,028,077   $             1,890,428
         Debt (Note 13)                                                                                          1                         1
         Other Liabilities (Note 15 & 16)                                                                3,109,908                 2,924,663
         Total Intragovernmental Liabilities                                             $               5,137,986   $             4,815,092

    Accounts Payable (Note 12)                                                                           6,632,564                10,753,970
    Military Retirement and Other Federal Employment Benefits (Note 17)                                  1,356,264                 1,350,559
    Environmental and Disposal Liabilities (Note 14)                                                    31,767,991                33,352,731
    Loan Guarantee Liability (Note 8)                                                                          154                     3,640
    Other Liabilities (Note 15 and Note 16)                                                             11,292,808                13,532,369
TOTAL LIABILITIES                                                                        $              56,187,767   $            63,808,361

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
    Unexpended Appropriations - Earmarked Funds (Note 23)                                $                       0   $                    0
    Unexpended Appropriations - Other Funds                                                            162,359,241              158,281,584
    Cumulative Results of Operations - Earmarked Funds                                                      49,586                   58,686
    Cumulative Results of Operations - Other Funds                                                     163,088,282              157,181,314
TOTAL NET POSITION                                                                       $             325,497,109   $          315,521,584

TOTAL LIABILITIES AND NET POSITION                                                       $             381,684,876   $          379,329,945


The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                   Army General Fund                          43
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Department of Defense - Army General Fund
CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2011 and 2010 (Amounts in thousands)                                     2011 Consolidated            2010 Consolidated
Program Costs
Gross Costs                                                                              $            227,456,499     $          209,719,324
     Military Personnel                                                                                 70,291,279                 69,409,127
     Operations, Readiness & Support                                                                    94,073,478                 93,286,956
     Procurement                                                                                        37,363,041                 24,275,341
     Research, Development, Test & Evaluation                                                           14,596,807                 15,080,395
     Family Housing & Military Construction                                                             11,131,894                  7,667,505
(Less: Earned Revenue)                                                                                 (11,502,557)               (11,960,786)
Net Cost before Losses/(Gains) from Actuarial Assumption Changes for Military
Retirement Benefits                                                                      $            215,953,942     $          197,758,538
Losses/(Gains) from Actuarial Assumption Changes for Military Retirement Benefits                               0                          0
Net Program Costs Including Assumption Changes                                                        215,953,942                197,758,538
Costs Not Assigned to Programs                                                           $                      0     $                    0
(Less: Earned Revenues) Not Attributed to Programs                                                              0                          0
Net Cost of Operations                                                                   $            215,953,942     $          197,758,538

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
44          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Department of Defense - Army General Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2011 and 2010
(Amounts in thousands)                                   2011 Earmarked Funds     2011 All Other Funds       2011 Eliminations       2011 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                      $             58,686     $     157,181,313       $                       0   $   157,239,999
Prior Period Adjustments
     Changes in accounting principles (+/-)                                0                     0                               0                 0
     Corrections of errors (+/-)                                           0                     0                               0                 0
Beginning balances, as adjusted                         $             58,686     $     157,181,313       $                       0   $   157,239,999
Budgetary Financing Sources:
     Other adjustments (rescissions, etc.)              $                   0    $               0       $                       0   $             0
     Appropriations used                                                  (54)         228,493,138                               0       228,493,084
     Nonexchange revenue                                               2,471                     0                               0             2,471
     Donations and forfeitures of cash and cash
     equivalents                                                       6,719                      0                              0              6,719
     Transfers-in/out without reimbursement                                0                700,000                              0            700,000
     Other budgetary financing sources                                     0                      0                              0                  0
Other Financing Sources:
     Donations and forfeitures of property                                  0                   237                              0                237
     Transfers-in/out without reimbursement (+/-)                      (3,641)            1,804,306                              0          1,800,665
     Imputed financing from costs absorbed by others                        0             1,283,044                              0          1,283,044
     Other (+/-)                                                          810           (10,435,219)                             0        (10,434,409)
Total Financing Sources                                 $               6,305    $     221,845,506       $                       0   $   221,851,811
Net Cost of Operations (+/-)                                          15,405           215,938,537                               0       215,953,942
Net Change                                              $              (9,100)   $        5,906,969      $                       0   $      5,897,869
Cumulative Results of Operations                        $             49,586     $     163,088,282       $                       0   $   163,137,868

UNEXPENDED APPROPRIATIONS
Beginning Balances                                      $                   0    $     158,281,584       $                       0   $   158,281,584
Prior Period Adjustments
     Changes in accounting principles                                       0                    0                               0                 0
     Corrections of errors                                                  0                    0                               0                 0
Beginning balances, as adjusted                         $                   0    $     158,281,584       $                       0   $   158,281,584
Budgetary Financing Sources:
     Appropriations received                            $                   0    $     236,165,926       $                       0   $    236,165,926
     Appropriations transferred-in/out                                      0               772,258                              0             772,258
     Other adjustments (rescissions, etc)                                 (54)           (4,367,389)                             0          (4,367,443)
     Appropriations used                                                   54         (228,493,138)                              0       (228,493,084)
Total Budgetary Financing Sources                       $                   0    $        4,077,657      $                       0   $       4,077,657
Unexpended Appropriations                                                   0          162,359,241                               0        162,359,241
Net Position                                            $             49,586     $     325,447,523       $                       0   $    325,497,109

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                    Army General Fund                               45
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Department of Defense - Army General Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2011 and 2010
(Amounts in thousands)                                   2010 Earmarked Funds     2010 All Other Funds       2010 Eliminations       2010 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                      $             57,671     $     118,171,296       $                       0   $   118,228,967
Prior Period Adjustments
     Changes in accounting principles (+/-)                                0                     0                               0                 0
     Corrections of errors (+/-)                                         461               381,405                               0           381,866
Beginning balances, as adjusted                         $             58,132     $     118,552,701       $                       0   $   118,610,833
Budgetary Financing Sources:
     Other adjustments (rescissions, etc.)              $                  0     $               0       $                       0   $             0
     Appropriations used                                                   0           229,297,580                               0       229,297,580
     Nonexchange revenue                                               4,362                     0                               0             4,362
     Donations and forfeitures of cash and cash
     equivalents                                                       8,190                       0                             0              8,190
     Transfers-in/out without reimbursement                                0                 280,280                             0            280,280
     Other budgetary financing sources                                     0                (323,902)                            0           (323,902)
Other Financing Sources:
     Donations and forfeitures of property                                 0                     0                               0                 0
     Transfers-in/out without reimbursement (+/-)                          0             2,292,891                               0         2,292,891
     Imputed financing from costs absorbed by others                       0             1,240,470                               0         1,240,470
     Other (+/-)                                                        (606)            3,588,440                               0         3,587,834
Total Financing Sources                                 $             11,946     $     236,375,759       $                       0   $   236,387,705
Net Cost of Operations (+/-)                                          11,392           197,747,146                               0       197,758,538
Net Change                                              $                554     $      38,628,613       $                       0   $    38,629,167
Cumulative Results of Operations                        $             58,686     $     157,181,314       $                       0   $   157,240,000

UNEXPENDED APPROPRIATIONS
Beginning Balances                                      $                   0    $     150,540,142       $                       0   $   150,540,142
Prior Period Adjustments
     Changes in accounting principles                                       0                    0                               0                 0
     Corrections of errors                                                  0             (370,485)                              0          (370,485)
Beginning balances, as adjusted                         $                   0    $     150,169,657       $                       0   $   150,169,657
Budgetary Financing Sources:
     Appropriations received                            $                  0     $     231,889,806       $                       0   $    231,889,806
     Appropriations transferred-in/out                                     0              9,227,449                              0           9,227,449
     Other adjustments (rescissions, etc)                                  0             (3,707,748)                             0          (3,707,748)
     Appropriations used                                                   0          (229,297,580)                              0       (229,297,580)
Total Budgetary Financing Sources                       $                  0     $        8,111,927      $                       0   $       8,111,927
Unexpended Appropriations                                                  0           158,281,584                               0        158,281,584
Net Position                                            $             58,686     $     315,462,898       $                       0   $    315,521,584

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
46           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

Department of Defense - Army General Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                Budgetary Financing Accounts         Non-Budgetary Financing Accounts
As of September 30, 2011 and 2010 (Amounts in thousands)                    2011 Combined         2010 Combined     2011 Combined      2010 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                         $      48,310,809      $     42,835,509     $       3,641     $          290
Recoveries of prior year unpaid obligations                                    24,828,910            22,661,187                 0                  0
Budget authority
     Appropriation                                                            236,175,946           231,902,473                  0                  0
     Borrowing authority                                                                0                     0                  0                  1
     Contract authority                                                                 0                     0                  0                  0
     Spending authority from offsetting collections
         Earned
            Collected                                                          26,102,381            26,540,103               155              4,547
            Change in receivables from Federal sources                            854,321              (640,368)              120                  0
         Change in unfilled customer orders
            Advance received                                                       150,877                46,537                0                  0
            Without advance from Federal sources                                 1,566,481             2,612,167                0                  0
         Anticipated for rest of year, without advances                                  0                     0                0                  0
         Previously unavailable                                                          0                     0                0                  0
         Expenditure transfers from trust funds                                          0                     0                0                  0
     Subtotal                                                           $     264,850,006      $    260,460,912     $         275     $        4,548
Nonexpenditure transfers, net, anticipated and actual                   $        1,472,258     $       9,507,729    $           0     $            0
Temporarily not available pursuant to Public Law                                         0                     0                0                  0
Permanently not available                                                       (4,367,443)           (3,707,748)               0             (1,060)
Total Budgetary Resources                                               $     335,094,540      $    331,757,589     $       3,916     $        3,778

Status of Budgetary Resources:
Obligations incurred:
     Direct                                                             $     254,440,450      $    253,349,257     $       5,107     $          137
     Reimbursable                                                              29,003,731            30,097,522                 0                  0
     Subtotal                                                           $     283,444,181      $    283,446,779     $       5,107     $          137
Unobligated balance:
     Apportioned                                                        $      41,866,513      $     42,153,378     $          51     $        3,510
     Exempt from apportionment                                                      4,959                54,633                 0                  0
     Subtotal                                                           $      41,871,472      $     42,208,011     $          51     $        3,510
Unobligated balance not available                                               9,778,887             6,102,799            (1,242)               131
Total status of budgetary resources                                     $     335,094,540      $    331,757,589     $       3,916     $        3,778

Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1                     $     143,921,216      $    143,712,640     $            0    $             0
     Less: Uncollected customer payments from Federal sources,
     brought forward, October 1                                                (25,572,774)          (23,600,975)               0                  0
     Total unpaid obligated balance                                     $     118,348,442      $    120,111,665     $           0     $            0
Obligations incurred net (+/-)                                                283,444,181           283,446,779             5,108                137
Less: Gross outlays                                                          (260,080,898)         (260,577,017)           (3,444)              (137)
Obligated balance transferred, net
     Actual transfers, unpaid obligations (+/-)                                           0                    0                0                   0
     Actual transfers, uncollected customer                                               0                    0                0                   0
     Total Unpaid obligated balance transferred, net                                      0                    0                0                   0
Less: Recoveries of prior year unpaid obligations, actual                      (24,828,910)         (22,661,187)                0                   0
Change in uncollected customer payments from Federal sources (+/-)               (2,420,803)          (1,971,798)            (120)                  0
Obligated balance, net, end of period
     Unpaid obligations                                                 $     142,455,589      $    143,921,215     $       1,664     $             0
     Less: Uncollected customer payments from Federal sources (-)              (27,993,577)          (25,572,773)            (120)                  0
     Total, unpaid obligated balance, net, end of period                $     114,462,012      $    118,348,442     $       1,544     $             0

Net Outlays:
     Gross outlays                                                      $     260,080,898      $    260,577,017     $       3,444     $          137
     Less: Offsetting collections                                              (26,253,257)          (26,586,641)            (155)            (4,547)
     Less: Distributed Offsetting receipts                                        (856,292)             (142,173)               0                  0
     Net Outlays                                                        $     232,971,349      $    233,848,203     $       3,289     $       (4,410)
The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                             Army General Fund                        47
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General Fund,
as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and records of the Army General Fund in
accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal
Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation (FMR). The accompanying financial statements
account for all resources for which the Army General Fund is responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated and reported
in such a manner that it is not discernable.

The Army General Fund is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to limitations
of financial and nonfinancial management processes and systems that support the financial statements. The Army General Fund derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory and logistic
systems. These systems were designed to support reporting requirements for maintaining accountability over assets and reporting the
status of federal appropriations rather than preparing financial statements in accordance with USGAAP. The Army General Fund
continues to implement process and system improvements addressing these limitations.

The Army General Fund currently has 14 auditor-identified financial statement material weaknesses: (1) Financial management
systems; (2) Accounting adjustments; (3) Abnormal account balances; (4) Intragovernmental transactions and eliminations; (5) Fund
Balance with Treasury; (6) Accounts Receivable; (7) Inventory and Related Property, including government- furnished materiel and
contractor-acquired materiel; (8) General Property, Plant, and Equipment; (9) Accounts Payable; (10) Environmental Liabilities;
(11) Statement of Net Cost; (12) Reconciliation of Net Cost of Operations to Budget; (13) Statement of Budgetary Resources; and
(14) Contingency payment audit trails.

1.B.	 Mission of the Reporting Entity
The Army mission is to support the national security and defense strategies by providing well-trained, well-led, and well-equipped
forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined in Title 10 of the U.S. Code, to
preserve the peace and security and provide for the defense of the U.S., its territories, commonwealths, and possessions, and any areas
occupied by the U.S.; support national policies; implement national objectives; and overcome any nations responsible for aggressive
acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 236-year life of the Army, but the environment and nature of conflict have undergone many
changes over that same time, especially with the overseas contingency operations. These contingency operations have required that the
Army simultaneously transform the way that it fights, trains, and equips its Soldiers. This transformation is progressing rapidly, but
it must be taken to its full conclusion if the Army is to continue to meet the nation’s domestic and international security obligations
today and into the future.

1.C.	 Appropriations and Funds
The Army General Fund receives appropriations and funds as general, trust, special, and deposit funds. The Army General Fund uses
these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act (Recovery Act) of 2009.
Details relating to Recovery Act appropriated funds are available on-line at http://www.defenselink.mil/recovery.
48          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific purposes or
programs in accordance with the terms of the donor, trust agreement, or statute. Certain trust and special funds may be designated
as earmarked funds. Earmarked funds are financed by specifically identified revenues; required by statute to be used for designated
activities, benefits or purposes; and remain available over time. The Army General Fund is required to separately account for and report
on the receipt, use, and retention of revenues and other financing sources for earmarked funds.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are not
funds of the Army General Fund and, as such, are not available for the Army General Fund’s operations. The Army General Fund is
acting as an agent or a custodian for funds awaiting distribution.

The Army General Fund is a party to allocation transfers with other federal agencies as a transferring (parent) entity or receiving (child)
entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf.
Generally, all financial activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial
statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all activity be
reported in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office
of the President, and all other funds specifically designated by OMB.

The Army General Fund receives allocation transfers from the Federal Highway Administration and the U.S. Forestry Service. The
Army General Fund also receives allocation transfers for the Foreign Military Sales trust fund which meet the OMB exception;
however, activities for this fund are reported separately from the DoD financial statements.

As a parent, the Army General Fund allocates funds to the Department of Agriculture and the Department of Transportation for the
active Army and Army National Guard.

1.D.	 Basis of Accounting
The Army General Fund’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
Army General Fund’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of
USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting basis as required
by USGAAP. Most of the Army General Fund’s financial and nonfinancial legacy systems were designed to record information on a
budgetary basis.

The Army General Fund’s financial statements and supporting trial balances are compiled from the underlying financial data and
trial balances of the Army General Fund sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll expenses,
accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known abnormal balances
resulting largely from business and system processes. At the consolidated Army General Fund level, these abnormal balances may not
be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the extent that the abnormal balances
are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into compliance with
USGAAP. One such action is the current revision of accounting systems to record transactions based on the United States Standard
General Ledger. Until all of the Army General Fund’s financial and nonfinancial feeder systems and processes are updated to collect
and report financial information as required by USGAAP, the Army General Fund’s financial data will be derived from budgetary
transactions, data from nonfinancial feeder systems, and accruals.

1.E.	 Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as financing sources for general funds that expire annually, on a multi-
year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of
goods or services. The Army General Fund recognizes revenue as a result of costs incurred for goods and services provided to other
federal agencies and the public. Full-cost pricing is the Army General Fund’s standard policy for services provided as required by OMB
Circular A-25, User Charges. The Army General Fund recognizes revenue when earned within the constraints of its current system
capabilities. In some instances, revenue is recognized when bills are issued.
                                                                                              Army General Fund                       49
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost of Operations to Budget. The U.S. has cost-
sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S.
Fleet is in a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current financial
and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual accounting basis.
Estimates are made for major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In the
case of operating materiel and supplies (OM&S), operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the consumption method, OM&S would
be expensed when consumed. Due to system limitations, in some instances expenditures for capital and other long-term assets may be
recognized as operating expenses. The Army General Fund continues to implement process and system improvements to address these
limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require an entity to eliminate intraentity activity and balances from consolidated financial statements in order
to prevent an overstatement for business with itself. However, the Army General Fund cannot accurately identify intragovernmental
transactions by customer because the Army General Fund’s systems do not track buyer and seller data at the transaction level.
Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue
to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side
balances and are then eliminated. The DoD is implementing replacement systems and a standard financial information structure that
will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual, Part 2 – Chapter
4700, Agency Reporting Requirements for the Financial Report of the United States Government, provide guidance for reporting and
reconciling intragovernmental balances. While the Army General Fund is unable to fully reconcile intragovernmental transactions
with all federal agencies, the Army General Fund is able to reconcile balances pertaining to investments in federal securities, Federal
Employees’ Compensation Act transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any public
debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does not
allocate such costs to DoD.

1.H.	 Transactions with Foreign Governments and International Organizations
Each year, the Army General Fund sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles and
services to foreign countries and international organizations generally at no profit or loss to the federal government. Payment in U.S.
dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The Army General Fund’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance
and Accounting Service (DFAS), Military Departments, U.S. Army Corps of Engineers (USACE), and Department of State’s financial
service centers process the majority of the Army General Fund’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits.
50          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency transfers,
collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. On a monthly basis, the Army General Fund’s FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J.	 Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments, and
amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent of
both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign currency is valued using the U.S.
Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist primarily of cash
and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency accommodation exchange
missions.

The Army General Fund conducts a significant portion of operations overseas. The Congress established a special account to handle the
gains and losses from foreign currency transactions for five general fund appropriations: (1) operation and maintenance; (2) military
personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing construction. The gains
and losses are calculated as the variance between the exchange rate current at the date of payment and a budget rate established at
the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations require adjustments to the original
obligation amount at the time of payment. The Army General Fund does not separately identify currency fluctuation transactions.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds receivable.
Generally, allowances for uncollectible accounts due from the public are based upon analysis of collection experience by age category.
The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental
Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/factsi/manuals/tfm-bulletin-2011-04.pdf.

1.L. Direct Loans and Loan Guarantees
The Army General Fund operates the Armament Retooling and Manufacturing Support Initiative under Title 10, United States Code
4551-4555. This loan guarantee program is designed to encourage commercial use of inactive government facilities. The revenue
generated from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments made after
FY 1991.

1.M.	 Inventories and Related Property
The Army General Fund manages only military- or government-specific materiel under normal conditions. Materiel is a unique term
that relates to military force management and includes items such as ships, tanks, self-propelled weapons, aircraft and related spares,
repair parts, and support equipment. Items commonly used in and available from the commercial sector are not managed in Army
General Fund materiel management activities. Operational cycles are irregular and the military risks associated with stock-out positions
have no commercial parallel. The Army General Fund holds materiel based on military need and support for contingencies. The DoD
is currently developing a methodology to be used to account for inventory held for sale and inventory held in reserve for future sale.

Related property includes OM&S and stockpile materiel. The OM&S, including munitions not held for sale, are valued at standard
purchase price. The Army General Fund uses both the consumption method and the purchase method of accounting for OM&S.
Items that are centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method, the Army
General Fund uses the purchase method. Under this method, materiel and supplies are expensed when purchased. During FY 2011
and FY 2010, the Army General Fund expensed significant amounts using the purchase method because the systems could not support
the consumption method or management deemed that the item was in the hands of the end user. This is a material weakness for the
                                                                                            Army General Fund                       51
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


DoD; long-term system corrections are in process. Once the proper systems are in place, these items will be accounted for under the
consumption method of accounting.

The Army General Fund determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized as OM&S rather
than military equipment.

The Army General Fund recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development of
an effective means of valuing such materiel.

1.N.	 Investments in U.S. Treasury Securities
The Army General Fund reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investments using the effective interest rate method or another method obtaining similar
results. The Army General Fund’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise
sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Army General Fund invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by the
U.S. Treasury’s Bureau of the Public Debt. They are not traded on any securities exchange but mirror the prices of particular U.S.
Treasury securities traded in the government securities market.

1.O.	 General Property, Plant and Equipment
The Army General Fund uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful life,
program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using expenditure, acquisition,
and disposal information.

The DoD’s general property, plant and equipment (PP&E) capitalization threshold is $100 thousand except for real property, which is
$20 thousand. The Army General Fund is in the process of fully implementing the $20 thousand threshold for real property.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires the capitalization of improvements to existing
general PP&E assets if the improvements equal or exceed the capitalization threshold and extend the useful life or increase the size,
efficiency, or capacity of the asset. The DoD depreciates all general PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Army General Fund provides government property to contractors to complete
contract work. The Army General Fund either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured general PP&E meets or exceeds DoD’s capitalization
threshold, federal accounting standards require that it be reported on the Army General Fund’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides appropriate
general PP&E information for financial statement reporting. The DoD requires Army General Fund to maintain, in its property
systems, information on all property furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The Army General Fund has not fully implemented this policy primarily
due to system limitations.

1.P.	 Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be reported
as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods and services are
received. The Army General Fund has not fully implemented the policy for advances identified in contract feeder systems primarily due
to system limitations.
52          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the current capitalization
threshold, the Army General Fund records the applicable asset as though purchased, with an offsetting liability, and depreciates it.
The Army General Fund records the asset and liability at the lesser of the present value of the rental and other lease payments during
the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The discount rate for
the present value calculation is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception
of the lease. The Army General Fund, as the lessee, receives the use and possession of leased property--for example, real estate or
equipment--from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk
of ownership. Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by the Army General Fund are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration bills, and interservice support agreements. Future-year projections use
the Consumer Price Index.

1.R.	 Other Assets
Other assets include those amounts, such as military and civil service employee pay advances, travel advances, and certain contract
financing payments that are not reported elsewhere on the Army General Fund’s Balance Sheet.

The Army General Fund conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army General Fund
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as authorized
disbursements to a contractor prior to acceptance of supplies or services by the government. Contract financing payments clauses are
incorporated in the contract terms and conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts.
It is DoD’s policy to record certain contract financing payments as other assets. The Army General Fund has not fully implemented this
policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress
payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property, shipbuilding and ship conversion,
alteration, or repair. Progress payments based on percentage or stage of completion are reported as Construction in Progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Army
General Fund recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss
amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a
reasonable possibility of incurring a loss or additional losses. The Army General Fund’s risk of loss and resultant contingent liabilities
arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Army General Fund assets. Consistent with SFFAS No. 6,
Accounting for Property, Plant and Equipment, recognition of an anticipated environmental disposal liability begins when the asset is
placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, nonenvironmental disposal liabilities are recognized
when management decides to dispose of an asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment
nuclear-powered assets when placed into service. These amounts are not easily distinguishable and are developed in conjunction with
environmental disposal costs.
                                                                                             Army General Fund                         53
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


1.T.	 Accrued Leave
The Army General Fund reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U.	 Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not been
incurred.

Cumulative results of operations represent the net difference between expenses and losses and financing sources (including
appropriations, revenue, and gains) since inception. The cumulative results of operations also include donations and transfers in and
out of assets that were not reimbursed.

1.V.	 Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international treaties and
agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas with appropriated funds;
however, the host country retains title to the land and capital improvements. Treaty terms generally allow the Army General Fund
continued use of these properties until the treaties expire. In the event treaties or other agreements are terminated, use of the foreign
bases is prohibited and losses are recorded for the value of any nonretrievable capital assets. The settlement due to the U.S. or host
nation is negotiated and takes into account the value of capital investments and may be offset by the cost of environmental cleanup.

1.W.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction
level to specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and collections
do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal categories
based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported undistributed
disbursements and collections are then applied to reduce accounts payable and receivable accordingly. Unsupported undistributed
disbursements are recorded as disbursements in transit and reduce nonfederal accounts payable. Unsupported undistributed collections
are recorded in nonfederal other liabilities.

1.X.	 Significant Events
There are no significant events as of September 30, 2011.

1.Y.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of the Army General Fund and are not recognized on the balance sheet. Fiduciary
activities are reported on the financial statement note schedules.
54           Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 2.	 Nonentity Assets
      As of September 30                                                                2011                        2010
      (Amounts in thousands)
      1. Intragovernmental Assets
          A. Fund Balance with Treasury                                       $                175,340 $                   123,946
          B. Accounts Receivable                                                                     0                           0
          C. Other Assets                                                                            0                           0
          D. Total Intragovernmental Assets                                   $                175,340 $                   123,946
      2. Nonfederal Assets
          A. Cash and Other Monetary Assets                                   $             1,432,966     $            1,776,209
          B. Accounts Receivable                                                               88,055                     63,530
          C. Other Assets                                                                           0                          0
          D. Total Nonfederal Assets                                          $             1,521,021     $            1,839,739
      3. Total Nonentity Assets                                               $             1,696,361     $            1,963,685
      4. Total Entity Assets                                                  $           379,988,515     $          377,366,260
      5. Total Assets                                                         $           381,684,876     $          379,329,945


Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and reporting responsibility. These
assets are not available for the Army General Fund’s normal operations.

Nonentity Fund Balance with Treasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi cash, and
Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the appropriate
government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for expenditures on behalf of the
Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi oil
sales, repatriated assets from the United States and other nations, and deposits from unencumbered oil-for-food program funds. The
deposit funds for seized Iraqi cash and DFI consist of residual amounts only.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and collecting missions.
These amounts also include foreign currency accommodation exchange primarily consisting of the burden-sharing for the Republic of
Korea. Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivable are primarily from canceled year appropriations and interest receivables. These receivables
will be returned to the U.S. Treasury as miscellaneous receipts once collected.



Note 3.	 Fund Balance with Treasury
       As of September 30                                                               2011                       2010
       (Amounts in thousands)
       1. Fund Balances
           A. Appropriated Funds                                              $           166,762,831 $              166,799,025
           B. Revolving Funds                                                                     155                      7,644
           C. Trust Funds                                                                       1,985                      1,469
           D. Special Funds                                                                    45,001                     55,420
           E. Other Fund Types                                                                175,340                    123,946
           F. Total Fund Balances                                             $           166,985,312 $              166,987,504
       2. Fund Balances Per Treasury Versus Agency
           A. Fund Balance per Treasury                                       $           169,770,205 $              168,960,972
           B. Fund Balance per Army                                                       166,985,312                166,987,504
       3. Reconciling Amount                                                  $             2,784,893 $                1,973,468
                                                                                             Army General Fund                        55
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Other Fund Types
Other Fund Types consist of deposit funds, clearing accounts, unavailable receipt accounts, seized Iraqi cash, and the Development
Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the appropriate government or
public entity. Clearing accounts are used as a temporary suspense account until later paid by or refunded into another account or when
the government acts as a banker or agent for others. Unavailable receipt accounts are credited with all collections not earmarked by
law for a specific purpose. These collections include taxes, customs duties, and miscellaneous receipts. Seized Iraqi cash is former Iraqi
regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi oil sales, repatriated assets from the United
States and other nations, and deposits from unencumbered oil-for-food program funds.

Reconciling Amount
The U.S. Treasury reported $2.8 billion more in Fund Balance with Treasury (FBWT) than reported by the Army General Fund. This
difference includes $2.4 billion in canceling year authority, $367.2 million in unavailable receipts, $13.8 million in fiduciary activity
and $5.2 million in net differences due to the U.S. Treasury treatment of allocation transfers. The allocation transfers reconciling
difference results from instances in which Army allocates to or is allocated funds from various governmental entities. In cases in which
Army is allocated funds, the amount is excluded from the Fund Balance per Army, but included in Fund Balance per Treasury. In cases
in which Army allocates funds, the amount is included in the Fund Balance per Army, but it is excluded from the Fund Balance per
Treasury.

Status of Fund Balance with Treasury
       As of September 30                                                               2011                        2010
       (Amounts in thousands)
       1. Unobligated Balance
           A. Available                                                       $           41,871,522 $                42,211,520
           B. Unavailable                                                                  9,777,646                   6,102,930
       2. Obligated Balance not yet Disbursed                                            142,457,252                 143,921,217
       3. Nonbudgetary FBWT                                                                  875,817                     327,829
       4. NonFBWT Budgetary Accounts                                                     (27,996,925)                (25,575,992)
       5. Total                                                               $          166,985,312 $               166,987,504



Status of Fund Balance with Treasury Definitions
The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and proprietary
accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds temporarily precluded from
obligation by law which are invested in U.S. Treasury securities. Certain unobligated balances are restricted for future use and are not
apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the public law that established the
funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt accounts,
clearing accounts, nonentity FBWT and Iraqi custodial accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. Examples include contract authority, borrowing authority and investment
accounts, accounts receivable, as well as unfilled orders without advance from customers.
56           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 4.	 Investments and Related Interest
       As of September 30                                                                             2011
                                                                                                   Amortized
                                                                                   Amortization   (Premium) /    Investments,   Market Value
       (Amounts in thousands)                                          Cost          Method         Discount         Net         Disclosure

       1. Intragovernmental Securities
           A. Nonmarketable, Market-Based
                 1. Military Retirement Fund                       $          0                   $          0   $          0   $         0
                 2. Medicare-Eligible Retiree Health Care Fund                0                              0              0             0
                 3. US Army Corps of Engineers                                0                              0              0             0
                                                                                    Effective
                 4. Other Funds                                         3,219       interest             (31)         3,188          3,192
                 5. Total Nonmarketable, Market-Based              $    3,219                     $      (31)    $    3,188     $    3,192
           B. Accrued Interest                                                17                                          17             17
           C. Total Intragovernmental Securities                   $    3,236                     $      (31)    $    3,205     $    3,209
       2. Other Investments
           A. Total Other Investments                              $          0                   $          0   $          0           N/A


       As of September 30                                                                             2010
                                                                                                   Amortized
                                                                                   Amortization   (Premium) /    Investments,   Market Value
       (Amounts in thousands)                                          Cost          Method         Discount         Net         Disclosure

       1. Intragovernmental Securities
           A. Nonmarketable, Market-Based
                 1. Military Retirement Fund                       $          0                   $          0   $          0   $         0
                 2. Medicare-Eligible Retiree Health Care Fund                0                              0              0             0
                 3. US Army Corps of Engineers                                0                              0              0             0
                                                                                    Effective
                 4. Other Funds                                         3,259       interest             (78)         3,181          3,185
                 5. Total Nonmarketable, Market-Based              $    3,259                     $      (78)    $    3,181     $    3,185
           B. Accrued Interest                                                37                                          37             37
           C. Total Intragovernmental Securities                   $    3,296                     $      (78)    $    3,218     $    3,222
       2. Other Investments
           A. Total Other Investments                              $          0                   $          0   $          0           N/A


Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the disbursement and use
of monies donated to the Army General Fund along with the interest received from the investment of such donations. The related
earnings are allocated to the appropriate Army General Fund activities to be used in accordance with the directions of the donor. These
funds are recorded as Nonmarketable Market-Based U.S. Treasury Securities, which are not traded on any securities exchange, but
mirror the prices of marketable securities with similar terms.

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an asset to the Army General Fund and
a liability to the U.S. Treasury. The federal government does not set aside assets to pay future benefits or other expenditures associated
with earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which uses the cash for general
government purposes. Since the Army General Fund and the U.S. Treasury are both part of the federal government, these assets and
liabilities offset each other from the standpoint of the federal government as a whole. For this reason, they do not represent an asset or a
liability in the U.S. governmentwide financial statements.
                                                                                               Army General Fund                              57
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The U.S. Treasury securities provide the Army General Fund with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the Army General Fund requires redemption of these securities to make expenditures, the
government will finance them from accumulated cash balances, by raising taxes or other receipts, borrowing from the public, repaying
less debt, or curtailing other expenditures. The federal government uses the same method to finance all other expenditures.



Note 5.	 Accounts Receivable
       As of September 30                                                                        2011
                                                                                         Allowance For Estimated
       (Amounts in thousands)                                         Gross Amount Due        Uncollectibles       Accounts Receivable, Net
       1. Intragovernmental Receivables                           $            538,573                    N/A $                 538,573
       2. Nonfederal Receivables (From the Public)                           1,055,330 $              (95,005)                  960,325
       3. Total Accounts Receivable                               $          1,593,903 $              (95,005) $              1,498,898


      As of September 30                                                                         2010
                                                                                         Allowance For Estimated
      (Amounts in thousands)                                          Gross Amount Due        Uncollectibles       Accounts Receivable, Net
      1. Intragovernmental Receivables                            $          1,006,385                   N/A $                1,006,385
      2. Nonfederal Receivables (From the Public)                              986,361 $            (166,758)                   819,603
      3. Total Accounts Receivable                                $          1,992,746 $            (166,758) $               1,825,988


Accounts Receivable represent the Army General Fund’s claim for payment from other entities. The Army General Fund only
recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with
the Intragovernmental Business Rules.



Note 6.	 Other Assets
       As of September 30                                                                2011                           2010
       (Amounts in thousands)
       1. Intragovernmental Other Assets
           A. Advances and Prepayments                                           $              888,607 $                     1,033,623
           B. Other Assets                                                                            0                               0
           C. Total Intragovernmental Other Assets                               $              888,607 $                     1,033,623
       2. Nonfederal Other Assets
           A. Outstanding Contract Financing Payments                            $            7,289,438 $                     7,898,060
           B. Advances and Prepayments on behalf of Foreign Governments                         526,135                         671,998
           C. Advances and Prepayments                                                                0                               0
           D. Total Nonfederal Other Assets                                      $            7,815,573 $                     8,570,058
       3. Total Other Assets                                                     $            8,704,180 $                     9,603,681



Other Assets Definitions
Contract terms and conditions for certain types of contract financing payments convey certain rights to the government that protect
the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in
bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
federal government. The federal government does not have the right to take the work, except as provided in contract clauses related
to termination or acceptance, and the Army General Fund is not obligated to make payment to the contractor until delivery and
acceptance.
58           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Outstanding Contract Financing Payments
The balance of Outstanding Contract Financing Payments includes $6.9 billion in contract financing payments and an additional
$0.4 billion in estimated future payments to contractors upon delivery and government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities.



Note 7.	 Cash and Other Monetary Assets
       As of September 30                                                                2011                        2010
       (Amounts in thousands)
       1. Cash                                                                 $                234,302 $                   402,605
       2. Foreign Currency                                                                    1,198,664                   1,373,604
       3. Other Monetary Assets                                                                       0                           0
       4. Total Cash, Foreign Currency, & Other Monetary Assets                $              1,432,966 $                 1,776,209


Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign currency consists
primarily of burden-sharing funds from the Republic of Korea.

Foreign currency is valued using the U.S. Treasury prevailing rate of exchange. This rate is the most favorable rate that would legally be
available to the federal government for foreign currency exchange transactions. The Army General Fund cash and foreign currency are
nonentity and are restricted.



Note 8.	 Direct Loan and Loan Guarantees
Direct Loan and/or Loan Guarantee Programs
The Army General Fund operates a loan guarantee program, the Armament Retooling and Manufacturing Support (ARMS) Initiative
Loan Guarantee Program, designed to increase commercial use of inactive government facilities.

The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations and loan guarantee commitments made
after FY 1991. The Army General Fund does not operate a direct loan program.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the following
estimated projected cash flows: Payments by the Army General Fund to cover defaults and delinquencies, interest subsidies, or other
payments offset by payments to the Army General Fund including origination and other fees, penalties, and recoveries.

Armament Retooling and Manufacturing Support Initiative
The Army General Fund established the ARMS Initiative Loan Guarantee Program, authorized by Title 10, United States Code 4551-
4555. The purpose of this program is to encourage commercial use of the Army’s inactive ammunition plants through incentives for
businesses willing to locate to a government ammunition production facility. The production capacity of these facilities is greater than
current military requirements; however, this capacity may be needed by the military in the future. Revenues from property rentals are
used to help offset the overhead costs for the operation, maintenance and environmental cleanup at the facilities.

The Army and U.S. Department of Agriculture Rural Business-Cooperative Service (RBS) have established a memorandum of
understanding for the RBS to administer this loan guarantee program.
                                                                                            Army General Fund                       59
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Loan Guarantees
In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition, Logistics and
Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to operate under the
moratorium and does not anticipate initiating new loan guarantees.

Summary of Direct Loans and Loan Guarantees
      As of September 30                                                               2011                       2010
      (Amounts in thousands)
      Loans Receivable
      Direct Loans
      1. Foreign Military Loan Liquidating Account                           $                       0 $                        0
      2. Military Housing Privatization Initiative                                                   0                          0
      3. Foreign Military Financing Account                                                          0                          0
      4. Military Debt Reduction Financing Account                                                   0                          0
      5. Total Direct Loans                                                  $                       0 $                        0
      Defaulted Loan Guarantees
      6. A. Foreign Military Financing Account                               $                       0 $                        0
         B. Military Housing Privatization Initiative                                                0                          0
         C. Armament Retooling & Manufacturing Support Initiative                                    0                         93
      7. Total Default Loan Guarantees                                       $                       0 $                       93
      8. Total Loans Receivable                                              $                       0 $                       93
      Loan Guarantee Liability
      1. Foreign Military Liquidating Account                                $                      0 $                        0
      2. Military Housing Privatization Initiative                                                  0                          0
      3. Armament Retooling & Manufacturing Support Initiative                                    154                      3,640
      4. Total Loan Guarantee Liability                                      $                    154 $                    3,640


The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of non-acquired loan
guarantees. The $154.5 thousand in loan guarantee liability represents the estimated long-term cost of the one remaining performing
loan to the U.S. Government for the ARMS Initiative Loan Guarantee Program.

Direct Loans Obligated
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Total Amount of Direct Loans Disbursed
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Subsidy Expense for Direct Loan by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Subsidy Rate for Direct Loans by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Schedule for Reconciling Subsidy Cost Allowance Balances for Post-FY 1991 Direct
Loans
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.
60          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Defaulted Guaranteed Loans
      As of September 30                                                                                        2011                     2010
      (Amounts in thousands)
      Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
      (Allowance for Loss Method):
      1. Foreign Military Loan Liquidating Account
          A. Defaulted Guaranteed Loans Receivable, Gross                                                 $                  0     $               0
          B. Interest Receivable                                                                                             0                     0
          C. Foreclosed Property                                                                                             0                     0
          D. Allowance for Loan Losses                                                                                       0                     0
          E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $                  0     $               0
      Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
      (Present Value Method):
      2. Military Housing Privatization Initiative
          A. Defaulted Guaranteed Loans Receivable, Gross                                                 $                  0     $               0
          B. Interest Receivable                                                                                             0                     0
          C. Foreclosed Property                                                                                             0                     0
          D. Allowance for Subsidy Cost (Present Value)                                                                      0                     0
          E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $                  0     $               0
      3. Armament Retooling & Manufacturing Support Initiative
          A. Defaulted Guaranteed Loans Receivable, Gross                                                 $            735 $                    735
          B. Interest Receivable                                                                                         0                        0
          C. Foreclosed Property                                                                                         0                        0
          D. Allowance for Subsidy Cost (Present Value)                                                               (735)                    (735)
          E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $              0 $                      0
      4. Total Value of Assets Related to Defaulted Guaranteed Loans Receivable                           $              0 $                      0



Guaranteed Loans Outstanding
      As of September 30                                                2011                                            2010
                                                     Outstanding Principal                           Outstanding Principal
                                                     of Guaranteed Loans,    Amount of Outstanding   of Guaranteed Loans,        Amount of Outstanding
      (Amounts in thousands)                              Face Value          Principal Guaranteed        Face Value              Principal Guaranteed
      Guaranteed Loans Outstanding
      1. Military Housing Privatization Initiative   $                   0 $                    0 $                     0 $                         0
      2. Armament Retooling & Manufacturing
         Support Initiative                                        2,437                   2,072                   2,716                      2,308
      3. Foreign Military Liquidating Account                          0                       0                       0                          0
      4. Total                                       $             2,437 $                 2,072 $                 2,716 $                    2,308
      New Guaranteed Loans Disbursed
      1. Military Housing Privatization Initiative   $                   0 $                    0 $                     0 $                         0
      2. Armament Retooling & Manufacturing
         Support Initiative                                              0                      0                       0                           0
      3. Total                                       $                   0 $                    0 $                     0 $                         0



Guaranteed Loans Outstanding Definition
The Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties and guaranteed
by the Army General Fund. The face value does not include any interest that is due to be paid on the debt instruments.
                                                                                           Army General Fund                      61
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed by the
Army General Fund less borrower collateral. The net amount represents the loan amount guaranteed by the Army General Fund. One
performing loan remains.

Liabilities for Loan Guarantees
      As of September 30                                                              2011                      2010
      (Amounts in thousands)
      Liabilities for Losses on Loan Guarantee from Pre 1992
      (Allowance for Loss):
      1. Foreign Military Liquidating Account                               $                      0 $                        0
      2. Total Loan Guarantee Liability (Pre-FY 1992)                       $                      0 $                        0
      Liabilities for Loan Guarantee from Post 1991 (Present Value):
      3. Military Housing Privatization Initiative                          $                      0 $                        0
      4. Armament Retooling & Manufacturing Support Initiative                                   154                      3,640
      5. Total Loan Guarantee Liability (Post-FY 1991)                      $                    154 $                    3,640
      6. Total Loan Guarantee Liability                                     $                    154 $                    3,640


Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash outflows of
non-acquired loan guarantees. The $154.5 thousand in loan guarantee liability represents the estimated long-term cost of the currently
performing loan to the U. S. Government for the ARMS Initiative Loan Guarantee Program.
62          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Subsidy Expense for Loan Guarantees by Program
      As of September 30
      (Amounts in thousands)
                                                             Interest
                               2011                         Differential           Defaults             Fees               Other           Total
      1. New Loan Guarantees Disbursed:
      Military Housing Privatization Initiative         $                  0   $              0   $             0      $           0   $           0
      Armament Retooling & Manufacturing Support
         Initiative                                                        0                  0                 0                  0               0
      Totals                                            $                  0   $              0   $             0      $           0   $           0
                                                             Interest
                               2010                         Differential           Defaults             Fees               Other           Total
      2. New Loan Guarantees Disbursed:
      Military Housing Privatization Initiative         $                  0   $              0   $             0      $           0   $           0
      Armament Retooling & Manufacturing Support
         Initiative                                                        0                  0                 0                  0               0
      Totals                                            $                  0   $              0   $             0      $           0   $           0
                                                             Interest
                               2011                         Differential           Defaults             Fees               Other           Total
      3. Modifications and Reestimates:
      Military Housing Privatization Initiative         $                  0   $              0   $             0      $           0   $           0
      Armament Retooling & Manufacturing Support
         Initiative                                                        0                  1          (3,641)            (3,640)        (3,640)
      Totals                                            $                  0   $              1   $      (3,641) $          (3,640) $      (3,640)
                                                             Interest
                               2010                         Differential           Defaults             Fees               Other           Total
      4. Modifications and Reestimates:
      Military Housing Privatization Initiative         $                  0   $              0   $             0      $           0   $           0
      Armament Retooling & Manufacturing Support
         Initiative                                                        0                  0                 0                  0               0
      Totals                                            $                  0   $              0   $             0      $           0   $           0


                                                              2011                 2010
      5. Total Loan Guarantee:
      Military Housing Privatization Initiative         $                  0   $              0
      Armament Retooling & Manufacturing Support
         Initiative                                             (3,640)                       0
      Totals                                            $       (3,640) $                     0


In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to operate under the
moratorium, and does not anticipate initiating new loan guarantees.

Subsidy Rates for Loan Guarantees by Program
      As of September 30
                                                                Interest                              Fees and other
      (Amounts in thousands)                                  Supplements            Defaults           Collections        Other           Total
      Budget Subsidy Rates for Loan Guarantees:
      1. Military Housing Privatization Initiative                   0.00%               0.00%              0.00%            0.00%           0.00%
      2 Armament Retooling & Manufacturing Support
         Initiative                                                  0.00%               0.00%              0.00%            0.00%           0.00%
                                                                                          Army General Fund                      63
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. Since there have been no new loan
guarantees originated since 2004 for the ARMS Initiative Program, the table properly presents zero percent subsidy rates.

Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
Guarantees
      As of September 30                                                                   2011                  2010
      (Amounts in thousands)
      Beginning Balance, Changes, and Ending Balance:
      1. Beginning Balance of the Loan Guarantee Liability                          $             3,640   $             2,436
      2. Add: Subsidy Expense for Guaranteed Loans Disbursed during the
         Reporting Years by Component
          A. Interest Supplement Costs                                              $                 0   $                 0
          B. Default Costs (Net of Recoveries)                                                        0                     0
          C. Fees and Other Collections                                                               0                     0
          D. Other Subsidy Costs                                                                      0                     0
          E. Total of the above Subsidy Expense Components                          $                 0   $                 0
      3. Adjustments
          A. Loan Guarantee Modifications                                           $                 0   $                 0
          B. Fees Received                                                                            0                     0
          C. Interest Supplements Paid                                                                0                     0
          D. Foreclosed Property and Loans Acquired                                                   0                     0
          E. Claim Payments to Lenders                                                                0                     0
          F. Interest Accumulation on the Liability Balance                                         154                   127
          G. Other                                                                                    0                 1,077
          H. Total of the above Adjustments                                         $               154   $             1,204
      4. Ending Balance of the Loan Guarantee Liability before Reestimates          $             3,794   $             3,640
      5. Add or Subtract Subsidy Reestimates by Component
          A. Interest Rate Reestimate                                               $                 1 $                   0
          B. Technical/default Reestimate                                                        (3,641)                    0
          C. Total of the above Reestimate Components                               $            (3,640) $                  0
      6. Ending Balance of the Loan Guarantee Liability                             $               154 $               3,640



Administrative Expenses
Administrative expense for the ARMS Initiative represents $4,000 per annum in salary expenses.



Note 9.	 Inventory and Related Property
      As of September 30                                                            2011                       2010
      (Amounts in thousands)
      1. Inventory, Net                                                      $                   0 $                       0
      2. Operating Materiels & Supplies, Net                                            31,180,416                34,113,653
      3. Stockpile Materiel, Net                                                                 0                         0
      4. Total                                                               $          31,180,416 $              34,113,653



Inventory, Net
Not Applicable.
64           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Operating Materiel and Supplies, Net
       As of September 30                                                                2011
                                                                  OM&S              Revaluation
       (Amounts in thousands)                                   Gross Value          Allowance       OM&S, Net    Valuation Method
       1. OM&S Categories
           A. Held for Use                                  $ 31,180,416 $                      0 $ 31,180,416      SP, LAC, MAC
           B. Held for Repair                                          0                        0             0     SP, LAC, MAC
           C. Excess, Obsolete, and Unserviceable                509,798                 (509,798)            0         NRV
           D. Totals                                        $ 31,690,214 $               (509,798) $ 31,180,416



       As of September 30                                                                2010
                                                                  OM&S              Revaluation
       (Amounts in thousands)                                   Gross Value          Allowance       OM&S, Net    Valuation Method
       1. OM&S Categories
           A. Held for Use                                  $ 34,113,653 $                      0 $ 34,113,653      SP, LAC, MAC
           B. Held for Repair                                          0                        0             0     SP, LAC, MAC
           C. Excess, Obsolete, and Unserviceable                674,458                 (674,458)            0         NRV
           D. Totals                                        $ 34,788,111 $               (674,458) $ 34,113,653

       Legend for Valuation Methods:
       LAC = Latest Acquisition Cost                        NRV = Net Realizable Value
       SP = Standard Price                                  LCM = Lower of Cost or Market
       AC = Actual Cost                                     O = Other
       MAC = Moving Average Cost



Operating Materiel and Supplies (OM&S) include ammunition, tactical missiles, and their related spare and repair parts. The category,
Held for Use, includes all materiel available to be issued. Economically repairable materiel is categorized as held for repair.

Managers determine which items are more costly to repair than to replace. The net value of these items is zero and is shown as Excess,
Obsolete, and Unserviceable.

The Army General Fund establishes an allowance for excess, obsolete, and unserviceable OM&S at 100 percent of the carrying amount
in accordance with DoD policy.

The values of the Army’s government-furnished materiel and contractor-acquired materiel in the hands of contractors are normally
not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these amounts in an effort
to determine the appropriate accounting treatment and the best method to annually collect and report required information without
duplicating information in other existing logistics systems. Currently, there are no restrictions on OM&S.

Stockpile Materiel, Net
Not Applicable.
                                                                                                          Army General Fund                         65
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 10.	General PP&E, Net
     As of September 30                                                                            2011
                                                Depreciation/                                               (Accumulated
                                                Amortization                                                Depreciation/
     (Amounts in thousands)                       Method         Service Life        Acquisition Value      Amortization)          Net Book Value
     1. Major Asset Classes
         A. Land                                    N/A               N/A       $             519,901                  N/A     $          519,901
         B. Buildings, Structures, and
             Facilities                             S/L           20 or 40               72,230,406 $        (35,284,447)            36,945,959
         C. Leasehold Improvements                  S/L          lease term                  30,655                (20,606)              10,049
         D. Software                                S/L          2-5 or 10                  501,823             (207,870)               293,953
         E. General Equipment                       S/L              5 or 10              9,649,888           (4,512,849)             5,137,039
         F. Military Equipment                      S/L              various            172,188,793          (55,126,843)           117,061,950
         G. Shipbuilding                            N/A               N/A                         0                      0                    0
         H. Assets Under Capital Lease              S/L          lease term                 166,617              (164,637)                1,980
         I. Construction-in-Progress                N/A               N/A                11,909,068                    N/A           11,909,068
         J. Other                                                                                 0                      0                    0
         K.	 Total General PP&E                                                 $       267,197,151 $        (95,317,252) $         171,879,899


     As of September 30                                                                           2010
                                               Depreciation/                                               (Accumulated
                                               Amortization                                                Depreciation/
     (Amounts in thousands)                      Method         Service Life        Acquisition Value      Amortization)           Net Book Value
     1. Major Asset Classes
         A. Land                                   N/A               N/A        $            461,150                       N/A $         461,150
         B. Buildings, Structures, and
             Facilities                            S/L          20 or 40                61,998,707 $         (33,539,328)            28,459,379
         C. Leasehold Improvements                 S/L          lease term                  26,318                 (19,732)               6,586
         D. Software                               S/L          2-5 or 10                  501,718               (207,742)              293,976
         E. General Equipment                      S/L           5 or 10                13,955,404             (4,292,652)            9,662,752
         F. Military Equipment                     S/L           various               164,280,693           (49,152,182)           115,128,511
         G. Shipbuilding                           N/A               N/A                         0                       0                    0
         H. Assets Under Capital Lease             S/L          lease term                 166,617               (162,635)                3,982
         I. Construction-in-Progress               N/A               N/A                11,003,356                     N/A           11,003,356
         J. Other                                                                                0                       0                    0
         K.	 Total General PP&E                                                 $      252,393,963 $         (87,374,271) $         165,019,692

     Legend for Valuation Methods:
     S/L = Straight Line                      N/A = Not Applicable




General Property, Plant and Equipment (PP&E)
The Army General Fund uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful life,
program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using expenditure, acquisition,
and disposal information. The Army General Fund is not aware of any restrictions on the use or convertibility of General PP&E.

Heritage Assets and Stewardship Land
The mission of the Army is to provide the military forces needed to deter war and protect the security of the United States by
organizing, training, supplying, equipping, and mobilizing forces for assignment in support of that mission. Executing this mission
requires efficient and effective use of resources in a manner that ensures operational and environmental sustainability, while respecting
the history and heritage that reflect and support the military mission. The Army has stewardship responsibilities for heritage assets that
66             Army General Fund
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


date not only from the military history of the land, but from prior historic occupations. The Army relies upon heritage assets, such
as historic buildings and stewardship land for daily use in administering, housing, and training Soldiers. Heritage assets not currently
employed as multi-use, such as archeological collections or museum collections, are items that embody the multi-faceted history of the
land, the military, the local communities, and the nation. In that mission, the Army General Fund, with minor exceptions, uses most
of the buildings and stewardship land in its daily activities and includes the buildings on the Balance Sheet as multi-use heritage assets
(capitalized and depreciated).

The Federal Accounting Standards Advisory Board’s SFFAS No. 29, Heritage Assets and Stewardship Land, requires note disclosures
for these types of assets. The Army General Fund’s policy is to preserve its heritage assets, which are items of historical, cultural,
educational, or artistic importance.

Heritage assets within the Army General Fund consist of buildings and structures, archeological sites, and museum collections. The
Army General Fund defines these assets as follows:

Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on, the National Register of Historic Places,
including multi-use heritage assets.

Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible for or are listed on the National
Historical Places in accordance with Section 110, National Historical Preservation Act.

Museum Collection Items. Items which are unique for one or more of the following reasons: historical or natural significance;
cultural, educational, or artistic importance; or significant technical or architectural characteristics.

The following is a description of the methods of acquisitions and withdrawals of heritage assets and stewardship land:

     n	 Acquiring additional land through donation or withdrawals from public domain
     n	 Identifying missing land records
     n	 Disposing of Base Realignment and Closure (BRAC) sites or transferring land to another DoD agency
     n	 Identifying cemeteries and historical facilities
     n	 Disposing of BRAC property or excess installations
     n	 Privatizing residential community initiatives programs


The heritage assets for the Army General Fund are listed below:

                                                               Measure       Beginning
         Categories                                            Quantity       Balance       Additions**    Deletions    Ending Balance
         Buildings and Structures                               Each            40,333               0            652        39,681
         Archeological Sites                                    Each             6,340           2,760             31         9,069
         Museum Collection Items (Objects, Not Including
           Fine Art)                                            Each           572,869           8,294            900       580,263
         Museum Collection Items (Objects, Fine Art)            Each                 0               0              0             0

**There were no donations included in the Additions column.

Stewardship land is land and land rights owned by the Department, but not acquired for, or in connection with, items of General
Property, Plant, and Equipment. All land provided to the Department from the public domain or at no cost, regardless of its use, is
classified as Stewardship Land.

Stewardship land is presented in context of all categories of DoD lands and reported in acres based on the predominant use of the land.
The three categories of Stewardship land held in public trust are as follows: State-Owned Land, Withdrawn Public Land, and Public
Land. The Department’s stewardship land consists mainly of mission-essential land.

The Army General Fund holds the following acres of stewardship land:
                                                                                                                 Army General Fund                               67
           Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


        (Acres in thousands)
        Facility Code                        Facility Title              Beginning Balance        Additions**            Deletions           Ending Balance
              9110               Government-Owned Land                            *4,902                    400                  371                  4,931
              9111               State-Owned Land                                     12                      7                   12                      7
              9120               Withdrawn Public Land                             6,505                     54                  113                  6,446
              9130               Licensed and Permitted Land                       2,096                    430                  434                  2,092
              9140               Public Land                                          11                     11                   11                     11
              9210               Land Easement                                       215                     28                   27                    216
              9220               In-leased Land                                      178                     61                  106                    133
              9230               Foreign Land                                        157                      1                    0                    158
                                                                                                                         Grand Total                 13,994
                                                                                                              Total - All Other Land                  7,530
                                                                                                          Total - Stewardship Land                    6,464
*The amount reported at 4th Quarter, FY 2010 for Additions to Government-Owned Land was 3,445 acres. The amount that should have been reported was 345 acres, causing
an overstatement of the Ending Balance of 3,100 acres for 4th Quarter, FY 2010. The correct beginning balance for this line is shown above.

**There were no donations included in the Additions column.


Assets Under Capital Lease
        As of September 30                                                                                2011                             2010
        (Amounts in thousands)
        1. Entity as Lessee, Assets Under Capital Lease
            A. Land and Buildings                                                             $                   166,071 $                       166,071
            B. Equipment                                                                                              546                             546
            C. Accumulated Amortization                                                                          (164,637)                       (162,635)
            D. Total Capital Leases                                                           $                     1,980 $                         3,982




Note 11.	Liabilities Not Covered by Budgetary
         Resources
        As of September 30                                                                                2011                             2010
        (Amounts in thousands)
        1. Intragovernmental Liabilities
            A. Accounts Payable                                                               $                         0 $                              0
            B. Debt                                                                                                     0                                0
            C. Other                                                                                              553,337                          602,734
            D. Total Intragovernmental Liabilities                                            $                   553,337 $                        602,734
        2. Nonfederal Liabilities
            A. Accounts Payable                                                               $                    170,964     $                  211,211
            B. Military Retirement and Other Federal Employment Benefits                                         1,356,264                      1,350,560
            C. Environmental Liabilities                                                                        28,558,194                     30,095,842
            D. Other Liabilities                                                                                 7,643,785                      7,818,996
            E. Total Nonfederal Liabilities                                                   $                 37,729,207     $               39,476,609
        3. Total Liabilities Not Covered by Budgetary Resources                               $                 38,282,544     $               40,079,343
        4. Total Liabilities Covered by Budgetary Resources                                                     17,905,223                     23,729,018
        5. Total Liabilities                                                                  $                 56,187,767     $               63,808,361


Liabilities not covered by budgetary resources include liabilities for which congressional action is needed before budgetary resources can
be provided.
68           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Intragovernmental Liabilities, Other, consist of employment-related liabilities: Federal Employees’ Compensation Act (FECA) and
other unfunded employment-related liabilities.

Nonfederal Accounts Payable not covered by budgetary resources represent amounts that are related to canceled appropriations. These
amounts will require resources funded from future-year appropriations.

Military Retirement and Other Federal Employment Benefits consist of various employee actuarial liabilities not due and payable
during the current fiscal year. These liabilities consist primarily of the FECA benefits liability of $1.4 billion. Refer to Note 17,
Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Environmental Liabilities represents the Department’s liability for existing and anticipated environmental cleanup and disposal.

Nonfederal Liabilities Other primarily consists of $3.7 billion in unfunded annual leave, $1.1 billion in contingent liabilities, and
$2.7 billion in expected expenditures for disposal of conventional munitions.

Liabilities such as Environmental Liabilities and Military Retirement and Other Federal Employment Benefits are not covered by
budgetary resources because there are no current or immediate appropriations available for liquidation. These liabilities will require
resources funded from future-year appropriations.



Note 12.	Accounts Payable
       As of September 30                                                                                  2011
                                                                                                   Interest, Penalties, and
       (Amounts in thousands)                                             Accounts Payable           Administrative Fees                      Total
       1. Intragovernmental Payables                                  $           2,028,077                             N/A $                  2,028,077
       2. Nonfederal Payables (to the Public)                                     6,631,107 $                         1,457                    6,632,564
       3. Totals                                                      $           8,659,184 $                         1,457 $                  8,660,641


       As of September 30                                                                                  2010
                                                                                                  Interest, Penalties, and
       (Amounts in thousands)                                             Accounts Payable          Administrative Fees                       Total
       1. Intragovernmental Payables                                  $           1,890,428                             N/A $                  1,890,428
       2. Nonfederal Payables (to the Public)                                    10,747,638 $                         6,332                   10,753,970
       3. Totals                                                      $          12,638,066 $                         6,332 $                 12,644,398


Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army General
Fund. The Army General Fund’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts Payable were adjusted by reclassifying
amounts between federal and nonfederal Accounts Payable.



Note 13.	Debt
       As of September 30                                                 2011                                                 2010
                                                        Beginning                                         Beginning
       (Amounts in thousands)                            Balance      Net Borrowing   Ending Balance       Balance            Net Borrowing     Ending Balance

       1. Agency Debt (Intragovernmental)
           A. Debt to the Treasury                  $               1 $          (0) $            1 $         1,060 $             (1,059) $                 1
           B. Debt to the Federal Financing Bank                    0             0               0               0                    0                    0
           C. Total Agency Debt                     $               1 $           0 $             1 $         1,060 $             (1,059) $                 1
       2. Total Debt                                $               1 $           0 $             1 $         1,060 $             (1,059) $                 1
                                                                                           Army General Fund                       69
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The Army General Fund, by means of the Armament Retooling and Manufacturing Support (ARMS) initiative legislation, established
a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities. When a borrower
defaults on a guaranteed loan, the Army General Fund executes borrowing authority with the U.S. Treasury to pay the lender the
guaranteed outstanding principal resulting in a debt with the U.S. Treasury. The total debt of $0.7 thousand consists of interest and
principal payments due to the U.S. Treasury for ARMS loan defaults.



Note 14.	Environmental Liabilities and Disposal
         Liabilities
      As of September 30                                                                     2011                   2010
      (Amounts in thousands)
      1. Environmental Liabilities - Nonfederal
          A. Accrued Environmental Restoration Liabilities
               1. Active Installations—Installation Restoration Program (IRP) and
                   Building Demolition and Debris Removal (BD/DR)                     $        2,036,524 $           2,339,511
               2. Active Installations—Military Munitions Response Program (MMRP)              1,869,956             1,930,687
               3. Formerly Used Defense Sites—IRP and BD/DR                                    3,295,377             3,426,263
               4. Formerly Used Defense Sites—MMRP                                            10,990,009            11,811,902
          B. Other Accrued Environmental Liabilities—Non-BRAC
               1. Environmental Corrective Action                                                326,128                274,591
               2. Environmental Closure Requirements                                             354,103                343,655
               3. Environmental Response at Operational Ranges                                    74,732                107,287
               4. Asbestos                                                                       246,744                240,559
               5. Non-Military Equipment                                                               0                      0
               6. Other                                                                           60,887                 66,168
          C. Base Realignment and Closure Installations
               1. Installation Restoration Program                                               673,582                871,671
               2. Military Munitions Response Program                                            530,682                861,312
               3. Environmental Corrective Action/Closure Requirements                           206,853                289,094
               4. Asbestos                                                                             0                      0
               5. Non-Military Equipment                                                               0                      0
               6. Other                                                                                0                      0
          D. Environmental Disposal for Military Equipment/Weapons Programs
               1. Nuclear Powered Military Equipment/Spent Nuclear Fuel                                  0                     0
               2. Non-Nuclear Powered Military Equipment                                                 0                     0
               3. Other Weapons Systems                                                                  0                     0
          E. Chemical Weapons Disposal Program
               1. Chemical Demilitarization - Chemical Materials Agency (CMA)                  4,592,023              5,286,908
               2. Chemical Demilitarization - Assembled Chemical Weapons
                   Alternatives (ACWA)                                                         6,510,391             5,503,123
               3. Other                                                                                0                     0
      2. Total Environmental Liabilities                                              $       31,767,991 $          33,352,731



Applicable Laws and Regulations
The Army General Fund is required to clean up contamination resulting from past waste disposal practices, leaks, spills, and other past
activity. This cleanup requirement applies to releases of hazardous substances and wastes that created a public health or environmental
risk and from unexploded ordnance, discarded military munitions, and munitions constituents at other than operational ranges. The
Defense Environmental Restoration Program (DERP), established by Section 211 of the Superfund Amendments and Reauthorization
Act of 1986 and codified in Title 10 of the United States Code (USC) 2700 et.seq., establishes requirements. The Army General Fund
70          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


is also required to clean up contamination resulting from waste disposal practices, leaks, spills, and other activity at overseas locations in
accordance with DoD policy as prescribed in DoD Instruction 4715.8, Environmental Remediation for DoD Activities Overseas, under
the Army Compliance Cleanup Program.

The Federal Accounting Standards Advisory Board (FASAB) published Technical Bulletin 2006-1 (TB 2006-1), “Recognition and
Measurement of Asbestos-Related Cleanup Cost” and Technical Release 10, “Implementation Guidance on Asbestos Cleanup Costs
Associated with Facilities and Installed Equipment,” which clarifies reporting of liabilities arising from asbestos-related cleanup.

The Army General Fund is required to destroy the chemical stockpile and nonstockpile items as part of the Chemical Demilitarization
Program. The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts) directed the DoD
to destroy the unitary chemical stockpile while providing for maximum protection of the environment, public, and personnel
involved in the destruction effort. The U.S. Army Chemical Materials Agency’s Nonstockpile Chemical Materiel project provides
centralized management and direction to the DoD for the disposal of currently declared nonstockpile chemical materiel in a safe
and environmentally sound manner. The facilities and equipment developed and fielded as part of the program are also subject to
numerous federal and state environmental regulations.

For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in the approved
baseline are based on the best information available and have been through the formal acquisition program baseline approval process
at the time of report submission. However, these schedules and estimates are subject to modifications and impacts from program risks
and uncertainties inherent to the task of chemical demilitarization and the political sensitivity of the program. These risks may include
processing changes required to meet the operational schedules due to the deteriorating condition of the stockpile and additional
schedule time and/or cost to address changes in environmental laws or congressional requirements.

Applicable laws are as follows for the DERP, NonDERP, low-level radioactive waste, and the Base Realignment and Closure (BRAC)
programs:

     n	 Comprehensive Environmental Response, Compensation, and Liability Act
     n	 Superfund Amendments and Reauthorization Act
     n	 Clean Water Act
     n	 Safe Drinking Water Act
     n	 Clean Air Act
     n	 Resource Conversation and Recovery Act
     n	 Toxic Substances Control Act
     n	 Medical Waste Tracking Act
     n	 Atomic Energy Act
     n	 Low-Level Radioactive Waste Policy Amendments Act
     n	 Nuclear Waste Policy Act
     n	 National Defense Authorization Acts


Types of Environmental Liabilities and Disposal Liabilities Identified
The Army General Fund has cleanup requirements for DERP sites at active installations, BRAC installations, formerly used Defense
sites (FUDS) at active installations that are not covered by DERP, weapon systems programs, and chemical weapons disposal
programs. Environmental disposal for weapons systems programs consists of chemical weapons disposal, including the destruction
of the entire United States’ stockpile of chemical agents and munitions and disposal of nonstockpile chemical material. This includes
binary chemical weapons, old chemical weapons recovered as part of remediation and recovery operations, and miscellaneous materiel
associated with chemical weapon production, storage, testing, maintenance, and disposal. All cleanup is done in coordination with
regulatory agencies, other responsible parties, and current property owners.
                                                                                             Army General Fund                       71
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods
The Army General Fund uses engineering estimates and independently validated models to estimate environmental cleanup liabilities.
The Remedial Action Cost Engineering and Requirements (RACER) system is the Army’s preferred model. The Army General Fund
relies upon the Air Force, the RACER executive agent, to validate the model in accordance with DoD Instruction 5000.61, DoD
Modeling and Simulation (M&S) Verification, Valuation, and Accreditation (VV&A), and primarily uses the model to estimate the
liabilities based on data received during a preliminary assessment and initial site investigation. The Army primarily uses engineering
estimates after obtaining extensive data during the remedial investigation/feasibility phase of an environmental cleanup project.

The Army General Fund uses the real property inventory and engineering estimates of costs for environmental closure liabilities and
reports these costs in aggregate. Asbestos disposal costs are not estimable due to the ubiquitous nature of non-friable asbestos, but
facility surveys to determine the presence of asbestos are reported, based upon a cost of $0.35/square foot multiplied by the gross
square feet of the Army-owned buildings.

The Army General Fund is unable to systematically gather and report environmental disposal liabilities for military equipment or
general property, plant, and equipment. Most liabilities for individual items of equipment are expected to be below the Army’s
$42,000 materiality threshold for a single environmental site. The Army General Fund will continue to coordinate with the Office of
the Under Secretary of Defense (Comptroller) to address this deficiency.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due
to Inflation, Deflation, Technology, or Applicable Laws and Regulations
The Army General Fund had changes in estimates resulting from previously unknown contamination, better site characterization with
sampling information, reestimation based on different assumptions, and lessons learned. Environmental liabilities may change in the
future due to changes in laws and regulations, changes in agreements with regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported
Environmental Liabilities
The environmental liabilities for the Army General Fund are based on accounting estimates, which require certain judgments and
assumptions that are believed to be reasonable based upon information available at the time the estimates are calculated. The actual
results may vary materially from the accounting estimates if agreements with regulatory agencies require remediation to a different
degree than anticipated when calculating the estimates. Liabilities can be further impacted if investigation of the environmental sites
discloses contamination levels different than known at the time of the estimates.

The Army General Fund has reported asbestos survey costs but estimating the amount of non-friable asbestos removal/disposal at the
time of building renovation or demolition, in accordance with FASAB TB 2006-1, presents too much uncertainty to recognize on the
Balance Sheet.

The Army General Fund is also uncertain regarding the costs for remediation activities in conjunction with returning overseas
military facilities to host nations. The Army General Fund is currently unable to provide a reasonable estimate because the extent of
remediation required is not known.

Other Accrued Environmental Liabilities – Non-BRAC, Other consists of low-level radioactive waste.
72             Army General Fund
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 15.	Other Liabilities
     As of September 30                                                                 2011                                   2010
     (Amounts in thousands)                                 Current Liability   Noncurrent Liability          Total             Total

     1. Intragovernmental
         A. Advances from Others                        $           45,118       $                     0 $        45,118   $       86,346
         B. Deposit Funds and Suspense Account
             Liabilities                                         832,516                               0        832,516           251,088
         C. Disbursing Officer Cash                            1,438,076                               0      1,438,076         1,779,631
         D. Judgment Fund Liabilities                             20,953                               0         20,953                 0
         E. FECA Reimbursement to the Department of
             Labor                                                117,872                  134,606              252,478           274,896
         F. Custodial Liabilities                                  77,671                    5,275               82,946            60,108
         G. Employer Contribution and Payroll Taxes
             Payable                                             145,608                         0              145,608           135,973
         H. Other Liabilities                                    292,213                         0              292,213           336,621
         I. Total Intragovernmental Other Liabilities   $      2,970,027         $         139,881 $          3,109,908    $    2,924,663
     2. Nonfederal
         A. Accrued Funded Payroll and Benefits         $        791,599         $                     0 $      791,599    $    2,857,487
         B. Advances from Others                               1,804,354                               0      1,804,354         1,760,221
         C. Deferred Credits                                           0                               0              0                 0
         D. Deposit Funds and Suspense Accounts                   44,072                               0         44,072            76,841
         E. Temporary Early Retirement Authority                       0                               0              0                 0
         F. Nonenvironmental Disposal Liabilities
               (1) Military Equipment (Nonnuclear)                     0                        0                     0                 0
               (2) Excess/Obsolete Structures                          0                        0                     0                 0
               (3) Conventional Munitions Disposal                     0                2,752,431             2,752,431         2,072,316
         G. Accrued Unfunded Annual Leave                      3,707,090                        0             3,707,090         4,520,402
         H. Capital Lease Liability                                1,957                    1,496                 3,453             7,040
         I. Contract Holdbacks                                   488,556                        0               488,556           421,941
         J. Employer Contribution and Payroll Taxes
             Payable                                              138,712               1,568,860             1,707,572           150,546
         K. Contingent Liabilities                                 (7,515)                      0                (7,515)        1,665,186
         L. Other Liabilities                                        1,196                      0                 1,196               389
         M. Total Nonfederal Other Liabilities          $       6,970,021        $      4,322,787 $          11,292,808 $      13,532,369
     3. Total Other Liabilities                         $       9,940,048        $      4,462,668 $          14,402,716 $      16,457,032
                                                                                             Army General Fund                         73
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Capital Lease Liability
      As of September 30                                                                2011                               2010
                                                                     Land and
      (Amounts in thousands)                                         Buildings   Equipment     Other         Total         Total

      1. Future Payments Due
          A. 2012                                                $       2,413 $         0 $           0 $     2,413 $       4,509
          B. 2013                                                        1,612           0             0       1,612         2,413
          C. 2014                                                          148           0             0         148         1,612
          D. 2015                                                            0           0             0           0           148
          E. 2016                                                            0           0             0           0             0
          F. After 5 Years                                                   0           0             0           0             0
          G. Total Future Lease Payments Due                     $       4,173 $         0 $           0 $     4,173 $       8,682
          H. Less: Imputed Interest Executory Costs                        720           0             0         720         1,642
          I. Net Capital Lease Liability                         $       3,453 $         0 $           0 $     3,453 $       7,040
      2. Capital Lease Liabilities Covered by Budgetary
         Resources                                                                                       $     3,453 $       7,040
      3. Capital Lease Liabilities Not Covered by Budgetary
         Resources                                                                                       $           0 $           0



Intragovernmental Other Liabilities Composition
Intragovernmental Other Liabilities consist of unemployment compensation liability.

Nonfederal Other Liabilities Composition
Nonfederal Other Liabilities consist of amounts that have not been obligated.

Estimated Future Contract Financing Payments
Contingent liabilities include $385.8 million related to contracts authorizing progress payments based on cost as defined in the
Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vest with the federal
government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event of contract
nonperformance. These rights should not be misconstrued as rights of ownership. The Army General Fund is under no obligation
to pay contractors for amounts greater than the amounts authorized in contracts until delivery and government acceptance. Due to
the probability of contractors completing their efforts and delivering satisfactory products, the Army General Fund has recognized a
contingent liability for estimated future payments which are conditional pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred to date
by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by the contract-
authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.



Note 16.	Commitments and Contingencies
The Army General Fund is a party in various administrative proceedings and legal actions related to claims for environmental damage,
equal opportunity matters, and contractual bid protests.

The Army General Fund has accrued contingent liabilities for legal actions when the Office of General Counsel (OGC) considers an
adverse decision is probable and the amount of loss is measurable. In the event of an adverse judgment against the federal government,
some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army General Fund reports contingent liabilities in
Note 15, Other Liabilities.
74           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Nature of Contingency
The Management’s Schedule of Information derived from the FY 2011 Army Legal Representation Letter outlines claims against the
Army General Fund totaling $12.3 trillion for which the Army OGC is unable to express an opinion. The majority of this amount is
due to claims for Fort Detrick, Maryland contamination ($10.0 trillion) and the Hurricane Katrina levee breach ($2.3 trillion). The
historical payout percentage for these cases is less than 1 percent. To determine the historical payout, the Army OGC divides the total
amount reported as a payout in the fiscal year by the total amount claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities for which the possibility of loss is considered reasonable. These liabilities are
not accrued in the Army General Fund’s financial statements. As of September 30, 2011, the Army General Fund had $884.1 million
in claims considered reasonably possible. These contingent liabilities and estimates are presented in the following table. Estimates for
litigations, claims, and assessments are required to be fully supported.

Estimates in the Management Schedule of Information will not always agree with amounts reported by the OGC subordinate
commands, displayed below, because the Management Schedule of Information amounts are subject to a materiality threshold –
currently $31.5 million.
                                        (Amounts in thousands)
                                                 Type of Contingent Liabilities                Estimate
                                        Army Environmental Law Division                          $345,633
                                        Army Contract Appeals                                      114,058
                                        U.S. Army Claims Service                                    21,159
                                        Litigation Division                                        403,254
                                        Total                                                    $884,104


Other Information Pertaining to Commitments
The Army General Fund is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may result in a future outflow of expenditures. Currently, the Army General Fund has limited automated
system processes by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly
present the Army General Fund’s contingent liabilities.



Note 17.	Military Retirement and Other Federal
         Employment Benefits
     As of September 30                                                                        2011                                         2010
                                                                                            (Less: Assets
                                                                                           Available to Pay
     (Amounts in thousands)                                                Liabilities        Benefits)         Unfunded Liabilities   Unfunded Liabilities

     1. Pension and Health Actuarial Benefits
         A. Military Retirement Pensions                              $                  0 $                  0 $                $0 $                   $0
         B. Military Pre Medicare-Eligible Retiree Health Benefits                       0                    0                   0                      0
         C. Military Medicare-Eligible Retiree Health Benefits                           0                    0                   0                      0
         D. Total Pension and Health Benefits                         $                  0 $                  0 $                 0 $                    0
     2. Other Actuarial Benefits
         A. FECA                                                      $     1,356,264 $                       0 $   1,356,264 $             1,350,559
         B. Voluntary Separation Incentive Programs                                 0                         0             0                       0
         C. DoD Education Benefits Fund                                             0                         0             0                       0
         D. Other                                                     $             0 $                       0 $           0 $                     0
         E. Total Other Actuarial Benefits                                  1,356,264                         0     1,356,264               1,350,559
     3. Total Military Retirement and Other Federal
        Employment Benefits:                                          $     1,356,264 $                       0 $    1,356,264 $            1,350,559
                                                                                              Army General Fund                         75
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Federal Employees Compensation Act (FECA)
The Army’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to the Army
at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for
approved compensation cases, plus a component for incurred-but-not-reported claims. The actuarial liability for FECA increased
$5.7 million between FY 2010 and FY 2011.

Actuarial Cost Method
The liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments.

Market Value of Market-Based Securities
As of September 30, 2011, the market value of the nonmarketable, market-based securities held by the Army General Fund is
$3.2 million. See Note 4, Investments and Related Interest, for additional information.

Assumptions
The projected annual benefit payments are discounted to the present value using the Office of Management and Budget’s economic
assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living adjustments (COLAs) and medical inflation factors (CPIMs)
provided by the Department of Labor are also applied to the calculation of projected future benefits. The estimated actuarial liability is
updated only at the end of each fiscal year.

Interest rate assumptions utilized for discounting were as follows:

3.535% in Year 1
4.025% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, COLAs and CPIMs
were applied to the calculation of projected future benefits. The actual rates for these factors for the charge-back year (CBY) 2011 were
used to adjust the historical payments associated with the methodology to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:


                                                  CBY              COLA             CPIM
                                                  2011              N/A              N/A
                                                  2012             2.10%            3.07%
                                                  2013             2.53%            3.62%
                                                  2014             1.83%            3.66%
                                                  2015             1.93%            3.73%
                                                  2016+            2.00%            3.73%


The resulting projections from the model were analyzed to ensure that the estimates were reliable. The analysis was based on four tests:
(1) a sensitivity analysis of the model in comparison to economic assumptions; (2) a comparison, by agency, of the percentage change
in the liability amount to the percentage change in the actual incremental payments; (3) a comparison of the incremental paid losses
per case (a measure of case-severity) in CBY 2011 to the average pattern observed during the most current three charge-back years; and
(4) a comparison of the estimated liability per case in the 2011 projection to the average pattern for the projections of the most recent
three years.
76         Army General Fund
     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 18.	General Disclosures Related to the
         Statement of Net Cost
     Intragovernmental Costs and Exchange Revenue
     As of September 30                                        2011                2010
     (Amounts in thousands)
     Military Retirement Benefits
     1. Gross Cost
         A.Intragovernmental Cost                       $                0    $                0
         B.Nonfederal Cost                                               0                     0
         C.Total Cost                                   $                0    $                0
     2. Earned Revenue
         A.Intragovernmental Revenue                    $                0    $                0
         B.Nonfederal Revenue                                            0                     0
         C.Total Revenue                                $                0    $                0
     3. Losses/(Gains) from Actuarial Assumption
     Changes for Military Retirement Benefits           $                0    $                0
     Total Net Cost                                     $                0    $                0

     Civil Works
     1. Gross Cost
         A.Intragovernmental Cost                       $                0    $                0
         B.Nonfederal Cost                                               0                     0
         C.Total Cost                                   $                0    $                0
     2. Earned Revenue
         A.Intragovernmental Revenue                    $                0    $                0
         B.Nonfederal Revenue                                            0                     0
         C.Total Revenue                                $                0    $                0
     3. Losses/(Gains) from Actuarial Assumption
     Changes for Military Retirement Benefits           $                0    $                0
     Total Net Cost                                     $                0    $                0

     Military Personnel
     1. Gross Cost
         A.Intragovernmental Cost                       $        19,521,006   $      19,415,863
         B.Nonfederal Cost                                       50,770,273          49,993,264
         C.Total Cost                                   $        70,291,279   $      69,409,127
     2. Earned Revenue
         A.Intragovernmental Revenue                    $          (322,188) $         (306,328)
         B.Nonfederal Revenue                                           117               (3,577)
         C.Total Revenue                                $          (322,071) $         (309,905)
     3. Losses/(Gains) from Actuarial Assumption
     Changes for Military Retirement Benefits           $                 0   $               0
     Total Net Cost                                     $        69,969,208   $      69,099,222
                                                                Army General Fund               77
   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Intragovernmental Costs and Exchange Revenue
As of September 30                                          2011                2010
(Amounts in thousands)
Operations, Readiness & Support
1. Gross Cost
    A.Intragovernmental Cost                         $       29,017,694   $      31,308,024
    B.Nonfederal Cost                                        65,055,787          61,978,933
    C.Total Cost                                     $       94,073,481   $      93,286,957
2. Earned Revenue
    A.Intragovernmental Revenue                      $         3,498,400 $         2,500,452
    B.Nonfederal Revenue                                      (1,201,874)         (1,032,420)
    C.Total Revenue                                  $         2,296,526 $         1,468,032
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits             $                0   $               0
Total Net Cost                                       $       96,370,007   $      94,754,989

Procurement
1. Gross Cost
    A.Intragovernmental Cost                         $        6,755,174   $       8,045,310
    B.Nonfederal Cost                                        30,607,867          16,230,031
    C.Total Cost                                     $       37,363,041   $      24,275,341
2. Earned Revenue
    A.Intragovernmental Revenue                      $        (2,008,116) $       (1,652,464)
    B.Nonfederal Revenue                                          18,418            (692,756)
    C.Total Revenue                                  $        (1,989,698) $       (2,345,220)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits             $                0   $               0
Total Net Cost                                       $       35,373,343   $      21,930,121

Research, Development, Test & Evaluation
1. Gross Cost
    A.Intragovernmental Cost                         $        2,693,848   $       2,887,002
    B.Nonfederal Cost                                        11,902,958          12,193,392
    C.Total Cost                                     $       14,596,806   $      15,080,394
2. Earned Revenue
    A.Intragovernmental Revenue                      $        (4,586,334) $       (4,058,049)
    B.Nonfederal Revenue                                        (173,483)           (128,875)
    C.Total Revenue                                  $        (4,759,817) $       (4,186,924)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits             $                0   $               0
Total Net Cost                                       $        9,836,989   $      10,893,470
78          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


        Intragovernmental Costs and Exchange Revenue
        As of September 30                                                            2011                       2010
        (Amounts in thousands)
        Family Housing & Military Construction
        1. Gross Cost
            A.Intragovernmental Cost                                        $            1,486,514     $               967,515
            B.Nonfederal Cost                                                            9,645,378                   6,699,990
            C.Total Cost                                                    $           11,131,892     $             7,667,505
        2. Earned Revenue
            A.Intragovernmental Revenue                                     $            (6,533,797) $              (6,201,396)
            B.Nonfederal Revenue                                                           (193,700)                  (385,373)
            C.Total Revenue                                                 $            (6,727,497) $              (6,586,769)
        3. Losses/(Gains) from Actuarial Assumption
        Changes for Military Retirement Benefits                            $                    0     $                     0
        Total Net Cost                                                      $            4,404,395     $             1,080,736

        Consolidated
        1. Gross Cost
            A.Intragovernmental Cost                                        $           59,474,236     $           62,623,714
            B.Nonfederal Cost                                                          167,982,263                147,095,610
            C.Total Cost                                                    $          227,456,499     $          209,719,324
        2. Earned Revenue
            A.Intragovernmental Revenue                                     $            (9,952,035) $               (9,717,785)
            B.Nonfederal Revenue                                                         (1,550,522)                 (2,243,001)
            C.Total Revenue                                                 $          (11,502,557) $              (11,960,786)
        3. Losses/(Gains) from Actuarial Assumption
        Changes for Military Retirement Benefits                            $                    0     $                    0
        4. Costs Not Assigned to Programs                                                        0                          0
        5. (Less: Earned Revenues Not Attributed to Programs)                                    0                          0
        Total Net Cost                                                      $          215,953,942     $          197,758,538



Definitions
Intragovernmental costs and revenue represent transactions made between two reporting entities within the federal government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs
The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government that are supported
by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount of output
or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current processes and
systems do not capture and report accumulated costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost reporting
methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, as amended by SFFAS No. 30, Inter-entity Cost Implementation.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual, and disbursing
transactions, which are not always recorded using accrual accounting. The Army General Fund systems do not always record the
transactions on an accrual basis as is required by the generally accepted accounting principles. The information presented also includes
data from nonfinancial feeder systems to ensure that all cost and financing sources are captured for the Army General Fund.
                                                                                           Army General Fund                          79
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Additional Disclosures
The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between federal and
nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

The Army General Fund accounting systems do not capture information relative to heritage assets separately and distinctly from
normal operations. The Army General Fund is not able to separately identify the costs of acquiring, constructing, improving,
reconstructing, or renovating heritage assets. The Army Financial Improvement Plan outlines tasks to separately identify and report
costs associated with heritage assets by 1st Quarter, FY 2013.



Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
Other Financing Sources, Other
Other Financing Sources, Other primarily consist of gains and losses that resulted from adjustments necessary to balance the Army
General Fund’s feeder systems with DoD’s financial reporting system and to correct inherent limitations of the current financial
systems.

Appropriations Received
The Appropriations Received line item on the Statement of Changes in Net Position (SCNP) does not agree with the Appropriation
line item on the Statement of Budgetary Resources (SBR). The $10 million difference is due to additional resources included in the
Appropriation line item on the SBR. Refer to Note 20, Disclosures Related to the SBR, for further information.

Eliminations
In the SCNP, all offsetting balances (i.e., transfers-in and transfers-out, revenues, and expenses) for intraentity activity between
Earmarked Funds and All Other Funds are reported on the same lines. The Eliminations column contains all appropriate elimination
entries, which net to zero within each respective line, except for intraentity imputed financing costs.

Earmarked
The ending balance for the Earmarked Cumulative Results of Operations on the SCNP does not agree with the Earmarked Cumulative
Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of eliminations.



Note 20.	Disclosures Related to the Statement of
         Budgetary Resources
      As of September 30                                                                         2011                2010
      (Amounts in thousands)
      1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End
         of the Period                                                                 $       139,093,091 $       136,696,725
      2. Available Borrowing and Contract Authority at the End of the Period           $                 0 $                 0
80          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Undelivered Orders
Undelivered Orders presented in the Statement of Budgetary Resources (SBR) include Undelivered Orders-Unpaid for both direct and
reimbursable funds.

Reporting of Appropriations Received
The Appropriation line item on the SBR does not agree with the Appropriations Received line item on the Statement of Changes
in Net Position because of differences between proprietary and budgetary accounting concepts and reporting requirements. These
differences, totaling $10.0 million, consist of the receipts for special and trust funds.

Presentation of Statement of Budgetary Resources
The SBR includes intraentity transactions because the statements are presented as combined.

Breakdown of Apportionment Categories
The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A (apportioned by fiscal
quarter), Category B (apportioned by project or activity), and Exempt from Apportionment is as follows:

                                 (Amounts in billions)
                                 Budgetary                                Direct          Reimbursable
                                 Category A                                   $193.3               $0.1
                                 Category B                                      61.1              28.9
                                 Exempt from Apportionment                        0.1               0.0
                                    Total                                     $254.5              $29.0

                                 (Amount in thousands)
                                 Non-Budgetary                            Direct          Reimbursable
                                 Category A                                        $5.1            $0.0


The above disclosure agrees (1) with the aggregate of the related information as reported on the Report on Budget Execution and (2)
with Obligations Incurred as reported on the SBR.

The use of unobligated balances of the expired funding is restricted by time limit, purpose, and obligation limitations.

Terms of Borrowing Authority
Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support (ARMS)
Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund ammunition plants through many
incentives for businesses willing to locate to a government ammunition production facility. The Army General Fund, by means
of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial firms’ use of specified ammunition
manufacturing facilities. The Army General Fund and Department of Agriculture Rural Business-Cooperative Service (RBS)
established a memorandum of understanding for the RBS to administer the ARMS Initiative Loan Guarantee Program.

Borrowings are repaid on Standard Form 1151, Nonexpenditure Transfer Authorization, as maturity dates become due. For liquidating
accounts, maturity dates are one working day prior to the anniversary date of the note. For financing accounts, maturity dates are based
on the period of time used in the subsidy calculation, not the contractual term of the agency’s loans to borrowers.

There is no borrowing authority available as of September 30, 2011.
                                                                                          Army General Fund                81
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 21.	Reconciliation of Net Cost of Operations to
         Budget
 As of September 30                                                                        2011               2010
 (Amounts in thousands)
 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                                              $    283,449,288 $     283,446,916
 2. Less: Spending authority from offsetting collections and recoveries (-)                (53,503,245)      (51,224,173)
 3. Obligations net of offsetting collections and recoveries                          $    229,946,043 $     232,222,743
 4. Less: Offsetting receipts (-)                                                             (856,292)         (142,173)
 5. Net obligations                                                                   $    229,089,751 $     232,080,570
 Other Resources:
 6. Donations and forfeitures of property                                             $             237 $              0
 7. Transfers in/out without reimbursement (+/-)                                              1,800,665        2,292,891
 8. Imputed financing from costs absorbed by others                                           1,283,044        1,240,470
 9. Other (+/-)                                                                            (10,434,410)        3,587,834
 10. Net other resources used to finance activities                                   $      (7,350,464) $     7,121,195
 11. Total resources used to finance activities                                       $    221,739,287 $     239,201,765
 Resources Used to Finance Items not Part of the Net Cost of Operations:
 12. Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided:
      12a. Undelivered Orders (-)                                                     $     (2,395,513) $     (5,821,728)
      12b. Unfilled Customer Orders                                                          1,717,357         2,658,704
 13. Resources that fund expenses recognized in prior Periods (-)                           (2,704,006)       (4,030,203)
 14. Budgetary offsetting collections and receipts that do not affect Net Cost of
     Operations                                                                                856,567           146,719
 15. Resources that finance the acquisition of assets (-)                                  (24,555,719)      (35,780,900)
 16. Other resources or adjustments to net obligated resources that do not affect
     Net Cost of Operations:
      16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
         Budget (-)                                                                                  0                  0
      16b. Other (+/-)                                                                       8,633,510         (5,870,104)
 17. Total resources used to finance items not part of the Net Cost of Operations     $    (18,447,804) $    (48,697,512)
 18. Total resources used to finance the Net Cost of Operations                       $    203,291,483 $     190,504,253
82           Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


      As of September 30                                                                         2011                2010
      (Amounts in thousands)
      Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Period:
      19. Increase in annual leave liability                                             $        182,781 $          764,838
      20. Increase in environmental and disposal liability                                               0                 0
      21. Upward/Downward reestimates of credit subsidy expense (+/-)                                    0                 0
      22. Increase in exchange revenue receivable from the public (-)                              (33,360)           16,035
      23. Other (+/-)                                                                             673,693          1,001,654
      24. Total components of Net Cost of Operations that will Require or Generate
         Resources in future periods                                                     $        823,114 $        1,782,527
      Components not Requiring or Generating Resources:
      25. Depreciation and amortization                                                  $     16,375,441 $       10,400,454
      26. Revaluation of assets or liabilities (+/-)                                               (34,774)                0
      27. Other (+/-)
          27a. Trust Fund Exchange Revenue                                                               0                 0
          27b. Cost of Goods Sold                                                                        0                 0
          27c. Operating Material and Supplies Used                                                      0                 0
          27d. Other                                                                           (4,501,324)        (4,928,696)
      28. Total Components of Net Cost of Operations that will not Require or Generate
         Resources                                                                       $     11,839,343 $        5,471,758

      29. Total components of Net Cost of Operations that will not Require or Generate
         Resources in the current period                                                   $  12,662,457       $     7,254,285
      30. Net Cost of Operations                                                           $ 215,953,940       $   197,758,538



Required Disclosures
Due to the Army General Fund’s financial system limitations, budgetary data do not agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency.

The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost totaled $154.1 million and
was reported in the category of Other Components Not Requiring or Generating Resources.

 The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between net obligations
from budgetary accounting and net cost of operations from proprietary accounting. The following Reconciliation of Net Cost of
Operations to Budget lines is presented as combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:

     n	 Obligations incurred
     n	 Less: Spending authority from offsetting collections and recoveries
     n	 Obligations net of offsetting collections and recoveries
     n	 Less: Offsetting Receipts
     n	 Net Obligations
     n	 Undelivered Orders
     n	 Unfilled Customer Orders


Budgetary Resources Obligated, Other include (1) other gains and losses and (2) gains and losses on disposition of assets. These latter
gains and losses resulted from adjustments necessary to balance the Army General Fund’s feeder systems with DoD’s financial reporting
system and to correct inherent limitations of the current financial systems.
                                                                                             Army General Fund                        83
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other include financing sources
transferred in and out without reimbursement, other gains and losses, and gains and losses on disposition of assets.

Components Requiring or Generating Resources in Future Period, Other represent increases in future-funded expenses for
conventional disposal costs and contingent liabilities for contract appeals and tort claims.

Components not Requiring or Generating Resources, Other are comprised of other expenses not requiring budgetary resources for the
Iraqi Relief and Reconstruction Fund. This Fund is a transfer fund in which the Army General Fund executes the funding on behalf
of the Executive Office of the President. The U.S. Treasury requires that the execution for this type of transfer is presented on the Army
General Fund financial statements.



Note 22.	Disclosures Related to Incidental Custodial
         Collections
The Army General Fund does not collect incidental custodial revenues.
84         Army General Fund
     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 23.	Earmarked Funds
                                                                                                 2011
                                                                               Medicare-
     BALANCE SHEET                                            Military      Eligible Retiree      Other
     As of September 30                                      Retirement       Health Care       Earmarked
     (Amounts in thousands)                                    Fund               Fund            Funds     Eliminations     Total
     ASSETS
     Fund Balance with Treasury                          $                0 $             0 $     47,140    $          0 $   47,140
     Investments                                                          0               0        3,205               0      3,205
     Accounts and Interest Receivable                                     0               0            0               0          0
     Other Assets                                                         0               0            0               0          0
     Total Assets                                        $                0 $             0 $     50,345    $          0 $   50,345
     LIABILITIES and NET POSITION
     Military Retirement Benefits and Other Federal
       Employment Benefits                               $                0 $             0 $          0    $          0 $        0
     Other Liabilities                                                    0               0          759               0        759
     Total Liabilities                                   $                0 $             0 $        759    $          0 $      759
     Unexpended Appropriations                                            0               0            0               0          0
     Cumulative Results of Operations                                     0               0       49,586               0     49,586
     Total Liabilities and Net Position                  $                0 $             0 $     50,345    $          0 $   50,345

     STATEMENT OF NET COST
     For the period ended September 30
     Program Costs                                       $                0 $             0 $     15,559 $             0 $   15,559
     Less: Earned Revenue                                                 0               0         (154)              0       (154)
     Net Program Costs                                   $                0 $             0 $     15,405 $             0 $   15,405
     Less: Earned Revenue Not Attributable to Programs                    0               0            0               0          0
     Net Cost of Operations                              $                0 $             0 $     15,405 $             0 $   15,405

     STATEMENT OF CHANGES IN NET POSITION
     For the period ended September 30
     Net Position Beginning of the Period                $                0 $             0 $     58,686 $             0 $   58,686
     Net Cost of Operations                                               0               0       15,405               0     15,405
     Budgetary Financing Sources                                          0               0        9,137               0      9,137
     Other Financing Sources                                              0               0       (2,832)              0     (2,832)
     Change in Net Position                              $                0 $             0 $     (9,100) $            0 $   (9,100)
     Net Position End of Period                          $                0 $             0 $     49,586 $             0 $   49,586
                                                                                                      Army General Fund                       85
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


                                                                                                      2010
                                                                                    Medicare-
       BALANCE SHEET                                               Military      Eligible Retiree      Other
       As of September 30                                         Retirement       Health Care       Earmarked
       (Amounts in thousands)                                       Fund               Fund            Funds     Eliminations       Total
       ASSETS
       Fund Balance with Treasury                             $                0 $             0 $     60,530    $          0   $   60,530
       Investments                                                             0               0        3,218               0        3,218
       Accounts and Interest Receivable                                        0               0            0               0            0
       Other Assets                                                            0               0            0               0            0
       Total Assets                                           $                0 $             0 $     63,748    $          0   $   63,748
       LIABILITIES and NET POSITION
       Military Retirement Benefits and Other Federal
         Employment Benefits                                  $                0 $             0 $          0    $          0   $        0
       Other Liabilities                                                       0               0        5,062               0        5,062
       Total Liabilities                                      $                0 $             0 $      5,062    $          0   $    5,062
       Unexpended Appropriations                                               0               0            0               0            0
       Cumulative Results of Operations                                        0               0       58,686               0       58,686
       Total Liabilities and Net Position                     $                0 $             0 $     63,748    $          0   $   63,748

       STATEMENT OF NET COST
       For the period ended September 30
       Program Costs                                          $                0 $             0 $     11,552 $             0   $   11,552
       Less: Earned Revenue                                                    0               0         (160)              0         (160)
       Net Program Costs                                      $                0 $             0 $     11,392 $             0   $   11,392
       Less: Earned Revenue Not Attributable to Programs                       0               0            0               0            0
       Net Cost of Operations                                 $                0 $             0 $     11,392 $             0   $   11,392

       STATEMENT OF CHANGES IN NET POSITION
       For the period ended September 30
       Net Position Beginning of the Period                   $                0 $             0 $     57,671 $             0   $   57,671
       Net Cost of Operations (+/-)                                            0               0       11,392               0       11,392
       Budgetary Financing Sources                                             0               0       12,552               0       12,552
       Other Financing Sources                                                 0               0         (145)              0         (145)
       Change in Net Position                                 $                0 $             0 $      1,015 $             0   $    1,015
       Net Position End of Period                             $                0 $             0 $     58,686 $             0   $   58,686



Earmarked Funds
Earmarked Funds represent funds received from outside sources for specific purposes. The Army General Fund receives earmarked
funds for the following appropriations:

Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and fishing permits. The
funds for this account are used for wildlife, fish, and game conservation and rehabilitation on military reservations. Title 10, United
States Code (USC) 670b gives the authority to collect and distribute funds for the intended purposes.

Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of contaminated areas of Rocky
Mountain Arsenal. Public Law (PL) 99 661, Section 1367, provides the authority for this explicit use.

Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative memorabilia,
trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and other related commemorative
program expenses. The authority to create expenditures originates from PL 102 484, Section 378.

Forest and Wildlife Conservation, Military Reservations. Funds are received from the sales of forest products harvested from forests
on military installations and distributed to the respective states involved in the sales. Each state is entitled to 40 percent of the sales
86           Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


of products from its forest after reimbursement of DoD appropriations for the costs of production. Title 10, USC 2665 provides
authority for this fund and for payments to the states.

National Science Center. Funds received from the collection of fees are used for the operation and maintenance of the National
Science Center as authorized under PL 99-145, Defense Authorization Act, 1986, Section 1459.

Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest on investments
are used for purchasing supplies and equipment for the library at the Walter Reed Army Medical Center. The Army cannot currently
identify the statutory citation that provides authority for the use of this fund. The appropriation for this earmark is 21X8063.

Department of the Army General Gift Fund. Funds are received from private parties and estates and used for various purposes.
Title 10, USC 2601 establishes the authority governing the use of this fund.

The Total Earmarked Funds column is shown as consolidated and relates only to Earmarked Funds. The Elimination column on
this note includes only eliminations associated with Earmarked Funds and excludes the offsetting eliminations from all other funds.
This exclusion causes assets to not equal liabilities and net position in the note. However, the amounts in the Total column equal the
amounts reported for Earmarked Funds on the Balance Sheet.



Note 24.	Fiduciary Activities
     Schedule of Fiduciary Activity
      As of September 30                                                               2011                       2010
      (Amounts in thousands)
      1. Fiduciary net assets, beginning of year                             $                119,885    $               135,244
      2. Fiduciary revenues                                                  $                      0    $                      0
      3. Contributions                                                                        180,725                    171,329
      4. Investment earnings                                                                   11,677                      12,169
      5. Gain (Loss) on disposition of investments, net                                             0                           0
      6. Administrative and other expenses                                                          0                           0
      7. Distributions to and on behalf of beneficiaries                                    (182,908)                  (198,857)
      8. Increase/(Decrease) in fiduciary net assets                         $                  9,494    $               (15,359)
      9. Fiduciary net assets, end of period                                 $                129,379    $               119,885

     Schedule of Fiduciary Net Assets
       As of September 30                                                              2011                       2010
       (Amounts in thousands)
       Fiduciary Assets
       1. Cash and cash equivalents                                          $                129,380    $               119,885
       2. Investments                                                                               0                          0
       3. Other Assets                                                                              0                          0
       Fiduciary Liabilities
       4. Less: Liabilities                                                                         0                          0
       5. Total Fiduciary Net Assets                                         $                129,380    $               119,885


Fiduciary activities are those federal government activities that relate to the collection or receipt of cash or other assets in which
nonfederal individuals or entities have an ownership interest that the federal government must uphold. Fiduciary activities also include
managing, protecting, accounting, investing, and disposing of such cash or other assets. The DoD has a fiduciary duty to the Savings
Deposit Program in which the Army General Fund participates. Public Law 89-538 authorizes DoD, through the Savings Deposit
Program, to collect a voluntary allotment from the current pay of members of the Armed Forces deployed outside the United States
or its possessions in designated areas. The Army General Fund collects the savings and allotments of soldiers, and the collections and
accrued earned interest are transferred to the Navy General Fund, the program’s executive agent. These fiduciary assets are not assets of
the Army General Fund and are not recognized on the Army General Fund’s balance sheet.
                                                                          Army General Fund                      87
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



Note 25.	Other Disclosures
      As of September 30                                                          2011
                                                        Land and
      (Amounts in thousands)                            Buildings     Equipment          Other         Total
      1. ENTITY AS LESSEE-Operating Leases
          Future Payments Due
          Fiscal Year
               2012                                 $          67 $               0 $            0 $        67
               2013                                            67                 0              0          67
               2014                                            67                 0              0          67
               2015                                            67                 0              0          67
               2016                                            67                 0              0          67
               After 5 Years                               15,150                 0              0      15,150
      Total Future Lease Payments Due               $      15,485 $               0 $            0 $    15,485




Note 26.	Restatements
Not Applicable.
88          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



FY 2011 Required Supplementary Stewardship
       Information
The following summarizes nonfederal physical property. Investments in non-federal physical property refers to those expenses incurred
by the Army for the purchase, construction, or major renovation of physical property owned by state and local governments, including
major additions, alterations, and replacements; the purchase of major equipment; and the purchase of improvement to other physical
assets. A schedule of estimated investments value of state-owned properties that are used by the federal government is shown below.

Nonfederal Physical Property: Yearly Investments in State and Local Governments for
Fiscal Years FY 2007 through FY 2011
                                                       (Amounts in millions)
                                 (a)                         (b)          (c)          (d)          (e)          (f)

                             Categories                   FY 2011      FY 2010      FY 2009      FY 2008      FY 2007

               Transferred Assets:

               1. National Defense Mission Related            $31.5       $22.2        $26.7        $34.2        $23.0

               Funded Assets:
               2. National Defense Mission Related                 0            0            0            0            0

               Totals                                         $31.5       $22.2        $26.7        $34.2        $23.0


The Army GF incurs investments in nonfederal physical property for the purchase, construction, or major renovation of physical
property owned by state and local governments, including major additions, alterations, and replacements, the purchase of major
equipment, and the purchase or improvement of other nonfederal assets. In addition, nonfederal physical property investments
include federally-owned physical property transferred to state and local governments.

Investment values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are used because
current department accounting systems are unable to capture and summarize costs in accordance with federal accounting standards.

The following summarizes basic research, applied research, and development investments and provides examples of each.
                                                                                              Army General Fund                         89
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Yearly Investments in Research and Development for Fiscal Years FY 2007 through
FY 2011
                                                         (Amounts in millions)
                              (a)                                     (b)            (c)            (d)            (e)            (f)

                          Categories                               FY 2011        FY 2010        FY 2009        FY 2008        FY 2007

 Basic Research                                                       $414.4        $405.5         $392.7          $345.9         $348.9

 Applied Research                                                      261.1         728.3         1,191.1         1,147.4        1,115.2

 Development

     Advanced Technology Development                                   380.4          941.0        1,341.8        1,336.5         1,576.2

     Advanced Component Development and Prototypes                     221.9          781.3        1,023.8          719.8          585.3

     Systems Development and Demonstration                             475.4        1,913.7        4,883.9        4,981.4         5,026.1
     Research, Development, Test and Evaluation
                                                                       206.9         726.3         1,387.1         1,317.1       1,336.7
     Management Support
     Operational Systems Development                                   142.7         690.2         1,700.9        1,459.2        1,380.5

 Totals                                                             $2,102.8      $6,186.3      $11,921.4       $11,307.3      $11,368.9



Narrative Statement
Investment values included in this report are based on R&D outlays (expenditures). Outlays are used because current department
accounting systems are unable to capture and summarize costs in accordance with federal accounting standards. Research and
development programs are classified in the following categories: basic research, applied research, and development. The definition for
each type of R&D category and subcategories is explained below.

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and observable
facts without specific applications, processes, or products in mind. Basic research involves the gathering of a fuller knowledge or
understanding of the subject under study. Major outputs are scientific studies and research papers.

The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes to the
sustainment of Army scientific and technological superiority in land warfighting capability; provides new concepts and technologies
for the Army’s future force; and provides the means to exploit scientific breakthroughs and avoid technological surprises. It fosters
innovation in Army niche areas (such as lightweight armor, energetic materials, night vision) and when the commercial incentive to
invest is lacking due to limited markets, e.g., vaccines for tropical diseases. It also focuses universal single investigators on research
areas of Army interest, such as high-density compact power and novel sensor phenomenologies. The in-house portion of the program
capitalizes on the Army’s scientific talent and specialized facilities to expeditiously transition knowledge and technology into the
appropriate developmental activities. The extramural program leverages the research efforts of other government agencies, academia,
and industry. This translates to a coherent, well-integrated program which is executed by four primary contributors: (1) the Army
Research, Development, and Engineering Command; (2) the U.S. Army Engineer Research and Development Center; (3) the Army
Medical Research and Materiel Command laboratories; and, (4) the Army Research Institute for Behavioral and Social Sciences. The
basic research program is coordinated with the other services via Defense Science and Technology Reliance (Defense Basic Research
Advisory Group) and other inter-service working groups. This program responds to the scientific and technological requirements of
the DoD Basic Research Plan by enabling technologies that can significantly improve joint war-fighting capabilities. The projects in
this program involve basic research efforts directed toward providing fundamental knowledge that will contribute to the solution of
military problems related to long-term national security needs.
90          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this program
directly supports future force requirements by providing research that supports enabling technologies for future force capabilities.
Broadly, the work in this project falls into three categories: collaborative technology alliances (CTAs), university COEs, and paradigm-
shifting centers, university-affiliated research centers (UARCs). The Army has formed CTAs to leverage large investments by the
commercial sector in basic research areas that are of great interest to the Army. The CTAs involve partnerships among industry,
academia, and the Army Research Laboratory (ARL) to incorporate the practicality of industry; the expansion of the boundaries of
knowledge from universities; and the ability of Army scientists to shape, mature and transition technology. The CTAs have been
competitively established in the areas of advanced sensors, advanced decision architecture, communications and networks, power
and energy, and robotics. This program element includes the Army’s COE, which focus on expanding the frontiers of knowledge
in research areas where the Army has enduring needs, such as rotorcraft, automotive, microelectronics, materials, and information
sciences. The COEs couple state-of-the-art research programs at academic institutions with broad-based graduate education programs
to increase the supply of scientists and engineers in information sciences, materials science, electronics, automotive, and rotary-
wing technology. Also included is eCYBERMISSION, the Army’s national, web-based competition to stimulate interest in science,
math, and technology among middle and high school students. This program also includes the four Army UARCs, which have been
created to exploit opportunities to advance new capabilities through a sustained long-term, multi-disciplinary effort. The Institute of
Advanced Technology funds basic research in electromagnetics and hypervelocity physics. The Institute for Soldier Nanotechnologies
(ISN) focuses on Soldier protection by emphasizing revolutionary materials research for advanced Soldier protection and survivability.
The Institute for Collaborative Biotechnologies, focusing on enabling network-centrictechnologies, will broaden the Army’s use
of biotechnology for the development of bio-inspired materials, sensors, and information processing. The Institute for Creative
Technologies is a partnership with academia and the entertainment and gaming industries to leverage innovative research and concepts
for training and simulation.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by which a
recognized and specific need may be met. It is the practical application of such knowledge or understanding for the purpose of meeting
a recognized need. This research points toward specific military needs with a view toward developing and evaluating the feasibility and
practicability of proposed solutions and determining their parameters. Major outputs are scientific studies, investigations, research
papers, hardware components, software codes, and limited construction of, or part of, a weapon system to include non-system specific
development efforts.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor and
armaments that will significantly enhance the survivability and lethality of future force systems and, when feasible, can be exploited to
enhance the current force. This program builds on materials research transitioned from the Defense Research Sciences Materials and
Mechanics project and applies it to specific Army platforms and the individual Soldier. This program is directed toward developing
materials technology that contributes to making heavy forces lighter and more deployable and light forces more lethal and survivable.
The program provides the technology base required for solving materials-related problems in individual Soldier support equipment,
armor, armaments, aircraft, ground and combat vehicles, and combat support. This program also funds collaborative research efforts in
nanomaterials technology among the ARL, the ISN at the Massachusetts Institute of Technology, and the ISN industry partners. The
effort is focused specifically on the improvement in individual Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and applies combat vehicle
and automotive component technologies that enhance survivability, mobility, sustainability, and maintainability of Army ground
combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and tactical vehicles are more often exposed to
combat conditions, one of the greatest technological and operational challenges is providing adequate crew protection without reliance
on heavy, passive armor. This challenge will be met using a layered approach, including long-range situational awareness, advanced
lightweight opaque and transparent armors, active protection systems, and multi-spectral signature reduction. Another focus of the
program is on designing, fabricating, and evaluating performance of integrated and add-on lightweight armor packages needed to
provide lightweight combat vehicles protection against chemical energy and kinetic energy threats with less than one-fourth the weight
of conventional heavy armor. The program also designs, fabricates, and evaluates structural and add-on armors for tactical vehicles.
This program funds the National Automotive Center (NAC). The goal of the NAC is to leverage large, commercial investments
in automotive technology, research, and development by pursuing automotive-oriented technology programs that have potential
benefit to military ground vehicles. The research and investigation of a variety of enabling technologies in the areas of hybrid electric
propulsion, mobility, thermal management, intelligent systems, vehicle diagnostics, fuels/lubricants, and water purification is also part
                                                                                             Army General Fund                        91
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


of the program function. Future force vehicles and new tactical vehicles are being designed with hybrid electric architectures, advanced
high-power density engines, and auxiliary power units that provide power for propulsion, control systems, communications, life
support systems, electromagnetic armor, Soldier battery charging, and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technological
feasibility, assessment of operability, and production capability. Development is comprised of the five stages defined below.

    ■■ Advanced Technology Development is the systematic use of the knowledge or understanding gained from research directed
       toward proof of technological feasibility and assessment of operations and productibility rather than the development of
       hardware for service use. I t employs demonstration activities intended to prove or test a technology or method.

    ■■ Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic an
       operating environment as possible to assess the performance or cost reduction potential of advanced technology. Programs
       in this phase are generally system specific. Major outputs of ACD&P are hardware and software components, or complete
       weapon systems ready for operational and developmental testing and field use.

    ■■ System Development and Demonstration concludes the program or project and prepares it for production. It consists
       primarily of pre-production efforts, such as logistics and repair studies. Major outputs are weapons systems finalized for
       complete operational and developmental testing.

    ■■ Research, Development, Test & Evaluation Management Support is support for installations and operations for
       general R&D use. This category includes costs associated with test ranges, military construction maintenance support for
       laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the R&D program.

    ■■ Operational Systems Development is concerned with development projects in support of programs or upgrades still in
       engineering and manufacturing development, which have received approval for production, and for which production funds
       have been budgeted in subsequent fiscal years.

The following are five representative program examples of development:

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide the Army’s future force enabling
technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all environments, and,
when feasible, to exploit opportunities to enhance current force capabilities. Technologies will be matured and demonstrated to
address this challenge with distributed, mobile, secure, self-organizing communications networks. A key objective is to demonstrate
seamlessly integrated communications technologies across all network tiers, ranging from unattended networks and sensors
through maneuver elements and airborne/space assets. To accomplish the goal, this program will investigate and leverage external
communication technologies and combine technology options in a series of command, control, communications, and computers
intelligence, surveillance, and reconnaissance on-the-move experiments to measure the battlefield effectiveness for the future force.
This program also provides (1)protection technologies for tactical wireless networks against modern network attacks; (2) smart
communication technologies to network and control unmanned systems anywhere on the battlefield, enabling timely sensor-decider-
engagement linkage to defeat critical targets; (3) advanced antenna technologies for greater communications mobility, range, and
throughput; and, (4) automated network management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation support of tactical
programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew Integrated Systems. This program
demonstrates the feasibility and maturity of new technology and gains understanding in order to evaluate utility of this technology
to expedite delivery of new capabilities for Army aviation rotary-wing assets. Additionally, the aviation ground support equipment
assets enhance the functionality of current and future aircraft by (1) improving the effectiveness of maintenance and servicing
operations through validating new maintenance concepts to improve man and machine interfaces; (2) improving aircraft maintenance
processes; (3) reducing operation and support costs; , and, (4) inserting diagnostics technologies to replace obsolete and unsupportable
equipment.

Patriot/Medium Extended Air Defense System Combined Aggregate Program (CAP) (PE 0604869A): The Medium Extended
Air Defense System (MEADS) program is a tri-national, co-development program among the United States, Germany, and Italy to
replace the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and NikeHercules systems in Italy. The North
Atlantic Treaty Organization (NATO) MEADS Management Agency (NAMEADSMA) is the NATO contracting authority managing
92          Army General Fund
      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


the system acquisition, and providing management of the MEADS program on behalf of its participating nations. Within the Patriot/
MEADS CAP, there are two synergistic efforts: (1) an international MEADS development effort managed by NAMEADSMA; and,
(2) a U.S. effort to inject U.S.-specific capability requirements into the MEADS major end items. The MEADS will provide joint and
coalition forces with critical asset and defended area protection against multiple and simultaneous attacks by short- to medium-range
ballistic missiles, cruise missiles, unmanned aerial vehicles and tactical air-to-surface missiles. The Missile Segment Enhancement
(MSE) missile has been accepted as the baseline missile for MEADS. It is being developed for the Patriot system to meet U.S.
operational requirements. The MSE will provide a more agile and lethal interceptor that increases the engagement envelope/defended
area of the Patriot and the MEADS systems. The PAC-3 MSE improves upon the current PAC-3 missile capability by providing a
higher performance solid rocket motor, modified lethality enhancer, more responsive control surfaces, upgraded guidance software, and
insensitive munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly-testing field
systems and equipment needed in support of the Global War on Terrorism, such as individual Soldier protection equipment and
countermeasures for IEDs and up-armoring the Army’s wheeled vehicle fleet. This project sustains the developmental test and
evaluation capability required to support Army as well as joint service or other service systems’ hardware and technologies. Unclassified
systems scheduled for developmental testing encompass the entire spectrum of weapons systems. Capabilities are also required to
support system-of-systems and network-centric systems to include future combat system testing.

This project provides the institutional funding required to operate the developmental test activities required by DoD program executive
officers, program and product managers, and research, development, and engineering centers. This project resources four DoD major
range and test facility bases: White Sands Missile Range, New Mexico; Aberdeen Test Center, Maryland; Electronic Proving Ground,
Arizona; and Yuma Proving Ground, Arizona, which includes management of natural environmental testing at Cold Regions Test
Center, Fort Greely and Fort Wainwright, Alaska, and the Tropic Regions Test Center at various locations. This project also funds the
Army’s developmental test capability at Aviation Technical Test Center and Redstone Technical Test Center, both in Alabama. Test
planning and safety verification at Headquarters, U.S. Army Developmental Test Command, Maryland, is also supported by this
program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program develops information
systems security (ISS) equipment and techniques required to combat threat signal intelligence capabilities and to ensure the integrity
of data networks. The Army’s Research, Development, Test, and Evaluation ISS program objective is to implement National Security
Agency -developed security technology in Army information systems. Communications security equipment technology ensures total
signal and data security for all Army information systems to include any operational enhancement and specialized configurations.

National Defense Property, Plant, and Equipment: The Federal Accounting Standards Advisory Board revised the Statement of
Federal Financial Accounting Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National
Defense Property, Plant and Equipment/ND PP&E) for Fiscal Year 2003 and beyond, and encouraged early implementation.
                                                                                              Army General Fund                     93
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



FY 2011 Required Supplementary Information
(RSI)
General Property, Plant, and Equipment Real Property Deferred Maintenance Amounts
for Fiscal Year Ended September 30, 2011
                                                         (Amounts in millions)
                                                                        Current Fiscal Year
                                                 Plant                    Required Work
                     Property Type                                                                    Percentage
                                           Replacement Value          (deferred maintenance)
                             Category 1               $242,688                         $31,792                    13%

                             Category 2                 $17,241                         $5,235                    30%

                             Category 3                 $10,137                               $0                    0%


Narrative Statement
In accordance with DoD Financial Management Regulation 7000.14-R (updates through October 2011), Volume 6B, Chapter 12,
Paragraph 120303. B.1., the Army’s deferred maintenance estimates for FY 2011 include all facilities in which DoD has ownership
interest under the control of the Army. Previous deferred maintenance estimates did not include nonArmy assets.

The deferred maintenance estimates are based on the facility Q-ratings reported in ISR 4th Quarter, FY 2011 or Q-ratings obtained
by application of business rules described below. For FY 2011, the Q-rating values range from 0 to 100. Deferred maintenance is
calculated as follows:

Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value (PRV).

Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities, and by business rule for the remaining
facilities. During ISR data collection, facility occupants evaluate the condition of each facility against published standards. The
inspection generates a quality improvement cost estimate for each facility based on the condition rating of each component of the
facility, and the component improvement cost factor. Improvement cost factors are developed using industry standards for each facility
component within each facility type. The business rule assignment of Q-ratings is as follows: 95 if the facility is no more than 5 years
old; 85 if the facility is permanent or semi-permanent construction and between 5 and 15 years old; 70 if the facility is permanent or
semi-permanent construction and more than 15 years old; 40 if the facility is temporary construction and more than 5 years old; 95
if the asset is a lease. For assets with a Nonfunctional operational status, assigned Q-ratings are 95 if the reason code is RENO, 70 if
the reason code is ENVR, and 40 if the reason code is DAMG. Acceptable operating condition represents facilities with no deferred
maintenance.

Facilities with an ownership interest of “FEE” are included in the data set.

Property Categories are as follows:

    ■■ Category 1: Buildings, Structures, and Utilities that are enduring and required to support an ongoing mission including
       multi-use Heritage Assets. (Facilities with an Operational Status of “Active” or “Semi-Active” are included, less those with a
       disposal code.)

    ■■ Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for replacement or disposal
       including multi-use Heritage Assets. (Facilities with an Operational Status of “Caretaker”, “Disposed, “Excess”, “Non-
       Functional”, “Outgrant”, and “Surplus” plus “Active” and “Semi-active” with disposal codes.)

    ■■ Category 3: Buildings, Structures, and Utilities that are Heritage Assets – these have an operational status of closed and are
       not maintained. (Facilities with an Operational Status of “Closed” as well as a historical status that is not blank.)
94          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Military Equipment Deferred Maintenance for Fiscal Year Ended September 30, 2011
                                                        (Amounts in thousands)
                          Major Categories 
                          Aircraft                                                                  $ 161,931
                          Automotive Equipment                                                        102,618
                          Combat Vehicles                                                             149,506
                          Construction Equipment                                                       29,324
                          Electronics and Communications Systems                                      228,577
                          General Purpose Equipment                                                    64,910
                          Missiles                                                                     18,130
                          Ordnance Weapons and Munitions                                               40,967
                          Other                                                                        37,176
                          Ships                                                                         1,140
                          Grand Total                                                                $834,279


The OP-30 from the FY 2011 President’s budget was used to compile the deferred depot level maintenance.

Depot Maintenance Operations and Planning System is the automated system for capturing depot-level deferred maintenance data.
The data is for SAG 123, all active components.

For the POM13-17 requirements build, the depot maintenance program supports the Army’s most critical modernization and
equipping strategies by sustaining the availability and reliability of fielded systems. This program ensures that Soldiers have the
equipment they need to execute their assigned mission as they progress through the Army Force Generation (ARFORGEN) cycle.

The depot maintenance requirements continue to grow while the Army continues to get fewer resources with reduced budgets. The
FY 2013 budget request for depot maintenance continues an effort begun in FY 2010 of Army justifying resources to support increased
home station dwell time and training. This is because the Army is drawing down forces and equipment from theater. The changing
ratio of deployed to non-deployed force structure and the sustainment of enduring requirements are the drivers behind the need
for increased resourcing in Army’s base depot maintenance budget. The POM 13-17 provides sufficient resources for Army forces
transitioning from operations in theater to home station training with prudent risks.

Depot Maintenance faces three challenges during this transition. First, the Army will have a larger number of forces at home station
with a longer dwell time. These forces will demand greater equipment availability to train and prepare for Full Spectrum Operations
(FSO). To execute FSO, the Army must resource depot-level maintenance for that equipment for training. Second, the Army has
generated a force where many of its capabilities are dependent upon digital technology which has resulted in an increase in Post
Production Software Support (PPSS) requirements. Consequently, the Army’s depot maintenance enterprise has experienced a
paradigm shift because of the maintenance required for these technologies. The third challenge is the resourcing of PPSS. Over
the course of the last decade, this growing presence of digital technology and its PPSS was heavily funded by Overseas Contingency
Operations (OCO) dollars. With limited resources, the Army has to take risks in depot maintenance and has to balance requirements
with available resources. The Army has to identify critical PPSS requirements and prioritize those that require funding across the
FYDP to meet ARFORGEN and unit readiness requirements. In addition, the Army will rely on available OCO to ensure all critical
shortfalls including deferred maintenance are met.

Heritage Assets and Stewardship Land Condition Information for Fiscal Year Ended
September 30, 2011
The conditions of archeological sites across the Army remain varied from poor to excellent based on a number of factors including the
environmental setting, the type of site, and the impact of Army activities from Army activities. If an Army activity has the potential
to adversely impact an archeological site eligible for the National Register of Historic Places, the installation’s Installation Cultural
Resource Management Plan (ICRMP) contains provisions for how the installation would proceed to mitigate those impacts. The
ICRMP is the plan that installations use to manage their cultural resources including archeological sites in compliance with federal
requirements. These plans provide for site protection, site conditions monitoring, and mitigation procedures for adverse impacts to
sites. Overall, the conditions of sites on Army installations are fair, based on the Army’s cultural resource management procedures.
                                                                                                      Army General Fund                            95
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



                                                                 INSPECTOR GENERAL
                                                              DEPARTMENT OF DEFENSE
                                                                400 ARMY NAVY DRIVE
                                                           ARLINGTON, VIRGINIA 22202-4704



                                                                                                                              November 8, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: 	Independent Auditor’s Report on the Army General Fund FY 2011 and FY 2010 Basic Financial Statements
	         (Report No. DODIG-2012-012)



The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army General Fund Consolidated Balance Sheet as of September 30, 2011 and 2010, and the Consolidated Statement
of Net Cost, Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and related notes
for the fiscal years then ended. The financial statements are the responsibility of Army management. Army management is also
responsible for implementing effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Army General Fund FY 2011 and FY 2010 Basic Financial Statements because of
limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer of opinion
on the financial statements, we are including the required Report on Internal Control and Compliance With Laws and Regulations
(Report). The Report is an integral part of our disclaimer of opinion on the financial statements and should be considered in assessing
the results of our work.

Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army General Fund FY 2011 and
FY 2010 Basic Financial Statements do not substantially conform to accounting principles generally accepted in the United States of
America (U.S. GAAP) and that Army financial management and feeder systems were unable to adequately support material amounts
on the financial statements as of September 30, 2011. Section 1008(d) of the FY 2002 National Defense Authorization Act limits
the Department of Defense Inspector General to performing only those audit procedures required by generally accepted government
auditing standards that are consistent with the representations made by management. Accordingly, we did not perform auditing
procedures required by U.S. Government Accountability Office, “Government Auditing Standards,” and Office of Management
and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” as amended,* to determine whether
material amounts on the financial statements were presented fairly.

Prior audits have identified, and the Army General Fund management has acknowledged, the long-standing material internal control
weaknesses identified in the Summary of Internal Control. These pervasive material weaknesses may affect the reliability of certain
information contained in the Basic Financial Statements. Therefore, we are unable to express, and we do not express, an opinion on
the Basic Financial Statements. Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion
and Analysis, Required Supplementary Stewardship Information, Required Supplementary Information, or Other Accompanying
Information presented with the Basic Financial Statements. Accordingly, we express no opinion on that information.




*	 OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” September 23, 2009.
96          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Summary of Internal Control
In planning our work, we considered the Army internal control over financial reporting and compliance with applicable laws and
regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB guidance, but
our purpose was not to express an opinion on internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and compliance with applicable laws and
regulations. However, previously identified significant deficiencies, all of which are material, continued to exist in the following areas:

     ■■ Financial Management Systems

     ■■ Fund Balance with Treasury

     ■■ Accounts Receivable

     ■■ Inventory

     ■■ General Property, Plant, and Equipment

     ■■ Accounts Payable

     ■■ Environmental Liabilities

     ■■ Statement of Net Cost

     ■■ Statement of Budgetary Resources

     ■■ Intragovernmental Eliminations

     ■■ Accounting Adjustments

     ■■ Abnormal Account Balances

     ■■ Reconciliation of Net Cost of Operations to Budget

     ■■ Contingency Payment Audit Trails

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a reasonable possibility
that a material misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
A significant deficiency is a deficiency or a combination of deficiencies, in internal control, that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance. The previously identified significant deficiency, Legal
Representation Process, continues to exist.

Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant deficiencies. The
Attachment offers additional details on significant deficiencies, most of which we consider to be material internal control weaknesses.

The Army reported the above material weaknesses in its FY 2011 Statement of Assurance.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations related to financial
reporting because management acknowledged that instances of noncompliance identified in prior audits continued to exist. The
Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army General Fund financial management
systems do not substantially comply with Federal financial management system requirements, U.S. GAAP, and the U.S. Government
Standard General Ledger at the transaction level. Therefore, we did not determine whether Army General Fund management complied
with all applicable laws and regulations related to financial reporting. Providing an opinion on compliance with certain provisions of
laws and regulations was not an objective of our audit, and accordingly, we do not express such an opinion. See the Attachment for
additional details on compliance with laws and regulations.
                                                                                           Army General Fund                       97
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Management’s Responsibilities
Management is responsible for:

    ■■ preparing the financial statements in conformity with U.S. GAAP;

    ■■ establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of
       the Federal Managers’ Financial Integrity Act are met; and

    ■■ complying with applicable laws and regulations.

We provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial Operations) who provided technical
comments that we have incorporated as appropriate.




                                                                          Patricia A. Marsh, CPA
                                                                          Assistant Inspector General
                                                                          Financial Management and Reporting

Attachment:
As stated
98      Army General Fund
     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                              Army General Fund                        99
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


                                 Report on Internal Control and
                              Compliance With Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable assurance that
accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws and regulations are met; and
that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal
control over financial reporting. However, we have identified the following material weaknesses and significant deficiency, which could
adversely affect the Army General Fund financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified significant deficiencies, all of which are material, continued to exist in the
following areas.

Financial Management Systems
Army accounting systems lacked a single, standard transaction-driven general ledger. The Army also needed to upgrade or replace
many of its nonfinancial feeder systems so it could meet financial statement reporting requirements. The lack of a single, standard
transaction-driven general ledger will continue to prevent the Army from preparing auditable financial statements.

The General Fund Enterprise Business System (GFEBS), intended to correct existing problems and improve current processes in Army
financial systems, has been deployed to over 154 organizations as of September 30, 2011. The Army plans to complete the deployment
of GFEBS to all remaining organizations by July 2012.

Fund Balance With Treasury
DoD and its Components, including the Army, have had long-standing problems in reconciling transaction activity in their Fund
Balance with Treasury accounts. The appropriation balances recorded in the accounting records do not agree with the balances held at
Treasury. As of September 30, 2011, the Treasury reported $2.8 billion more in Fund Balance with Treasury than reported by the Army
General Fund.

Accounts Receivable
The Army has acknowledged weaknesses in its management of accounts receivable. The weaknesses are considered to be DoD-wide and
apply to both public and intragovernmental receivables at the Army General Fund level. The Army’s accounts receivable has weaknesses
that include:

    ■■ noncompliance with policies and procedures on referrals to the Department of the

    ■■ Treasury’s Debt Management Office and on write-offs of 2-year-old debt;

    ■■ a lack of controls to ensure that all entitlement system receivables (vendor pay, civilian pay, and interest) are recorded in the
       accounting systems; and

    ■■ a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.

Inventory
Inventories are valued and reported at approximate historical cost using the latest acquisition cost, adjusted for holding gains and losses.
The systems do not maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting Standards
No. 3, “Accounting for Inventory and Related Property.” The systems also are unable to produce financial transactions using the U.S.
Government Standard General Ledger. Statement No. 3 states that Operating Materials and Supplies must be expensed when the items
are consumed. However, significant amounts of Operating Materials and Supplies were expensed when they were purchased instead of
when they were consumed.
100         Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant, and Equipment,” requires that all
General Property, Plant, and Equipment be recorded at cost and that depreciation expense be recognized on all General Property,
Plant, and Equipment. The Army has acknowledged that real property and military equipment were not recorded at acquisition or
historical cost and did not include all the costs needed to bring these assets to a form and location suitable for their intended use. The
Army could not support the reported cost of Military Equipment in accordance with Statement No. 6. Also, the Army lacks financial
accountability systems for all its Military Table of Equipment unit property books that comply with the Federal Financial Management
Improvement Act of 1996.

Accounts Payable
The Army is unable to account for and report Accounts Payable properly. In addition, the Army accounting systems do not capture
trading partner data at the transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. Therefore,
the Army has acknowledged that it was unable to reconcile Intragovernmental accounts payable to the related Intragovernmental
accounts receivable that generated the payable.

Environmental Liabilities
The Army has not properly estimated and reported its environmental liabilities. For example, the processes used to report
environmental liabilities for the Defense Environmental Restoration Program, Base Realignment and Closure, and the non-Defense
Environmental Restoration Program on the financial statements were not adequate to establish or maintain sufficient documentation
and audit trails. Although estimators were properly qualified to perform estimates, the Army did not document supervisory reviews of
estimates and did not have adequate quality control programs in place to ensure the reliability of data.

Statement of Net Cost
The financial information contained in the Statement of Net Cost is not presented by programs that align with major goals and outputs
described in the DoD strategic and performance plans required by the Government Performance and Results Act of 1993 (GPRA).
Because financial processes and systems do not correlate costs with performance measures, revenues and expenses are reported by
appropriation categories. The amounts presented in the Statement of Net Cost are based on funding, obligation, and disbursing
transactions, which are not always recorded using accrual accounting. Also, the Army systems do not always record the transactions
on an accrual basis as required by U.S. GAAP. To capture all cost and financing sources for the Army, the information presented also
includes data from the nonfinancial feeder systems. In addition, the Army General Fund budgetary and proprietary information does
not correlate.

Statement of Budgetary Resources
The Army accounting systems do not provide or capture the data needed for obligations incurred or prior-year obligations recovered
in accordance with OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget Requirements.” Although the
Army developed an alternative methodology to calculate these items, the amount of distortion cannot be reliably determined. The
information presented in the Army General Fund’s Statement of Budgetary Resources does not completely agree with the information
submitted in the year-end “Reports on Budget Execution and Budgetary Resources” (SFs-133).

Intragovernmental Eliminations
DoD is unable to collect, exchange, and reconcile buyer and seller Intragovernmental transactions, resulting in adjustments that cannot
be verified. This is primarily because the majority of the systems within DoD do not allow the capture of buyer-side information
for use in reconciliations and eliminations. The DoD and Army accounting systems were unable to capture trading partner data
at the transaction level to facilitate required trading partner eliminations, and DoD guidance did not require adequate support for
eliminations. In addition, DoD procedures required that buyer side transaction data be forced to agree with seller-side transaction data
without performing proper reconciliations.

Accounting Adjustments
Because of inadequate financial management systems and processes, journal voucher adjustments and data calls were used to prepare
the Army General Fund financial statements. For the FY 2011 year-end, DFAS did not adequately support $14.6 billion in journal
voucher adjustments used to prepare the Army General Fund financial statements.
                                                                                            Army General Fund 101
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Abnormal Account Balances
DFAS did not detect, report, or take action to eliminate the abnormal balances included in the Army General Fund accounting
records. Abnormal balances not only distort the Army General Fund financial statements, but also indicate internal control and
operational deficiencies and may conceal instances of fraud.

Reconciliation of Net Cost of Operations to Budget
The Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” requires a reconciliation of proprietary and budgetary information to assist users
in understanding the relationship of the data. During FY 2007, OMB rescinded the requirement to report this reconciliation as a
Statement of Financing and now requires the disclosure of the information as a note to the financial statements. The Army is unable to
represent accurately the relationship between its budgetary obligations incurred and its Statement of Net Cost.

Contingency Payment Audit Trails
The Army acknowledged that the maintenance of substantiating documents by certifying and entitlement activities creates significant
challenges in tracing audit trails for support of financial statements. DoD Office of Inspector General Report No. D-2008-098,
“Internal Controls Over Payments Made in Iraq, Kuwait, and Egypt,” May 22, 2008, determined that the Army made $1.4 billion in
commercial payments that lacked the minimum supporting documentation and information for a valid payment (minimum support
would include such documents as certified vouchers, proper receiving reports, and invoices). In addition, the Army estimated that
$6.3 billion of commercial payments contained the minimum supporting documentation but did not comply with other statutory and
regulatory requirements. Payments that are not properly supported do not provide the necessary assurance that funds were used as
intended.

DoD Office of Inspector General Report No. D-2011-101, “Controls over Army Deployable Disbursing System Payments Need
Improvement,” August 17, 2011, further supports the conclusion that payment audit trails continue to be a weakness. Specifically,
the Deployable Disbursing System did not maintain accurate lines of accounting information, accurate payment method information,
or complete fundamental payment information, such as invoice line item information, contract or requisition numbers, and invoice
numbers. Without accurate and complete data, DoD cannot maintain complete and documented audit trails, and DoD is at increased
risk for improper payments.

Previously Identified Significant Deficiency
The following significant deficiency continued to exist.

Legal Representation Process
The Army legal representation process did not provide meaningful assessments of potential liabilities and was not linked to the Army
process for reporting and disclosing contingent legal liabilities on the financial statements. This financial management deficiency may
cause inaccurate management information. As a result, the Army General Fund management decisions based in whole or in part on
this information may be adversely affected. Financial information reported by DoD may also contain misstatements resulting from
this deficiency.

These financial management deficiencies may cause inaccurate management information. As a result, Army management decisions
based in whole or in part on this information may be adversely affected. Financial information reported by DoD may also contain
misstatements resulting from these deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited our work to
determining compliance with selected provisions of the applicable laws and regulations because management acknowledged instances
of noncompliance, and previously reported instances of noncompliance continued to exist. Therefore, we did not determine whether
Army General Fund complied with selected provisions of all applicable laws and regulations related to financial reporting. Our
objective was not to, and we do not, express an opinion on overall compliance with applicable laws and regulations.
102          Army General Fund
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain financial management systems
that comply substantially with Federal financial management system requirements, applicable Federal accounting standards, and
the U.S. Government Standard General Ledger at the transaction level. For FY 2011, Army General Fund management did not
fully comply with the Federal Financial Management Improvement Act of 1996. Army General Fund management acknowledged
that many of its critical financial management and feeder systems did not substantially comply with Federal financial management
systems requirements, Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level as of
September 30, 2011.

Government Performance and Results Act of 1993
Congress enacted GPRA to establish strategic planning and performance measurement in the Federal Government. Strategic plans,
annual performance plans, and annual program performance reports are the main elements of GPRA. The financial information
contained in the Statement of Net Cost is not presented by programs that align with major goals and outputs described in the DoD
strategic and performance plans required by GPRA. Because financial processes and systems do not correlate costs with performance
measures, revenues and expenses are reported by appropriation categories. The Army did not comply with GPRA because it did not
have cost accounting systems in place to collect, process, and report operating costs. This resulted in the Army being unable to present
cost-of-operations data on the Army General Fund Statement of Net Cost that were consistent with the GPRA goals and measures.

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Army General Fund and its agents to making or
authorizing only expenditures or obligations that do not exceed the available appropriations or funds. Additionally, the Army General
Fund or its agents may not contract or obligate for the payment of money before an appropriation is made available for that contract
or obligation unless otherwise authorized by law. According to 31 U.S.C. § 1351 (2004), if an officer or employee of an executive
agency violates the Antideficiency Act (ADA), the head of the agency must report immediately to the President and Congress all
relevant facts and a statement of actions taken. During FY 2011, the Army reported seven cases of violation of the ADA. Therefore,
the Army did not comply with 31 U.S.C. §§ 1341 (1990), 1351 (2004), and 1517 (2004).

DoD internal guidance limits the time from identification to reporting of ADA violations to 12 months.* Our review of the Army’s
ADA violations reported in FY 2011 showed that the Army did not process the seven ADA violation cases within 12 months.
Additionally, two investigations of potential ADA violations have been open for more than 12 months. DoD internal guidance also
states that preliminary reviews of potential violations should be reviewed within three months of initial discovery. The Army has not
processed 22 of 30 violations within three months.

Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on May 2, 2011, that the Army General Fund
financial management and feeder systems could not provide adequate evidence supporting various material amounts on the financial
statements and that previously identified material weaknesses continued to exist. Therefore, we did not perform detailed testing related
to previously identified material weaknesses. In addition, we did not perform audit work related to the following selected provisions
of laws and regulations: Federal Credit Reform Act of 1990, Pay and Allowance System for Civilian Employees, Prompt Payment
Act, Improper Payments Information Act, and Provisions Governing Claims of the United States (including provisions of the Debt
Collection Improvement Act of 1996).

This report does not include recommendations to correct the material internal control weaknesses and instances of noncompliance
with laws and regulations because previous audit reports contained recommendations for corrective actions or because audit projects
currently in progress will include appropriate recommendations.




*	 DoD Financial Management Regulation, Volume 14, Chapter 7, “Antideficiency Act Report,” November 2010, extended the time limit from 12 months to
   15 months.
                                                                               Army Working Capital Fund 103
                                                Principal Financial Statements, Notes, and Auditor’s Report




                                                      Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant to the
requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed by the
Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign entity.
104         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Department of Defense - Army Working Capital Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2011 and 2010 (Amounts in thousands)                                     2011 Consolidated           2010 Consolidated
ASSETS (Note 2)
    Intragovernmental:
         Fund Balance with Treasury (Note 3)                                             $               1,900,483   $             1,808,081
         Investments (Note 4)                                                                                    0                         0
         Accounts Receivable (Note 5)                                                                      424,667                   317,663
         Other Assets (Note 6)                                                                              22,519                     8,232
         Total Intragovernmental Assets                                                  $               2,347,669   $             2,133,976

    Cash and Other Monetary Assets (Note 7)                                                                     0                          0
    Accounts Receivable, Net (Note 5)                                                                      15,684                     39,193
    Loans Receivable (Note 8)                                                                                   0                          0
    Inventory and Related Property, Net (Note 9)                                                       25,211,515                 22,309,805
    General Property, Plant and Equipment, Net (Note 10)                                                1,564,390                  1,397,840
    Investments (Note 4)                                                                                        0                          0
    Other Assets (Note 6)                                                                                 446,028                    616,116
TOTAL ASSETS                                                                             $             29,585,286    $            26,496,930

LIABILITIES (Note 11)
    Intragovernmental:
         Accounts Payable (Note 12)                                                      $                 125,110   $               103,071
         Debt (Note 13)                                                                                          0                         0
         Other Liabilities (Note 15 & 16)                                                                   85,997                    63,418
         Total Intragovernmental Liabilities                                             $                 211,107   $               166,489

    Accounts Payable (Note 12)                                                                             658,288                   659,167
    Military Retirement and Other Federal Employment Benefits (Note 17)                                    221,632                   219,913
    Environmental and Disposal Liabilities (Note 14)                                                             0                         0
    Loan Guarantee Liability (Note 8)                                                                            0                         0
    Other Liabilities (Note 15 and Note 16)                                                                558,526                   377,082
TOTAL LIABILITIES                                                                        $               1,649,553   $             1,422,651

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
    Unexpended Appropriations - Earmarked Funds (Note 23)                                $                      0    $                     0
    Unexpended Appropriations - Other Funds                                                                     0                          0
    Cumulative Results of Operations - Earmarked Funds                                                          0                          0
    Cumulative Results of Operations - Other Funds                                                     27,935,733                 25,074,279
TOTAL NET POSITION                                                                       $             27,935,733    $            25,074,279

TOTAL LIABILITIES AND NET POSITION                                                       $             29,585,286    $            26,496,930

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                   Army Working Capital Fund 105
                                                    Principal Financial Statements, Notes, and Auditor’s Report


Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2011 and 2010 (Amounts in thousands)                                     2011 Consolidated           2010 Consolidated
Program Costs
Gross Costs                                                                              $             29,629,581    $            29,068,710
     Operations, Readiness & Support                                                     $             29,629,581    $            29,068,710
     (Less: Earned Revenue)                                                                           (33,261,795)               (29,693,624)
     Net Cost before Losses/(Gains) from Actuarial Assumption Changes for Military
     Retirement Benefits                                                                 $             (3,632,214)   $              (624,914)
     Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
     Benefits                                                                                                   0                          0
     Net Program Costs Including Assumption Changes                                      $             (3,632,214)   $              (624,914)
     Costs Not Assigned to Programs                                                      $                      0    $                     0
     (Less: Earned Revenues) Not Attributed to Programs                                                         0                          0
Net Cost of Operations                                                                   $             (3,632,214)   $              (624,914)

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
106        Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                              2011 Earmarked          2011 All Other
As of September 30, 2011 (Amounts in thousands)                   Funds                  Funds             2011 Eliminations   2011 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                           $                0   $      25,074,279        $              0    $    25,074,279
Prior Period Adjustments:
     Changes in accounting principles (+/-)                                   0                   0                       0                  0
     Corrections of errors (+/-)                                              0                   0                       0                  0
Beginning balances, as adjusted                              $                0   $      25,074,279        $              0    $    25,074,279
Budgetary Financing Sources:
     Other adjustments (rescissions, etc.)                   $                0   $                0       $              0    $             0
     Appropriations used                                                      0               54,636                      0             54,636
     Nonexchange revenue                                                      0                    0                      0                  0
     Donations and forfeitures of cash and cash
     equivalents                                                              0                    0                      0                  0
     Transfers-in/out without reimbursement                                   0             (700,000)                     0           (700,000)
     Other budgetary financing sources                                        0                    0                      0                  0
Other Financing Sources:
     Donations and forfeitures of property                                    0                    0                      0                   0
     Transfers-in/out without reimbursement (+/-)                             0             (394,625)                     0            (394,625)
     Imputed financing from costs absorbed by others                          0              208,360                      0             208,360
     Other (+/-)                                                              0               60,869                      0              60,869
Total Financing Sources                                      $                0   $         (770,760)      $              0    $       (770,760)
Net Cost of Operations (+/-)                                                  0           (3,632,214)                     0          (3,632,214)
Net Change                                                   $                0   $        2,861,454       $              0    $      2,861,454
Cumulative Results of Operations                             $                0   $      27,935,733        $              0    $    27,935,733

UNEXPENDED APPROPRIATIONS
Beginning Balances                                           $                0   $                    0   $              0    $              0
Prior Period Adjustments:
     Changes in accounting principles                        $                0   $                    0   $              0    $              0
     Corrections of errors                                                    0                        0                  0                   0
Beginning balances, as adjusted                              $                0   $                    0   $              0    $              0
Budgetary Financing Sources:
     Appropriations received                                 $                0   $           54,636       $              0    $         54,636
     Appropriations transferred-in/out                                        0                    0                      0                   0
     Other adjustments (rescissions, etc)                                     0                    0                      0                   0
     Appropriations used                                                      0              (54,636)                     0             (54,636)
Total Budgetary Financing Sources                            $                0   $                0       $              0    $              0
Unexpended Appropriations                                                     0                    0                      0                   0
Net Position                                                 $                0   $      27,935,733        $              0    $    27,935,733

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                   Army Working Capital Fund 107
                                                    Principal Financial Statements, Notes, and Auditor’s Report


Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                              2010 Earmarked          2010 All Other
As of September 30, 2010 (Amounts in thousands)                   Funds                  Funds           2010 Eliminations   2010 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                           $                0   $      24,263,999     $               0    $    24,263,999
Prior Period Adjustments:
     Changes in accounting principles (+/-)                                   0                   0                     0                  0
     Corrections of errors (+/-)                                              0                   0                     0                  0
Beginning balances, as adjusted                              $                0   $      24,263,999     $               0    $    24,263,999
Budgetary Financing Sources:
     Other adjustments (rescissions, etc.)                   $                0   $                0    $               0    $             0
     Appropriations used                                                      0              490,613                    0            490,613
     Nonexchange revenue                                                      0                    0                    0                  0
     Donations and forfeitures of cash and cash
     equivalents                                                              0                    0                    0                  0
     Transfers-in/out without reimbursement                                   0             (280,280)                   0           (280,280)
     Other budgetary financing sources                                        0                    0                    0                  0
Other Financing Sources:
     Donations and forfeitures of property                                    0                    0                    0                   0
     Transfers-in/out without reimbursement (+/-)                             0           (1,398,190)                   0          (1,398,190)
     Imputed financing from costs absorbed by others                          0              209,352                    0             209,352
     Other (+/-)                                                              0            1,163,871                    0           1,163,871
Total Financing Sources                                      $                0   $          185,366    $               0    $        185,366
Net Cost of Operations (+/-)                                                  0             (626,021)              (1,107)           (624,914)
Net Change                                                   $                0   $          811,387    $           1,107    $        810,280
Cumulative Results of Operations                             $                0   $      25,075,386     $           1,107    $    25,074,279

UNEXPENDED APPROPRIATIONS
Beginning Balances                                           $                0   $          440,722    $               0    $       440,722
Prior Period Adjustments:
     Changes in accounting principles                        $                0   $                0    $               0    $             0
     Corrections of errors                                                    0                    0                    0                  0
Beginning balances, as adjusted                              $                0   $          440,722    $               0    $       440,722
Budgetary Financing Sources:
     Appropriations received                                 $                0   $          50,002     $               0    $        50,002
     Appropriations transferred-in/out                                        0                   0                     0                  0
     Other adjustments (rescissions, etc)                                     0                (111)                    0               (111)
     Appropriations used                                                      0            (490,613)                    0           (490,613)
Total Budgetary Financing Sources                            $                0   $        (440,722)    $               0    $      (440,722)
Unexpended Appropriations                                                     0                   0                     0                  0
Net Position                                                 $                0   $      25,075,386     $           1,107    $    25,074,279

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
108         Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report

Department of Defense - Army Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                             Budgetary Financing Accounts          Non-Budgetary Financing Accounts
As of September 30, 2011 and 2010 (Amounts in thousands)                 2011 Combined         2010 Combined      2011 Combined      2010 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                      $        1,022,350     $      1,822,851      $            0    $             0
Recoveries of prior year unpaid obligations                                   3,183,324            2,870,136                   0                  0
Budget authority
     Appropriation                                                               54,636               50,002                   0                  0
     Borrowing authority                                                              0                    0                   0                  0
     Contract authority                                                       8,598,144           10,090,779                   0                  0
     Spending authority from offsetting collections
         Earned
            Collected                                                       13,764,973            16,305,692                   0                  0
            Change in receivables from Federal sources                          68,361              (128,638)                  0                  0
         Change in unfilled customer orders
            Advance received                                                     (22,443)             10,184                   0                  0
            Without advance from Federal sources                              1,634,322             (375,042)                  0                  0
         Anticipated for rest of year, without advances                                0                   0                   0                  0
         Previously unavailable                                                        0                   0                   0                  0
         Expenditure transfers from trust funds                                        0                   0                   0                  0
     Subtotal                                                        $       24,097,993     $     25,952,977      $            0    $             0
Nonexpenditure transfers, net, anticipated and actual                          (700,000)            (280,280)                  0                  0
Temporarily not available pursuant to Public Law                                       0                   0                   0                  0
Permanently not available                                                   (10,505,233)         (13,082,174)                  0                  0
Total Budgetary Resources                                            $       17,098,434     $     17,283,510      $            0    $             0

Status of Budgetary Resources:
Obligations incurred:
     Direct                                                          $               0      $              0      $            0    $             0
     Reimbursable                                                           14,948,424            16,261,161                   0                  0
     Subtotal                                                        $      14,948,424      $     16,261,161      $            0    $             0
Unobligated balance:
     Apportioned                                                     $       2,150,010      $      1,022,349      $            0    $             0
     Exempt from apportionment                                                       0                     0                   0                  0
     Subtotal                                                        $       2,150,010      $      1,022,349      $            0    $             0
Unobligated balance not available                                                    0                     0                   0                  0
Total status of budgetary resources                                  $      17,098,434      $     17,283,510      $            0    $             0

Change in Obligated Balance:
Obligated balance, net
      Unpaid obligations, brought forward, October 1                 $        9,468,963     $     11,704,936      $            0    $             0
      Less: Uncollected customer payments from Federal sources,
      brought forward, October 1                                              (5,374,558)          (5,878,237)                 0                  0
      Total unpaid obligated balance                                 $         4,094,405    $       5,826,699     $            0    $             0
Obligations incurred net (+/-)                                               14,948,424           16,261,161                   0                  0
Less: Gross outlays                                                         (13,004,763)         (15,626,999)                  0                  0
Obligated balance transferred, net
      Actual transfers, unpaid obligations (+/-)                                      0                     0                  0                  0
      Actual transfers, uncollected customer                                          0                     0                  0                  0
      Total Unpaid obligated balance transferred, net                                 0                     0                  0                  0
Less: Recoveries of prior year unpaid obligations, actual                    (3,183,324)           (2,870,136)                 0                  0
Change in uncollected customer payments from Federal sources
                                                                             (1,702,683)             503,680                   0                  0
(+/-)
Obligated balance, net, end of period
      Unpaid obligations                                             $        8,229,300     $       9,468,962     $            0    $             0
      Less: Uncollected customer payments from Federal sources (-)           (7,077,241)           (5,374,557)                 0                  0
      Total, unpaid obligated balance, net, end of period            $        1,152,059     $       4,094,405     $            0    $             0

Net Outlays:
     Gross outlays                                                   $       13,004,763     $     15,626,999      $            0    $             0
     Less: Offsetting collections                                           (13,742,530)         (16,315,876)                  0                  0
     Less: Distributed Offsetting receipts                                            0                    0                   0                  0
      Net Outlays                                                    $         (737,767)    $        (688,877)    $            0    $             0

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                              Army Working Capital Fund 109
                                               Principal Financial Statements, Notes, and Auditor’s Report



Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army Working Capital
Fund (Army WCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform
Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the Army
WCF in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the
Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation. The accompanying financial statements account
for all resources for which the Army WCF is responsible unless otherwise noted.

The Army WCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. Although the Army WCF
derives most reported values and information for major asset and liability categories from the Logistics Modernization Program
(LMP) system, LMP contains some systems and posting deficiencies related to items such as source-accepted procurements, budgetary
accounts, continuing resolution cash balances, and undeposited collections. In addition, LMP relies on some data from systems
such as entitlement systems and property systems that compromise the ability to fully meet all USGAAP standards. The Army WCF
continues to address additional USGAAP functionality and processes for items such as constructive receipts, funds certification, and
debt management.

The Army WCF currently has ten auditor-identified financial statement material weaknesses: (1) Financial Management Systems;
(2) Inventory; (3) General Property, Plant and Equipment; (4) Accounts Payable; (5) Statement of Net Cost; (6) Intragovernmental
Eliminations; (7) Accounting Adjustments; (8) Reconciliation of Net Cost of Operations to Budget; (9) Abnormal Account Balances
and (10) Statement of Budgetary Resources.

1.B.	 Mission of the Reporting Entity
The Army WCF is part of the Defense Working Capital Fund and is divided into two separate business areas: Supply Management
and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products, repair parts, consumable
supplies, depot maintenance services, munitions, and weapons to support the deployment and projection of lethal force as required by
the nation.

1.C.	 Appropriations and Funds
Working capital funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The WCF resources the
goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future operations
and generally are available in their entirety for use without further congressional action. At various times, the Congress provides
additional appropriations to supplement the WCF as an infusion of cash when revenues are inadequate to cover costs within the
corpus.

The Army WCF receives appropriations and funds as defense working capital (revolving) funds. The Army WCF uses these
appropriations and funds to execute its missions and subsequently report on resource usage.

1.D.	 Basis of Accounting
The Army WCF’s financial management systems are unable to meet all full accrual accounting requirements. Some of the
Army WCF’s financial and nonfinancial feeder systems were designed and implemented prior to the issuance of USGAAP. These
systems were not designed to collect and record financial information on the full accrual accounting basis as required by USGAAP.

The Army WCF financial statements and supporting trial balances are compiled from the underlying financial data and trial balances
of the Army WCF’s sub-entities. The underlying data is partially derived from budgetary transactions (obligations, disbursements,
and collections) reported on status reports and accruals from nonfinancial feeder systems such as the Mechanization of Contract
Administrative Services System, the Defense Payroll System, and from Federal Employees’ Compensation Act (FECA) liabilities.
110         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from business and system processes.
At the consolidated Army WCF level, these abnormal balances may not be evident. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into compliance with
USGAAP. One such action is the current revision of accounting systems to record transactions based on the United States Standard
General Ledger (USSGL). The Army has implemented the Logistics Modernization Program at all of the Army Materiel Command’s
activities except for Non-Army Managed Items (NAMI) and the U.S. Army Medical Materiel Agency (USAMMA). The Medical
Materiel Agency is expected to transition to Operation and Maintenance, Army funding in fiscal year (FY) 2013. A decision on the
disposition of NAMI has not been made as of this date. Until LMP functionality is fully implemented, and all of the Army WCF’s
processes are updated to report financial information as required by USGAAP, some of the Army WCF’s financial data will be derived
from a combination of budgetary transactions, nonfinancial feeder systems, and accruals.

1.E.	 Revenues and Other Financing Sources
The Army WCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply
Management activities recognize revenue when an inventory item is sold.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. The Army WCF
now derives the majority of its reported data from LMP which is designed to collect and record financial information for accruals.
However, estimates are made for some major items such as payroll expenses, entitlement systems accruals, unbilled revenue,
transportation expenses, and military interdepartmental purchase requests because LMP has not yet implemented full functionality
to correctly record some transactions received from feeder systems. The Army WCF continues to implement process and system
improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements in order
to prevent overstatement for business with itself. However, the Army WCF cannot accurately identify intragovernmental transactions
by customer because Army WCF’s systems do not capture buyer and seller data at the transaction level. Generally, seller entities within
the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then eliminated.
The Army WCF is implementing a standard financial information structure that will capture the necessary elements that will enable
Army WCF to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and Treasury Financial Manual, Part 2 –
Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United States Government,” provide guidance for
reporting and reconciling intragovernmental balances. While Army WCF is unable to fully reconcile intragovernmental transactions
with all federal agencies, Army WCF is able to reconcile balances pertaining to FECA transactions with the Department of Labor and
benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal government
does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any public debt, interest
or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does not
allocate such costs to DoD.

1.H.	 Transactions with Foreign Governments and International Organizations
Each year, Army WCF sells defense articles and services to foreign governments and international organizations under the provisions
of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles and services to
                                                                              Army Working Capital Fund 111
                                                Principal Financial Statements, Notes, and Auditor’s Report


foreign countries and international organizations generally at no profit or loss to the federal government. Payment in U.S. dollars is
required in advance.

1.I.	 Funds with the U.S. Treasury
The Army WCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance and
Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Army WCF’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency transfers,
collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. On a monthly basis, Army WCF’s FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J.	 Cash and Foreign Currency
Not Applicable.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds receivable. The
allowance for uncollectible accounts due to the public is based upon an analysis of collection experience grouped by age categories. The
DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental
Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/factsi/manuals/tfm-bulletin-2011-04.pdf.

1.L.	 Direct Loans and Loan Guarantees
Not Applicable.

1.M.	 Inventories and Related Property
The Army WCF has transitioned approximately 94 percent of its resale inventory to LMP which includes moving average cost (MAC)
functionality. However, the on-hand, transitioned balances were not properly baselined to MAC. Accordingly, the Army WCF cannot
confirm the actual historical cost of this inventory and recognizes that a significant portion may not be currently compliant with
Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.”

The Army WCF reports the remaining 6 percent of resale inventories representing nonArmy managed items (NAMI) and the U.S.
Army Medical Materiel Agency (USAMMA) at the latest Defense Logistics Agency (DLA) price or at an approximation of historical
cost using latest acquisition cost (LAC) adjusted for holding gains and losses. The latest DLA price and the LAC method are used
because legacy inventory systems were designed for materiel management rather than financial accounting. Although these systems
provide visibility and accountability over inventory items, they do not maintain historical cost data necessary to comply with SFFAS
No. 3. Additionally, these systems cannot produce financial transactions using the USSGL, as required by the Federal Management
Improvement Act of 1996 (P.L. 104-208). It is expected that USAMMA will transfer from the Army WCF to Operation and
Maintenance, Army funding in FY 2013. A decision for the disposition of NAMI remains pending.

The Army WCF manages only military- or government-specific materiel under normal conditions. Materiel is a unique term that
relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not managed in
Army WCF materiel management activities. Operational cycles are irregular and the military risks associated with stock-out positions
have no commercial parallel. The Army WCF holds materiel based on military need and support for contingencies. The DoD is
currently developing a methodology to be used to account for “inventory held for sale” and “inventory held in reserve for future sale.”
112         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


The Army WCF is in agreement with SFFAS No 3, Interpretation 7, “Items Held for Remanufacture,” that inventory held for repair
should be accounted for as “inventory held for remanufacture.” Inventory held for remanufacture capitalizes repair and rebuild costs,
values unrepaired carcasses at cost, and provides for exchange pricing concepts for customer returns. The Army WCF is unable to
comply with some of the accounting requirements for remanufacturing until such time as all LMP functionality is fully implemented
and all inventory related tasks in the Army Financial Improvement Plan have been addressed.

The Army WCF recognizes excess, obsolete, and unserviceable inventory at net realizable value of $0 pending development of an
effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and managed by
Army WCF. This inventory is retained to support military or national contingencies. Inventory held for repair is damaged inventory
that requires repair to make it suitable for sale. Often, it is more economical to repair these items rather than to procure them. The
Army WCF often relies on weapon systems and machinery no longer in production. As a result, Army WCF supports a process that
encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military
force. Work-in-process balances include (1) costs related to the production or servicing of items, including direct materiel, labor,
applied overhead; (2) the value of finished products or completed services that are yet to be placed in service; and (3) munitions in
production and depot maintenance work with its associated costs incurred in the delivery of maintenance services.

1.N.	 Investments in U.S. Treasury Securities
Not Applicable.

1.O.	 General Property, Plant and Equipment
The DoD’s General Property, Plant & Equipment (PP&E) capitalization threshold is $100 thousand except for real property, which is
$20 thousand. The Army WCF has fully implemented the threshold for all property.

The Army WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E, whether or
not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the Army WCF provides government property to contractors to complete contract
work. The Army WCF either owns or leases such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold, federal
accounting standards require that it be reported on Army WCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides appropriate
General PP&E information for financial statement reporting. The DoD requires the Army WCF to maintain, in its property systems,
information on all property furnished to contractors. These actions are structured to capture and report the information necessary
for compliance with federal accounting standards. The Army WCF has not fully implemented this policy primarily due to system
limitations.

1.P.	 Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be reported
as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods and services
are received. The Army WCF has implemented this policy for advances identified as military and civil service employee pay advances,
travel advances, and advances in contract feeder systems.

1.Q.	Leases
Not Applicable.

1.R.	 Other Assets
Army WCF other assets include credits due for returns and estimated future payments to contractors upon delivery and government
acceptance of satisfactory products.
                                                                                Army Working Capital Fund 113
                                                Principal Financial Statements, Notes, and Auditor’s Report


The Army WCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, Army WCF may
provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as authorized
disbursements to a contractor prior to acceptance of supplies or services by the government. Contract financing payment clauses are
incorporated in the contract terms and conditions and may include advance payments, performance-based payments, commercial
advance and interim payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts.
It is DoD policy to record certain contract financing payments as Other Assets. The Army WCF has fully implemented this policy.
Estimated future payments to contractors are offset by a contingent liability.

 Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress
payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property, shipbuilding, and ship conversion,
alteration, or repair. Progress payments based on percentage or stage-of-completion are reported as construction-in-progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of Contingent
Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Army WCF
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist, but there is at least a
reasonable possibility of incurring a loss or additional losses. The Army WCF’s risk of loss and resultant contingent liabilities arise
from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

1.T.	 Accrued Leave
The Army WCF reports liabilities for accrued compensatory and annual leave for civilians. Sick leave for civilians is expensed as taken.
The liabilities are based on current pay rates.

1.U.	 Net Position
Net position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent
the amounts of budget authority that are unobligated and have not been rescinded or withdrawn. Unexpended appropriations also
represent amounts obligated for which legal liabilities for payments have not been incurred.

The Army WCF currently treats an appropriation as fully expended at the end of the fiscal year in which the appropriation is
received. Beginning in FY 2012, Army WCF is implementing functionality in LMP which will identify and report obligations and
disbursements to the original appropriation. Unobligated and unexpended amounts will be carried forward into subsequent fiscal years
until the appropriation is fully expended.

Cumulative results of operations represent the net difference between expenses and losses, and financing sources (including
appropriations, revenue, and gains), since inception. The cumulative results of operations also include donations and transfers in and
out of assets that were not reimbursed.

1.V.	 Treaties for Use of Foreign Bases
Not Applicable.

1.W.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction
level to a specific obligation, payable, or receivables in the source systems and those reported by the U.S. Treasury.
114         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and collections
do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal categories
based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported undistributed
disbursements and collections are then applied to reduce accounts payable and receivable accordingly.

Unsupported undistributed disbursements are recorded as disbursements in transit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X.	 Fiduciary Activities
Not Applicable.

1.Y.	 Military Retirement and Other Federal Employment Benefits
Not Applicable.

1.Z.	 Significant Events
During 1st Quarter, FY 2011, the Army WCF converted TACOM LCMC and all of the other remaining Army WCF activities, except
NAMI and USAMMA, to the Enterprise Resource Planning (ERP) system, LMP. Also, during FY 2011, major business processes and
LMP programming changes were initiated to include (1) compliance with Treasury reporting attributes, (2) compliance with the SFIS,
(3) full trial balance reporting to include budgetary accounts, and (4) functionality for all funds and budgetary resources distribution
directly in LMP. These changes are scheduled as a major LMP system upgrade in December 2011 with testing and implementation
through FY 2012.



Note 2.	 Nonentity Assets
      As of September 30                                                              2011                        2010
      (Amounts in thousands)
      1. Intragovernmental Assets
          A. Fund Balance with Treasury                                     $                       0 $                        0
          B. Accounts Receivable                                                                    0                          0
          C. Other Assets                                                                           0                          0
          D. Total Intragovernmental Assets                                 $                       0 $                        0
      2. Nonfederal Assets
          A. Cash and Other Monetary Assets                                 $                      0    $                     0
          B. Accounts Receivable                                                                   0                          0
          C. Other Assets                                                                          0                          0
          D. Total Nonfederal Assets                                        $                      0    $                     0
      3. Total Nonentity Assets                                             $                      0    $                     0
      4. Total Entity Assets                                                $             29,585,286    $            26,496,930
      5. Total Assets                                                       $             29,585,286    $            26,496,930
                                                                             Army Working Capital Fund 115
                                                Principal Financial Statements, Notes, and Auditor’s Report



Note 3.	 Fund Balance with Treasury
       As of September 30                                                             2011                       2010
       (Amounts in thousands)
      1. Fund Balances
          A. Appropriated Funds                                              $                     0 $                        0
          B. Revolving Funds                                                               1,900,483                  1,808,081
          C. Trust Funds                                                                           0                          0
          D. Special Funds                                                                         0                          0
          E. Other Fund Types                                                                      0                          0
          F. Total Fund Balances                                             $             1,900,483 $                1,808,081
      2. Fund Balances Per Treasury Versus Agency
          A. Fund Balance per Treasury                                       $             1,900,483 $                1,808,081
          B. Fund Balance per Army WCF                                                     1,900,483                  1,808,081
      3. Reconciling Amount                                                  $                     0 $                        0



Status of Fund Balance with Treasury
       As of September 30                                                             2011                       2010
       (Amounts in thousands)
       1. Unobligated Balance
           A. Available                                                      $             2,150,010 $                1,022,349
           B. Unavailable                                                                          0                          0
       2. Obligated Balance not yet Disbursed                                              8,229,299                  9,468,964
       3. Nonbudgetary FBWT                                                                        0                          0
       4. Non-FBWT Budgetary Accounts                                                     (8,478,826)                (8,683,232)
       5. Total                                                              $             1,900,483 $                1,808,081



Status of Fund Balance with Treasury Definitions
The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation between
budgetary and proprietary accounts. The Status of FBWT primarily consists of unobligated and obligated balances. The balances
reflect the budgetary authority remaining for disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has not
been set aside to cover outstanding obligations. There are no restrictions on the Unobligated Balance.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

NonFBWT Budgetary Accounts reduce the Status of FBWT. For the Army WCF, these balances include unfilled orders without
advances, reimbursements earned-receivable, and contract authority.



Note 4.	 Investments and Related Interest
Not Applicable.
116          Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report



Note 5.	 Accounts Receivable
       As of September 30                                                                        2011
                                                                                         Allowance For Estimated
       (Amounts in thousands)                                         Gross Amount Due        Uncollectibles       Accounts Receivable, Net
       1. Intragovernmental Receivables                           $            424,667                    N/A $                 424,667
       2. Nonfederal Receivables (From the Public)                              30,130 $              (14,446)                   15,684
       3. Total Accounts Receivable                               $            454,797 $              (14,446) $                440,351


       As of September 30                                                                        2010
                                                                                         Allowance For Estimated
       (Amounts in thousands)                                         Gross Amount Due        Uncollectibles       Accounts Receivable, Net
       1. Intragovernmental Receivables                           $            317,663                    N/A $                 317,663
       2. Nonfederal Receivables (From the Public)                              49,365 $              (10,172)                   39,193
       3. Total Accounts Receivable                               $            367,028 $              (10,172) $                356,856



The accounts receivable represent the Army WCF’s claim for payment from other entities. The Army WCF only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with the
intragovernmental business rules.



Note 6.	 Other Assets
       As of September 30                                                                2011                           2010
       (Amounts in thousands)
       1. Intragovernmental Other Assets
           A. Advances and Prepayments                                           $                     3 $                              0
           B. Other Assets                                                                        22,516                            8,232
           C. Total Intragovernmental Other Assets                               $                22,519 $                          8,232
       2. Nonfederal Other Assets
           A. Outstanding Contract Financing Payments                            $              409,748 $                       193,247
           B. Advances and Prepayments                                                           36,280                         422,869
           C. Other Assets (With the Public)                                                          0                               0
           D. Total Nonfederal Other Assets                                      $              446,028 $                       616,116
       3. Total Other Assets                                                     $              468,547 $                       624,348



Other Assets Definition
Other Assets (Intragovernmental) consist of the turn-in of unserviceable and obsolete inventory awaiting credit dispositions from
federal resources, e.g. Defense Logistics Agency.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government that protect
the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in
bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
federal government. The federal government does not have the right to take the work, except as provided in contract clauses related to
termination or acceptance, and the Army WCF is not obligated to make payment to the contractor until delivery and acceptance.
                                                                               Army Working Capital Fund 117
                                               Principal Financial Statements, Notes, and Auditor’s Report


Outstanding Contract Financing Payments
The balance of Outstanding Contract Financing Payments includes $392.7 million in contract financing payments and an additional
$17.0 million in estimated future payments to contractors upon delivery and government acceptance of a satisfactory product. See
additional discussion in Note 15, Other Liabilities.



Note 7.	 Cash and Other Monetary Assets
Not Applicable.



Note 8.	 Direct Loan and Loan Guarantees
Not Applicable.



Note 9.	 Inventory and Related Property
      As of September 30                                                                 2011                       2010
      (Amounts in thousands)
      1. Inventory, Net                                                        $             25,211,515 $             22,309,805
      2. Operating Materiels & Supplies, Net                                                          0                        0
      3. Stockpile Materiel, Net                                                                      0                        0
      4. Total                                                                 $             25,211,515 $             22,309,805



Inventory, Net
     As of September 30                                                             2011
                                                            Inventory, Gross       Revaluation
     (Amounts in thousands)                                      Value              Allowance      Inventory, Net   Valuation Method
     1. Inventory Categories
         A. Available and Purchased for Resale          $     16,571,240       $      (224,934) $ 16,346,306           LAC, MAC
         B. Held for Repair                                    7,204,345               151,630     7,355,975           LAC, MAC
         C. Excess, Obsolete, and Unserviceable                  313,385              (313,385)            0               NRV
         D. Raw Materiel                                       1,373,697                     0     1,373,697          MAC, SP, LAC
         E. Work in Process                                      135,537                     0       135,537               AC
         F. Total                                       $     25,598,204       $      (386,689) $ 25,211,515
118          Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report


       As of September 30                                                                 2010
                                                               Inventory, Gross       Revaluation
       (Amounts in thousands)                                       Value              Allowance       Inventory, Net   Valuation Method
       1. Inventory Categories
           A. Available and Purchased for Resale              $ 17,569,742 $              (2,385,249) $ 15,184,493         LAC, MAC
           B. Held for Repair                                    6,860,360                  (496,588)    6,363,772         LAC, MAC
           C. Excess, Obsolete, and Unserviceable                  467,906                  (467,906)            0            NRV
           D. Raw Materiel                                         710,627                         0       710,627       MAC, SP, LAC
           E. Work in Process                                       50,913                         0        50,913            AC
           F. Total                                           $ 25,659,548 $              (3,349,743) $ 22,309,805

       Legend for Valuation Methods:
       LAC = Latest Acquisition Cost                         NRV = Net Realizable Value
       SP = Standard Price                                   LCM = Lower of Cost or Market
       AC = Actual Cost                                      O = Other
       MAC = Moving Average Cost




Abnormal Balance
The Revaluation Allowance for Inventory Held for Repair has an abnormal balance of $151.6 million as the result of current
functionality in the Logistics Modernization Program (LMP). The issue is being addressed with a system change request.

Restrictions of Inventory Use, Sale, or Disposition
There are restrictions on the use, sale, and disposition of inventory classified as war reserve materiel of $1.3 billion which includes
petroleum products, subsistence items, spare parts, and medical materiel.

Other Information
The categories listed below comprise Inventory, Net. The Army WCF assigns inventory items to a category based upon the type
and condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing and textiles, and
petroleum products. Inventory Held for Repair consists of damaged materiel held as inventory that is more economical to repair than
to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or items that cannot be economically repaired and
are awaiting disposal. Raw Materials consist of items consumed in the production of goods for sale or in the provision of services for a
fee.

Work-in-Process includes costs related to producing or servicing of items, including direct material, direct labor, applied overhead
and other direct costs. Work-in-Process also includes the value of finished products or completed services pending the submission of
bills to the customer. The work-in-process designation may also be used to accumulate the amount paid to a contractor under cost
reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts paid to other government
plants for accrued costs of end items of materiel ordered but not delivered. Work-in-Process includes munitions in production and
depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services.

During FY 2011, Army WCF changed the inventory accounting method from latest acquisition cost to moving average cost for
commands which migrated during the third deployment of LMP.

Operating Materiel and Supplies, Net
Not Applicable.

Stockpile Materiel, Net
Not Applicable.
                                                                                                Army Working Capital Fund 119
                                                             Principal Financial Statements, Notes, and Auditor’s Report



Note 10.	General PP&E, Net
      As of September 30                                                                                   2011
                                                                 Depreciation/                                      (Accumulated
                                                                 Amortization                                       Depreciation/
      (Amounts in thousands)                                       Method        Service Life   Acquisition Value   Amortization)       Net Book Value
      1. Major Asset Classes
         A. Land                                                     N/A               N/A      $           0                N/A $                 0
         B. Buildings, Structures, and Facilities                    S/L         20 or 40           1,852,835 $       (1,435,177)            417,658
         C. Leasehold Improvements                                   S/L         lease term                 0                  0                   0
         D. Software                                                 S/L         2-5 or 10          1,001,228           (473,998)            527,230
         E. General Equipment                                        S/L          5 or 10           1,547,279         (1,212,537)            334,742
         F. Military Equipment                                       S/L          various                   0                  0                   0
          G. Shipbuilding (Construction-in-Progress)                 N/A               N/A                      0                   0                    0
          H. Assets Under Capital Lease                              S/L         lease term                     0                   0                    0
           I. Construction-in-Progress (Excludes
                                                                     N/A               N/A
              Military Equipment)                                                                     284,760                N/A      284,760
          J. Other                                                                                          0                  0            0
          K. Total General PP&E                                                                 $   4,686,102 $       (3,121,712) $ 1,564,390


      As of September 30                                                                                   2010
                                                                 Depreciation/                                      (Accumulated
                                                                 Amortization                                       Depreciation/
      (Amounts in thousands)                                       Method        Service Life   Acquisition Value   Amortization)       Net Book Value
      1. Major Asset Classes
         A. Land                                                     N/A               N/A      $           0          N/A $                       0
         B. Buildings, Structures, and Facilities                    S/L         20 or 40           1,823,526 $ (1,399,994)                  423,532
         C. Leasehold Improvements                                   S/L         lease term             1,427         (227)                    1,200
         D. Software                                                 S/L         2-5 or 10            830,889     (371,359)                  459,530
         E. General Equipment                                        S/L          5 or 10           1,642,622   (1,207,037)                  435,585
         F. Military Equipment                                       S/L          various                   0            0                         0
          G. Shipbuilding (Construction-in-Progress)                 N/A               N/A                      0                   0                    0
          H. Assets Under Capital Lease                              S/L         lease term                     0                   0                    0
           I. Construction-in-Progress (Excludes
                                                                     N/A               N/A
              Military Equipment)                                                                      77,993          N/A                    77,993
          J. Other                                                                                          0            0                         0
          K. Total General PP&E                                                                 $   4,376,457 $ (2,978,617) $              1,397,840

      Note 15 for additional information on Capital Leases
      1


      Legend for Valuation Methods:
      S/L = Straight Line                                       N/A = Not Applicable




Assets Under Capital Lease
Not Applicable.
120          Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report



Note 11.	Liabilities Not Covered by Budgetary
         Resources
       As of September 30                                                               2011                        2010
       (Amounts in thousands)
       1. Intragovernmental Liabilities
           A. Accounts Payable                                                  $                      0 $                         0
           B. Debt                                                                                     0                           0
           C. Other                                                                               63,765                      45,627
           D. Total Intragovernmental Liabilities                               $                 63,765 $                    45,627
       2. Nonfederal Liabilities
           A. Accounts Payable                                                  $                    0        $                 0
           B. Military Retirement and Other Federal Employment Benefits                        221,632                    219,913
           C. Environmental Liabilities                                                              0                          0
           D. Other Liabilities                                                                      0                          0
           E. Total Nonfederal Liabilities                                      $              221,632        $           219,913
       3. Total Liabilities Not Covered by Budgetary Resources                  $              285,397        $           265,540
       4. Total Liabilities Covered by Budgetary Resources                                   1,364,156                  1,157,111
       5. Total Liabilities                                                     $            1,649,553        $         1,422,651


Liabilities Not Covered by Budgetary Resources include amounts for which congressional action is needed before budgetary resources
can be provided.

Intragovernmental Other Liabilities represent future-funded Federal Employees’ Compensation Act (FECA) liabilities billed to
Army WCF by the Department of Labor (DOL) for payments made by DOL to Army beneficiaries.

Military Retirement and Other Federal Employment Benefits comprise various employee actuarial liabilities not due and payable
during the current fiscal year. These liabilities primarily consist of $221.6 million for the FECA actuarial reserve. Refer to Note 17,
Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.



Note 12.	Accounts Payable
       As of September 30                                                                       2011
                                                                                        Interest, Penalties, and
       (Amounts in thousands)                                        Accounts Payable     Administrative Fees         Total
       1. Intragovernmental Payables                             $            125,110                       N/A $          125,110
       2. Nonfederal Payables (to the Public)                                 658,288 $                       0            658,288
       3. Total                                                  $            783,398 $                       0 $          783,398


       As of September 30                                                                       2010
                                                                                        Interest, Penalties, and
       (Amounts in thousands)                                        Accounts Payable     Administrative Fees         Total
       1. Intragovernmental Payables                             $            103,071                       N/A $          103,071
       2. Nonfederal Payables (to the Public)                                 659,167 $                       0            659,167
       3. Total                                                  $            762,238 $                       0 $          762,238


Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by Army WCF. The
Army WCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side accounts payable are
                                                                                 Army Working Capital Fund 121
                                               Principal Financial Statements, Notes, and Auditor’s Report


adjusted to agree with interagency seller-side accounts receivable. Accounts payable were adjusted by reclassifying amounts between
federal and nonfederal accounts payable.



Note 13.	Debt
Not Applicable.



Note 14.	Environmental Liabilities and Disposal
         Liabilities
Not Applicable.



Note 15.	Other Liabilities
   As of September 30                                                                          2011                          2010
                                                                                          Noncurrent
   (Amounts in thousands)                                         Current Liability        Liability    Total                Total

   1. Intragovernmental
       A. Advances from Others                                   $       2,543        $            0   $         2,543   $        0
       B. Deposit Funds and Suspense Account Liabilities                     0                     0                 0            0
       C. Disbursing Officer Cash                                            0                     0                 0            0
       D. Judgment Fund Liabilities                                          0                     0                 0            0
       E. FECA Reimbursement to the Department of Labor                 19,620                44,145            63,765       45,626
       F. Custodial Liabilities                                              0                     0                 0            0
       G. Employer Contribution and Payroll Taxes Payable               19,689                     0            19,689       17,792
       H. Other Liabilities                                                  0                     0                 0            0
       I. Total Intragovernmental Other Liabilities              $      41,852        $       44,145   $        85,997   $   63,418
   2. Nonfederal
       A. Accrued Funded Payroll and Benefits                    $ 241,428            $            0   $ 241,428         $ 268,589
       B. Advances from Others                                      94,166                         0      94,166            71,376
       C. Deferred Credits                                               0                         0           0                 0
       D. Deposit Funds and Suspense Accounts                            0                         0           0                 0
       E. Temporary Early Retirement Authority                           0                         0           0           (20,703)
       F. Nonenvironmental Disposal Liabilities                          0                         0           0                 0
             (1) Military Equipment (Nonnuclear)                         0                         0           0                 0
             (2) Excess/Obsolete Structures                              0                         0           0                 0
             (3) Conventional Munitions Disposal                         0                         0           0                 0
       G. Accrued Unfunded Annual Leave                                  0                         0           0                 0
       H. Capital Lease Liability                                        0                         0           0                 0
       I. Contract Holdbacks                                        30,769                         0      30,769               471
       J. Employer Contribution and Payroll Taxes Payable           31,620                         0      31,620            24,571
       K. Contingent Liabilities                                   101,199                    16,978     118,177            32,778
       L. Other Liabilities                                         42,366                         0      42,366                 0
       M. Total Nonfederal Other Liabilities                     $ 541,548            $       16,978   $ 558,526         $ 377,082
   3. Total Other Liabilities                                    $ 583,400            $       61,123   $ 644,523         $ 440,500
122         Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report


Capital Lease Liability
Not Applicable.

Nonfederal Other Liabilities
Nonfederal Other Liabilities primarily consists of material returns of nonArmy managed items in the amount of $38.2 million which
cannot be identified to a specific trading partner.

Contingent Liabilities
Contingent liabilities includes $17.0 million related to contracts authorizing progress payments based on cost as defined in the
Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to a contractor’s work vests with the federal
government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event of contract
nonperformance. These rights should not be misconstrued as rights of ownership. The Army WCF is under no obligation to pay
contractors for amounts greater than the amounts authorized in contracts until delivery and government acceptance. Due to the
probability the contractors will complete their efforts and deliver satisfactory products, and because the amount of potential future
payments are estimable, the Army WCF has recognized a contingent liability for estimated future payments which are conditional
pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred to date
by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by the contract-
authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.



Note 16.	Commitments and Contingencies
The Army WCF is a party in various administrative proceedings and legal actions, with claims, including environmental damage
claims, equal opportunity matters, and contractual bid protests.

The Army WCF has accrued contingent liabilities for legal actions when the Office of General Counsel (OGC) considers an adverse
decision probable and the amount of loss is measurable. In the event of an adverse judgment against the Government, some of the
liabilities may be payable from the U.S. Treasury Judgment Fund. The Army WCF records contingent liabilities in Note 15, Other
Liabilities.

Other Information Pertaining to Commitments
The Army WCF is a party in numerous individual contracts that contain clauses, such as price escalation, award-fee payments,
or dispute resolution, that may result in a future outflow of expenditures. Currently, Army WCF has limited automated system
processes by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly present
Army WCF’s contingent liabilities.
                                                                                    Army Working Capital Fund 123
                                                  Principal Financial Statements, Notes, and Auditor’s Report



Note 17.	Military Retirement and Other Federal
         Employment Benefits
       As of September 30                                                                         2011                                            2010
                                                                                                (Less: Assets
                                                                                               Available to Pay
       (Amounts in thousands)                                                Liabilities          Benefits)           Unfunded Liabilities   Unfunded Liabilities

       1. Pension and Health Benefits
           A. Military Retirement Pensions                               $                 0 $                    0 $                  0 $                    0
           B. Military Pre Medicare Retiree Health Benefits                                0                      0                    0                      0
           C. Military Medicare-Eligible Retiree Health Benefits                           0                      0                    0                      0
           D. Total Pension and Health Benefits                          $                 0 $                    0 $                  0 $                    0
       2. Other Actuarial Benefits
           A. FECA                                                       $    221,632 $                           0 $       221,632 $              219,913
           B. Voluntary Separation Incentive Programs                               0                             0               0                      0
           C. DoD Education Benefits Fund                                           0                             0               0                      0
           D. Other                                                                        0                      0                    0                      0
           E. Total Other Actuarial Benefits                             $    221,632 $                           0 $       221,632 $              219,913
       3. Total Military Retirement and Other Federal Employment
          Benefits:                                                      $    221,632 $                           0 $       221,632 $              219,913



Federal Employees’ Compensation Act
The Army WCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to
Army WCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred-but-not-reported claims. The liability is determined using a
method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments. The
projected annual benefit payments are discounted to present value using the Office of Management and Budget’s (OMB’s) economic
assumptions for 10-year Treasury notes and bonds. Cost of living adjustments (COLAs) and consumer price index medical (CPIM)
factors are applied to the calculation of projected future benefits. The actuarial liability for the Federal Employees’ Compensation Act
(FECA) increased $1.7 million between FY 2010 and FY 2011.

Actuarial Cost Method
The estimate for future workers’ compensation benefits includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined using a
method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related to
that period.

Assumptions
Consistent with past practice, these projected annual benefit payments have been discounted to present value using OMB’s economic
assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

Discount Rates

3.535% in Year 1
4.025% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation factors
(cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied to the
calculation of projected future benefits. The actual rates for these factors for the charge back year (CBY) 2011 were also used to adjust
124          Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report


the methodology’s historical payments to current year constant dollars. The compensation COLAs and CPIMs used in the projections
for various CBY were as follows:

                                                  CBY             COLA             CPIM
                                                  2011             N/A              N/A
                                                  2012            2.10%            3.07%
                                                  2013            2.53%            3.62%
                                                  2014            1.83%            3.66%
                                                  2015            1.93%            3.73%
                                                  2016 +          2.00%            3.73%


The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four tests: (1) a
sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability amount to the
percentage change in the actual incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2011 to the average pattern observed during the most current three charge back years, and (4) a comparison of the
estimated liability per case in the 2011 projection to the average pattern for the projections of the most recent three projections.

Other Disclosures
Actuarial liabilities are computed for employee compensation benefits as mandated by the FECA. The Office of Personnel
Management provides updated Army actuarial liabilities during the 4th Quarter of each fiscal year. The Army WCF computes its
portion of the total Army actuarial liability based on the percentage of Army WCF FECA expense to the total Army FECA expense.

The actuaries calculate the actuarial liability annually based on the assumed interest rate of 3.54 percent that was approved by the DoD
Board of Actuaries.



Note 18.	General Disclosures Related to the
         Statement of Net Cost
       Intragovernmental Costs and Exchange Revenue
       As of September 30                                                               2011                        2010
       (Amounts in thousands)
      Operations, Readiness & Support
      1. Gross Cost
          A.Intragovernmental Cost                                            $             3,315,509     $            3,660,487
          B.Nonfederal Cost                                                                26,314,072                 25,408,223
          C.Total Cost                                                        $            29,629,581     $           29,068,710
      2. Earned Revenue
          A.Intragovernmental Revenue                                         $            (14,497,643) $             (15,360,609)
          B.Nonfederal Revenue                                                             (18,764,152)               (14,333,015)
          C.Total Revenue                                                                  (33,261,795)               (29,693,624)
      3. Losses/(Gains) from Actuarial Assumption
      Changes for Military Retirement Benefits                                                       0                          0
      4. Costs Not Assigned to Programs                                                              0                          0
      5. (Less: Earned Revenues) Not Attributed toPrograms                                           0                          0
      Total Net Cost                                                          $             (3,632,214) $                (624,914)



Definitions
Intragovernmental costs and revenue represent transactions made between two reporting entities within the federal government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.
                                                                              Army Working Capital Fund 125
                                               Principal Financial Statements, Notes, and Auditor’s Report


Other Information Regarding Costs
The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government that are supported
by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount of output
or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current processes and
systems do not capture and report accumulated costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost reporting
methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting
Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”

While Army WCF activities generally record transactions on an accrual basis, as is required by federal generally accepted accounting
principles, the systems do not always capture actual costs. Some of the information presented on the Consolidated Statement of Net
Cost is based on nonfinancial feeder systems, including property accountability and logistics systems. The Army WCF has converted
to the Logistics Modernization Program to address this issue.

Additional Disclosure
The Army WCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses are
adjusted to agree with internal seller-side revenues. Expenses were adjusted by reclassifying amounts between federal and nonfederal
expenses. Intradepartmental revenues and expenses are then eliminated.



Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
Other Financing Sources, Other on the Statement Changes in Net Position consists of other gains and other losses from nonexchange
activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be identified.



Note 20.	Disclosures Related to the Statement of
         Budgetary Resources
       As of September 30                                                                           2011             2010
       (Amounts in thousands)

       1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End
          of the Period                                                                      $      7,452,394 $      9,146,899
       2. Available Borrowing and Contract Authority at the End of the Period                $              0 $              0



Apportionment Category
All Army WCF obligations represent reimbursable obligations in apportionment category B.

Presentation of Statement of Budgetary Resources
The Army WCF Statement of Budgetary Resources includes intraentity transactions because the statements are presented as combined.

Legal Arrangements Affecting Use of Unobligated Balances
There are no legal arrangements affecting the use of unobligated balances of budgetary authority.
126          Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Abnormal Balance
Allotments - Realized Resources has an abnormal balance of $2.3 billion. This abnormal balance needs additional research to
determine the source.



Note 21.	Reconciliation of Net Cost of Operations to
         Budget
    As of September 30                                                                        2011                 2010
    (Amounts in thousands)
    Resources Used to Finance Activities:
    Budgetary Resources Obligated:
    1. Obligations incurred                                                            $      14,948,424 $          16,261,161
    2. Less: Spending authority from offsetting collections and recoveries (-)               (18,628,537)          (18,682,332)
    3. Obligations net of offsetting collections and recoveries                        $       (3,680,113) $         (2,421,171)
    4. Less: Offsetting receipts (-)                                                                    0                     0
    5. Net obligations                                                                 $       (3,680,113) $         (2,421,171)
    Other Resources:
    6. Donations and forfeitures of property                                           $               0 $                    0
    7. Transfers in/out without reimbursement (+/-)                                             (394,625)           (1,398,190)
    8. Imputed financing from costs absorbed by others                                           208,360               209,352
    9. Other (+/-)                                                                                60,869             1,163,871
    10. Net other resources used to finance activities                                 $        (125,396) $             (24,967)
    11. Total resources used to finance activities                                     $      (3,805,509) $         (2,446,138)
    Resources Used to Finance Items not Part of the Net Cost of Operations:
    12. Change in budgetary resources obligated for goods, services and benefits
        ordered but not yet provided:
             12a. Undelivered Orders (-)                                               $       1,694,505    $        1,450,822
             12b. Unfilled Customer Orders                                                     1,611,879              (364,859)
    13. Resources that fund expenses recognized in prior Periods (-)                                   0                (98,553)
    14. Budgetary offsetting collections and receipts that do not affect Net Cost of
        Operations                                                                                     0                     0
    15. Resources that finance the acquisition of assets (-)                                  (7,249,639)           (7,488,952)
    16. Other resources or adjustments to net obligated resources that do not affect
        Net Cost of Operations:
             16a. Less: Trust or Special Fund Receipts Related to exchange in the
                Entity’s Budget (-)                                                                    0                     0
             16b. Other (+/-)                                                                    333,756               234,319
    17. Total resources used to finance items not part of the Net Cost of Operations   $      (3,609,499) $         (6,267,223)
    18. Total resources used to finance the Net Cost of Operations                     $      (7,415,008) $         (8,713,361)
                                                                             Army Working Capital Fund 127
                                              Principal Financial Statements, Notes, and Auditor’s Report


      As of September 30                                                                          2011               2010
      (Amounts in thousands)
      Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Period:
      19. Increase in annual leave liability                                              $              0 $                   0
      20. Increase in environmental and disposal liability                                               0                     0
      21. Upward/Downward reestimates of credit subsidy expense (+/-)                                    0                     0
      22. Increase in exchange revenue receivable from the public (-)                                    0                     0
      23. Other (+/-)                                                                                19,857                    0
      24. Total components of Net Cost of Operations that will Require or Generate
         Resources in future periods                                                        $        19,857    $               0
      Components not Requiring or Generating Resources:
      25. Depreciation and amortization                                                     $       214,143 $          132,592
      26. Revaluation of assets or liabilities (+/-)                                             (3,562,869)        (1,482,128)
      27. Other (+/-)
              27a. Trust Fund Exchange Revenue                                                           0                  0
              27b. Cost of Goods Sold                                                           12,758,695          9,525,406
              27c. Operating Material and Supplies Used                                                  0                  0
              27d. Other                                                                        (5,647,032)           (87,422)
      28. Total Components of Net Cost of Operations that will not Require or Generate
         Resources                                                                          $    3,762,937     $    8,088,448
      29. Total components of Net Cost of Operations that will not Require or Generate
         Resources in the current period                                                          3,782,794         8,088,448
      30. Net Cost of Operations                                                            $    (3,632,214) $       (624,913)



Required Disclosures
Due to Army WCF’s financial systems limitations, budgetary data do not agree with proprietary expenses and capitalized assets. The
difference between budgetary and proprietary data is a previously identified deficiency.

Resources that Finance the Acquisition of Assets were adjusted by $889.1 million to bring the note schedule into agreement with the
Statement of Net Cost.

Reconciliation of Net Cost of Operations to Budget lines is presented as combined instead of consolidated due to intraagency
budgetary transactions not being eliminated:

    n	 Obligations Incurred
    n	 Less: Spending Authority from Offsetting Collections and Recoveries
    n	 Obligations Net of Offsetting Collections and Recoveries
    n	 Net Obligations
    n	 Undelivered Orders
    n	 Unfilled Customer Orders


Other Resources, Other consists of other gains and other losses from nonexchange activity primarily attributable to intragovernmental
transfers-in/out for which trading partners could not be identified.

Other Resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other consists of other gains and
losses from nonexchange activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be
identified and the correction of prior-period adjustments that did not meet the materiality thresholds.
128         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


Components not Requiring or Generating Resources Other, Other consists of cost capitalization offsets. Agencies must first record all
expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost Capitalization Offset account when the
costs are capitalized to the appropriate “in-process type” account.



Note 22.	Disclosures Related to Incidental Custodial
         Collections
Not Applicable.



Note 23.	Earmarked Funds
Not Applicable.



Note 24.	Fiduciary Activities
Not Applicable.



Note 25.	Other Disclosures
Not Applicable.



Note 26.	Restatements
Not Applicable.
                                                                                      Army Working Capital Fund 129
                                                    Principal Financial Statements, Notes, and Auditor’s Report



                                                                 INSPECTOR GENERAL
                                                              DEPARTMENT OF DEFENSE
                                                                400 ARMY NAVY DRIVE
                                                           ARLINGTON, VIRGINIA 22202-4704



                                                                                                                              November 8, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: 	Independent Auditor’s Report on the Army Working Capital Fund FY 2011 and FY 2010 Basic Financial Statements
          (Report No. DODIG-2012-013)



The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2011 and 2010, and the Consolidated
Statement of Net Cost, Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and
related notes for the fiscal years then ended. The financial statements are the responsibility of Army management. The Army is also
responsible for implementing effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Army Working Capital Fund FY 2011 and FY 2010 Basic Financial Statements because
of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer of opinion
on the financial statements, we are including the required Report on Internal Control and Compliance With Laws and Regulations
(Report). The Report is an integral part of our disclaimer of opinion on the financial statements and should be considered in assessing
the results of our work.

Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army Working Capital Fund FY 2011
and FY 2010 Basic Financial Statements would not substantially conform to accounting principles generally accepted in the United
States of America (U.S. GAAP) and that Army financial management and feeder systems were unable to adequately support material
amounts on the financial statements as of September 30, 2011. Section 1008(d) of the FY 2002 National Defense Authorization
Act limits the Department of Defense Inspector General to performing only those audit procedures required by generally accepted
government auditing standards that are consistent with the representations made by management. Accordingly, we did not
perform auditing procedures required by U.S. Government Accountability Office, “Government Auditing Standards,” and Office
of Management and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” as amended,* to
determine whether material amounts on the financial statements were presented fairly.

Prior audits have identified, and the Army has acknowledged, the long-standing material internal control weaknesses identified in
the Summary of Internal Control. These pervasive material weaknesses may affect the reliability of certain information contained
in basic financial statements. Therefore, we are unable to express, and we do not express, an opinion on the basic financial
statements. Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis, Required
Supplementary Information, and Other Accompanying Information, presented with the basic financial statements. Accordingly, we
express no opinion on that information.




*	 OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” September 23, 2009.
130         Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report


Summary of Internal Control
In planning our work, we considered the Army internal control over financial reporting and compliance with applicable laws and
regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB guidance, but
our purpose was not to express an opinion on internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and compliance with applicable laws and
regulations. However, previously identified significant deficiencies, all of which are material, continued to exist in the following areas:

    ■■ Financial Management Systems	

    ■■ Inventory

    ■■ General Property, Plant, and Equipment

    ■■ Accounts Payable

    ■■ Abnormal Account Balances

    ■■ Statement of Net Cost

    ■■ Statement of Budgetary Resources

    ■■ Intragovernmental Eliminations

    ■■ Accounting Entries

    ■■ Reconciliation of Net Cost of Operations to Budget

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant deficiencies. The
attachment offers additional details on significant deficiencies, all of which we consider to be material internal control weaknesses.

The Army reported the above weaknesses in its FY 2011 Statement of Assurance.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations related to financial
reporting because management acknowledged that instances of noncompliance identified in prior audits continued to exist. The
Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army financial management systems do
not substantially comply with Federal financial management system requirements, U.S. GAAP, and the U.S. Government Standard
General Ledger at the transaction level. Therefore, we did not determine whether the Army complied with all applicable laws and
regulations related to financial reporting. Providing an opinion on compliance with certain provisions of laws and regulations was not
an objective of our audit, and accordingly, we do not express such an opinion. See the Attachment for additional details on compliance
with laws and regulations.

Management’s Responsibilities
Management is responsible for:

    ■■ preparing the financial statements in conformity with U.S. GAAP;

    ■■ establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of
       the Federal Managers’ Financial Integrity Act are met; and

    ■■ complying with applicable laws and regulations.
                                                                            Army Working Capital Fund 131
                                              Principal Financial Statements, Notes, and Auditor’s Report


We provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial Operations) who provided technical
comments that we have incorporated as appropriate. Army officials expressed their continuing commitment to addressing the
problems this report outlines.




                                                                         Patricia A. Marsh, CPA
                                                                         Assistant Inspector General
                                                                         Financial Management and Reporting

Attachment:
As stated
132      Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report
                                                                              Army Working Capital Fund 133
                                               Principal Financial Statements, Notes, and Auditor’s Report


                                Report on Internal Control and
                             Compliance With Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable assurance that
accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws and regulations are met;
and that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on
internal control over financial reporting. However, we have identified the following material weaknesses, which could adversely affect
the Army Working Capital Fund financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified significant deficiencies, all of which are material, continued to exist in the
following areas.

Financial Management Systems
The Army Working Capital Fund systems do not meet the requirements for full accrual accounting. The systems do not collect and
record financial information as required by U.S. GAAP. The financial and nonfinancial feeder systems do not contain the required
system integration to provide a transaction-level audit trail for the amounts reported in the proprietary and budgetary general ledger
accounts.

On October 21, 2010, the Army completed full deployment of the Logistics Modernization Program system. However, DoD
Inspector General Report D-2011-015, “Insufficient Governance Over Logistics Modernization Program System Development,”
November 2, 2010, reported that the system was not configured to comply with the U.S. Government Standard General Ledger or
to record transactional data as required by the DoD Standard Financial Information Structure. The Army reported that a December
2011 system upgrade should bring the Logistics Modernization Program system into compliance with the U.S. Government Standard
General Ledger and the DoD Standard Financial Information Structure.

The Army continues to derive a portion of its financial information for the Army Working Capital Fund from budgetary transactions
and data from nonfinancial feeder systems, such as the Commodity Command Standard System. Although the final Logistics
Modernization Program system deployment occurred, the Army did not include two Army Working Capital Fund activities, TACOM-
Rock Island Non-Army Managed Inventory and U.S. Army Medical Material Agency, in the Logistics Modernization Program system
deployment plan and continues to use the Commodity Command Standard System to report financial information for these activities.

The Government Accountability Office, DoD Office of Inspector General, and U.S. Army Audit Agency continue to issue audit
reports that identify significant data integrity and system integration problems, questioning whether the Logistics Modernization
Program system will record transaction-level data correctly to support the financial statements. The Army does not expect to complete
all corrective actions to resolve the financial management systems weakness until FY 2015.

Inventory
As of September 30, 2011, the Army reported 94 percent of its resale inventory in the Logistics Modernization Program system,
which is capable of recording inventory using moving average cost. However, the inventory valuation method used for the remaining
6 percent of the Army Working Capital Fund inventory does not produce an auditable approximation of historical cost as required
by Statement of Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” The Army uses the
latest acquisition cost method of valuing this inventory because the Army designed the Commodity Command Standard System for
materiel management, rather than for accounting in conformance with U.S. GAAP. In addition, because the Commodity Command
Standard System was unable to produce financial transactions using the U.S. Government Standard General Ledger accounts, and
neither the Defense Finance and Accounting Service (DFAS) nor the Army reconciled all differences between the accounting records
and the logistical records, they accepted the data from the logistical records and adjusted the accounting records by $1.4 billion.

The Army also reported that it did not properly baseline the transitioning on-hand balances into the Logistics Modernization Program
system using moving average cost. Accordingly, the Army Working Capital Fund could not confirm the actual historical cost of this
134         Army Working Capital Fund
      Principal Financial Statements, Notes, and Auditor’s Report


inventory and recognized that a significant portion may not be currently compliant with Statement of Federal Financial Accounting
Standards No. 3. In addition, Army Working Capital Fund incorrectly classified Operating Material and Supplies held at Army
Working Capital Fund depots as Inventory. The Army does not expect to complete all corrective actions to resolve this weakness until
FY 2015.

General Property, Plant, and Equipment
The reported value of Army Working Capital Fund General Property, Plant, and Equipment is unreliable because the Army lacks the
documentation needed to support the historical acquisition costs of its assets. In addition, because of system limitations, the Army has
not fully implemented DoD policy that requires an entity to maintain information in its property systems on all property furnished to
contractors. The Army has not fully implemented a methodology to baseline acquisition costs for all property, plant, and equipment.
Army Working Capital Fund activities sometimes recorded the acquisition data and cost incorrectly or received incorrect information
from the feeder systems.

The Army Assistant Chief of Staff for Installation Management directed that Army Working Capital Fund activities conduct a
100-percent inventory of real property and establish auditable documentation, using the methodology established in the Real Property
Audit Readiness Handbook. As of September 30, 2011, the Office of Assistant Chief of Staff for Installation Management reported
that it had completed asset existence validation assistance visits and file assembly assistance visits to all 26 Army Working Capital Fund
activities to develop supportable cost documentation for each asset inventoried.

The DoD Financial Management Regulation, volume 4, chapter 6, annex 4, “Real Property Financial Reporting,” requires the
recording of the acquisition value of real property assets and associated depreciation on the financial statements of the DoD entity that
funded the acquisition. Entities that use assets they did not fund must recognize their share of the assets’ depreciation and sustainment
and maintenance costs by either reimbursing the entity who records the asset on its financial statements or recording the imputed costs
incurred on their financial statements. The Army had not taken actions to assess the assets reported in the Army Working Capital
Fund real property accounts to determine whether the Army Working Capital Fund acquired the assets reported on the financial
statements. The Army plans to correct this weakness by FY 2015.

Accounts Payable
The Logistics Modernization Program system did not establish accounts payable in accordance with Statement of Federal Financial
Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” which required the Army to establish an Account
Payable when it accepts title to goods or services. Consequently, DFAS adjusted Accounts Payable balances to derive the reported
balances. The Army Working Capital Fund activities could not reconcile their Accounts Payable transactions with the corresponding
Intragovernmental Accounts Receivable that generated the payables. As a result, DFAS made $18.1 million in unsupported
adjustments, which decreased Intragovernmental Accounts Payable, forcing the amounts to agree with Army Working Capital Fund
trading partners. In addition, DFAS adjusted Accounts Payable with the Public downward by $147.4 million for undistributed
disbursements.

Abnormal Account Balances
In FY 2011, the Army Working Capital Fund Industrial Operations and Supply Management activities (limit-level) reported
27 abnormal account balances, valued at $983 million. The Army and DFAS used the 27 abnormal balances to compute the amounts
reported on the Balance Sheet for such items as General Property, Plant, and Equipment; Inventory; Accounts Payable; and Other
Assets. In addition, the posting accounts used to develop the trial balances in the Logistics Modernization Program system contained
at least 976 abnormal account balances valued at $135.2 billion. Army financial statement reporting practices hid these balances.

Statement of Net Cost
The Army did not present the Army Working Capital Fund’s Statement of Net Cost by major program, as required by OMB Circular
No. A-136, “Financial Reporting Requirements,” September 29, 2010. The Army Working Capital Fund’s programs should align with
the major goals and outputs described in the strategic and performance plans required by the Government Performance and Results
Act of 1993. Financial management systems did not accurately capture costs for Army Working Capital Fund programs or properly
account for intragovernmental transactions and related eliminations. In addition, the Army used budgetary obligations, collections,
and disbursement data to present some of the information reported on the Army Working Capital Fund’s Statement of Net Cost.
                                                                              Army Working Capital Fund 135
                                               Principal Financial Statements, Notes, and Auditor’s Report


Statement of Budgetary Resources
OMB Circular No. A-136 states that the entity should develop the Statement of Budgetary Resources predominantly from the
budgetary general ledger accounts in accordance with budgetary accounting rules. The Army did not use data received from the Army
Working Capital Fund budgetary general ledger accounts reported by the Logistics Modernization Program system to populate the
Statement of Budgetary Resources. Instead, DFAS continued to use budget execution data contained in status reports. In addition,
DFAS made $201.6 million in adjustments to the budgetary accounts because the accounting systems did not correctly record
budgetary transactions related to Advances and Prepayments. The Army’s target date to correct this weakness is FY 2015.

Intragovernmental Eliminations
DoD was unable to collect, exchange, and reconcile buyer and seller intragovernmental transactions, resulting in adjustments that were
not verifiable. The Logistics Modernization Program system did not capture the correct Standard Financial Information Structure
business partner information at the transaction level needed to facilitate reconciling and eliminating intragovernmental transactions.
DoD procedures require that the Army adjust its buyer-side transaction data to agree with seller-side transaction data from other
Government entities, without the entities performing proper reconciliations. As a result, DFAS made $2 billion in adjustments to
Army Working Capital Fund accounts to force the accounts to agree with the corresponding records of intragovernmental trading
partners.

Accounting Entries
DFAS made unsupported accounting adjustments, valued at $219.1 million, to force amounts to agree with other sources of
information and records used in preparing the FY 2011 Army Working Capital Fund Financial Statements. The unsupported
accounting adjustments present a material uncertainty regarding the line item balances on the FY 2011 Army Working Capital Fund
Financial Statements.

Reconciliation of Net Cost of Operations to Budget
Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting,” requires a reconciliation of proprietary and budgetary information to assist users
in understanding the relationship of the data. The Army could not reconcile the information reported in Note 21 with the Army
Working Capital Fund’s Statement of Net Cost without preparing $889.1 million in unsupported adjustments to the general ledger
accounts to force costs to match obligation information.

These financial management deficiencies may cause inaccurate management information. As a result, Army management decisions
based in whole or in part on this information may be adversely affected. Financial information reported by DoD may also contain
misstatements resulting from these deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited our work to
determining compliance with selected provisions of the applicable laws and regulations because management acknowledged instances
of noncompliance, and previously reported instances of noncompliance continued to exist. Therefore, we did not determine whether
the Army complied with selected provisions of all applicable laws and regulations related to financial reporting. Our objective was not
to, and we do not, express an opinion on overall compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain financial management systems
that comply substantially with Federal financial management system requirements, applicable Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level. The Federal Financial Management Improvement Act also requires
DoD to develop a remediation plan when its financial management systems do not comply with Federal financial management systems
requirements. The remediation plan is to include remedies, resources required, and milestones. For FY 2011, the Army did not
comply with the Federal Financial Management Improvement Act and acknowledged that its critical financial management and feeder
systems did not substantially comply with Federal financial management systems requirements, Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level as of September 30, 2011.
136          Army Working Capital Fund
       Principal Financial Statements, Notes, and Auditor’s Report


Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Army and its agents to making or authorizing
only expenditures or obligations that do not exceed the available appropriations or funds. Additionally, the Army or its agents may
not contract or obligate for the payment of money before an appropriation is made available for that contract or obligation unless
otherwise authorized by law. According to 31 U.S.C. § 1351 (2004), if an officer or employee of an executive agency violates the
Antideficiency Act (ADA), the head of the agency must report immediately to the President and Congress all relevant facts and a
statement of actions taken.

DoD internal guidance limits the time from identification to reporting of ADA violations to 12 months.* Our review of the Army
ADA violations reported in FY 2011 showed that the Army did not process one ADA violation case within 12 months. The Army
Materiel Command closed the formal investigation of a potential ADA violation at Blue Grass Army Depot on June 14, 2011 finding
that no violation had occurred. Therefore, Army did comply with 31 U.S.C. §§ 1341 (1990) and 1351 (2004).

Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on April 29, 2011, that the Army financial
management and feeder systems could not provide adequate evidence supporting various material amounts on the financial statements
and that previously identified material weaknesses continued to exist. Therefore, we did not perform detailed testing related to
previously identified material weaknesses. In addition, we did not perform audit work related to the following selected provisions of
laws and regulations: Government Performance and Results Act, Prompt Payment Act, Provisions Governing Claims of the United
States Government (including provisions of the Debt Collection Improvement Act), Federal Credit Reform Act, Improper Payments
Information Act, and the Pay and Allowance System for Civilian Employees.

This report does not include recommendations to correct the material internal control weaknesses and instances of noncompliance
with laws and regulations because previous audit reports contained recommendations for corrective actions or because audit projects
currently in progress will include appropriate recommendations.




*	 DoD Financial Management Regulation, Volume 14, Chapter 7, “Antideficiency Act Report,” November 2010, extended the time limit from 12 months to
   15 months.
   We are interested in your feedback regarding the content of this report.
Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                     Department of the Army
             Office of the Deputy Assistant Secretary of the Army
                   (Financial Management and Comptroller)
                      Office of the Financial Reporting Directorate
                           Room 3A312, 109 Army Pentagon
                              Washington, DC 20310-0109

     Additional copies of this report can be obtained by sending a written request to
                       the e-mail or mailing address listed above.

                          You may also view this document at:
                      http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                  The Soldier’s Creed
                I am an American Soldier.
I am a Warrior and a member of a team. I serve the people
      of the United States and live the Army Values.
           I will always place the mission first.
                I will never accept defeat.
                     I will never quit.
           I will never leave a fallen comrade.
      I am disciplined, physically and mentally tough,
   trained and proficient in my warrior tasks and drills.
  I always maintain my arms, my equipment and myself.
         I am an expert and I am a professional.
 I stand ready to deploy, engage, and destroy the enemies
     of the United States of America in close combat.
I am a guardian of freedom and the American way of life.
                I am an American Soldier.




                  United States Army:
   1500 Army Pentagon, Washington, DC 20310-1500
                   www.army.mil
